<html>
<title> - BORDER SECURITY, COMMERCE, AND TRAVEL: COMMISSIONER MC ALEENAN'S VISION FOR THE FUTURE OF CBP</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


BORDER SECURITY, COMMERCE, AND TRAVEL: COMMISSIONER MCALEENAN'S VISION 
                         FOR THE FUTURE OF CBP

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                               BORDER AND
                           MARITIME SECURITY

                                 OF THE

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 25, 2018

                               __________

                           Serial No. 115-62

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                                     

        Available via the World Wide Web: http://www.govinfo.gov

                               __________
                               
                               
                     U.S. GOVERNMENT PUBLISHING OFFICE                    
30-900 PDF                  WASHINGTON : 2018                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2a4d5a456a495f595e424f465a0449454704">[email&#160;protected]</a> 
                               
                               
                               
                               

                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Sheila Jackson Lee, Texas
Mike Rogers, Alabama                 James R. Langevin, Rhode Island
Lou Barletta, Pennsylvania           Cedric L. Richmond, Louisiana
Scott Perry, Pennsylvania            William R. Keating, Massachusetts
John Katko, New York                 Donald M. Payne, Jr., New Jersey
Will Hurd, Texas                     Filemon Vela, Texas
Martha McSally, Arizona              Bonnie Watson Coleman, New Jersey
John Ratcliffe, Texas                Kathleen M. Rice, New York
Daniel M. Donovan, Jr., New York     J. Luis Correa, California
Mike Gallagher, Wisconsin            Val Butler Demings, Florida
Clay Higgins, Louisiana              Nanette Diaz Barragan, California
John H. Rutherford, Florida
Thomas A. Garrett, Jr., Virginia
Brian K. Fitzpatrick, Pennsylvania
Ron Estes, Kansas
Don Bacon, Nebraska
                   Brendan P. Shields, Staff Director
                   Steven S. Giaier,  General Counsel
                    Michael S. Twinchek, Chief Clerk
                  Hope Goins, Minority Staff Director
                                 
                                 
                                 -------                                

              SUBCOMMITTEE ON BORDER AND MARITIME SECURITY

                  Martha McSally, Arizona, Chairwoman
Lamar Smith, Texas                   Filemon Vela, Texas
Mike Rogers, Alabama                 Cedric L. Richmond, Louisiana
Lou Barletta, Pennsylvania           J. Luis Correa, California
Will Hurd, Texas                     Val Butler Demings, Florida
John H. Rutherford, Florida          Nanette Diaz Barragan, California
Don Bacon, Nebraska                  Bennie G. Thompson, Mississippi 
Michael T. McCaul, Texas (ex             (ex officio)
    officio)
              Paul L. Anstine, Subcommittee Staff Director
    Alison B. Northrop, Minority Subcommittee Staff Director/Counsel
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Martha McSally, a Representative in Congress From 
  the State of Arizona, and Chairwoman, Subcommittee on Border 
  and Maritime Security:
  Oral Statement.................................................     1
  Prepared Statement.............................................     3
The Honorable Filemon Vela, a Representative in Congress From the 
  State of Texas, and Ranking Member, Subcommittee on Border and 
  Maritime Security:
  Oral Statement.................................................     4
  Prepared Statement.............................................    12
The Honorable Michael T. McCaul, a Representative in Congress 
  From the State of Texas, and Chairman, Committee on Homeland 
  Security:
  Oral Statement.................................................    12
  Prepared Statement.............................................    14
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Oral Statement.................................................    14
  Prepared Statement.............................................    16
The Honorable Lou Barletta, a Representative in Congress From the 
  State of Pennsylvania:
  Prepared Statement.............................................    16

                                Witness

Mr. Kevin K. McAleenan, Commissioner, U.S. Customs And Border 
  Protection, U.S. Department Of Homeland Security:
  Oral Statement.................................................    17
  Prepared Statement.............................................    19

                             For the Record

The Honorable Filemon Vela, a Representative in Congress From the 
  State of Texas, and Ranking Member, Subcommittee on Border and 
  Maritime Security:
  Statement of Anthony M. Reardon, National President, National 
    Treasury Employees Union.....................................     5
  Letter From the Electronic Privacy Information Center..........     8

                                Appendix

Questions From Chairwoman Martha McSally for Kevin K. McAleenan..    47
Questions From Ranking Member Filemon Vela for Kevin K. McAleenan    58
Questions From Honorable Mike Rogers for Kevin K. McAleenan......    59
Questions From Honorable Lou Barletta for Kevin K. McAleenan.....    60
Questions From Honorable Nanette Diaz Barragan for Kevin K. 
  McAleenan......................................................    75

 
BORDER SECURITY, COMMERCE, AND TRAVEL: COMMISSIONER MC ALEENAN'S VISION 
                         FOR THE FUTURE OF CBP

                              ----------                              


                       Wednesday, April 25, 2018

             U.S. House of Representatives,
                    Committee on Homeland Security,
              Subcommittee on Border and Maritime Security,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:16 p.m., in 
room HVC-210, Capitol Visitor Center, Hon. Martha McSally 
[Chairwoman of the subcommittee] presiding.
    Present: Representatives McSally, Rogers, Bacon, Thompson, 
and Vela.
    Also present: Representatives McCaul, Barragan, Correa, 
Demings, and Richmond.
    Ms. McSally. The Committee on Homeland Security, 
Subcommittee on Border and Maritime Security will come to 
order. The subcommittee is meeting today to examine 
Commissioner McAleenan's vision for the future of Customs and 
Border Protection. I now recognize myself for an opening 
statement.
    I would like to start by welcoming the newly-confirmed U.S. 
Customs and Border Protection commissioner, Kevin McAleenan, to 
testify before our committee today. Congratulate him on your 
Senate confirmation last month. The Commissioner and CBP have 
been and will continue to be the focal point for many of the 
Trump administration's border security priorities.
    The Nation is fortunate that the Commissioner is a seasoned 
veteran, a consummate professional who knows the agency and its 
issues well having been with CBP since the early days of its 
creation.
    CBP is a massive law enforcement agency created from the 
fusion of several legacy agencies established in 2003. In fact, 
today it is the largest law enforcement organization in the 
Federal Government. But up until 2015 it was not even 
authorized in statute, a situation that was finally addressed 
by the work of this subcommittee.
    The 19 codified duties of the commissioner are some of the 
most important responsibilities that Congress has given any 
single official: Securing the border, facilitating legitimate 
travel and commerce, and administering important National 
security programs that prevent bad actors from gaining access 
to the country. With any organization this large, there are 
significant challenges.
    Staffing shortages at both the ports of entry and in the 
Border Patrol exacerbated both by a hiring process that takes 
far too long and retention challenges that have persisted for 
years with no signs of abatement, CBP is critically 
understaffed and remains well below its Congressionally-
mandated staffing levels by more than 1,000 CBP officers and 
1,900 Border Patrol agents.
    Combined with the growing crisis along the Southwest 
Border, this shortage has the potential to put our Nation's 
National security at risk. The number of illegal border 
crossings during this month of March show an urgent need to 
address the on-going situation. We witnessed a 203 percent 
increase from March 2017 to March 2018 and a 37 percent 
increase from last month to this month, the largest increase in 
month-to-month since 2011.
    Before 2013, approximately 1 out of every 100 arriving 
aliens claimed credible fear or asylum. Today more than 1 out 
of 10 do. Saying the words, ``credible fear'', just as many 
aliens are coached by the drug cartels and mules to do, often 
permits them to be released into the country regardless of the 
merit of such claims to await for a court date years in the 
future that many do not even show up for.
    We also continue to see our system plagued by increased 
levels of fraud among individuals crossing the border, which 
then makes it more difficult to help those who need it the 
most. In the past, over 90 percent of arriving aliens were 
single adult males; today 40 percent are families and children. 
The traffickers and smugglers know that if you arrive with a 
family you have got a better chance of being released into the 
United States, with most families only able to be detained for 
less than 20 days due to court rulings.
    We have seen smuggling organizations advertise this as an 
enticement and we have seen traffickers use children as 
leverage to gain entry into the country. Since the beginning of 
this fiscal year, almost 22,000 unaccompanied minors and 40,000 
families arrived at the border under these policies that enrich 
the cartels.
    In other words, because of the insanity of the loopholes in 
our current law, the next generation of DACA-like people are 
crossing the border and disappearing into the community.
    We are a Nation of immigrants and we welcome about a 
million legal immigrants into our country each year, but we are 
being taken advantage of, and it needs to stop.
    In addition to the border wall, we also need a policy wall, 
as well, which is why I have been calling for these border 
security loopholes to be closed.
    We must change our immigration policy to enable the 
agencies charged with protecting our border to do their job and 
quickly remove dangerous public safety risks from our 
communities.
    Thankfully, in response to these troubling border security 
trends, the President has called for the deployment of 
thousands of National Guard troops to support the effort of the 
men and women of CBP.
    National Guard personnel have supported border security 
operations several times in recent years. They have built 
fences and roads, conducted ground surveillance along the 
border, flown aviation support missions, monitored camera 
feeds, and provided intelligence support.
    They are truly a force multiplier that can provide unique 
skills to boost our border security. I would like to thank 
Arizona Governor Doug Ducey and other Governors along the 
border who have answered the call to partner with the Federal 
Government to deploy these border security reinforcements and 
support the CBP mission.
    The additional men and women deployed on our border will 
reduce threats posed by violent drug cartels and other bad 
actors that threaten border communities, and the Nation as a 
whole.
    In addition to the deployment of the Guard, Congress has 
also recently provided CBP with billions of dollars to invest 
in technology, wall replacement, and new wall construction that 
will serve as a powerful deterrent to illegal entry.
    We look forward to hearing an update on the status of wall 
construction and a concrete--no pun intended--time line for its 
completion.
    I called this hearing today to allow the commissioner an 
opportunity to present to our subcommittee, which has principal 
oversight responsibility of the agency, what his vision is for 
CBP.
    I look forward to his testimony, followed by a thoughtful 
discussion.
    [The statement of Chairwoman McSally follows:]
                 Statement of Chairwoman Martha McSally
                             April 25, 2018
    I would like to start by welcoming the newly-confirmed U.S. Customs 
and Border Protection Commissioner Kevin McAleenan to testify before 
our committee today, and congratulate him on his Senate confirmation 
last month.
    The Commissioner and CBP have been, and will continue to be, the 
focal point for many of the Trump administration's border security 
priorities. The Nation is fortunate that the commissioner is a seasoned 
veteran--a consummate professional who knows the agency and its issues 
well, having been with CBP since the early days of its creation.
    CBP is a massive law enforcement agency, created from the fusion of 
several legacy agencies and established in 2003. In fact, today it is 
the largest law enforcement organization in the Federal Government, but 
up until 2015 it was not even authorized in statue--a situation that 
was finally addressed by the work of this subcommittee.
    The 19 codified duties of the Commissioner are some of the most 
important responsibilities that Congress has given to any single 
official--securing the border, facilitating legitimate travel and 
commerce, and administering important National security programs that 
prevent bad actors from gaining access to the country.
    With any organization this large, there are significant challenges.
    Staffing shortages at both the ports of entry and in the Border 
Patrol, exacerbated by both a hiring process that takes far too long 
and retention challenges that have persisted for years, with no signs 
of abatement.
    CBP is critically understaffed and remains well below its 
Congressionally-mandated staffing levels by more than 1,000 CBP 
officers and 1,900 Border Patrol agents.
    Combined with the growing crisis along the Southwest Border, this 
shortage has the potential to put our Nation's security at risk.
    The number of illegal border crossings during the month of March 
shows an urgent need to address the on-going situation at the border.
    We witnessed a 203 percent increase from March 2017 compared to 
March 2018 and a 37 percent increase from last month to this month--the 
largest increase from month to month since 2011.
    Before 2013, approximately 1 out of every 100 arriving aliens 
claimed credible fear, or asylum. Today, more than 1 out of 10 do so.
    Saying the words ``credible fear,'' just as many aliens are coached 
by the drug cartels to do, often permits aliens to be released into the 
country, regardless of the merit of such claims to await a court date 
years into the future, that many do not even show up to.
    We also continue to see our system plagued by increased levels of 
fraud among individuals crossing the border which then makes it more 
difficult to help those who need it the most.
    In the past, over 90 percent of arriving aliens were single adult 
males. Today 40 percent are families and children.
    The traffickers and smugglers know that if you arrive with a 
family, you have a better chance of being released into the United 
States with most families only able to be detained for less than 20 
days due to court rulings.
    We have seen smuggling organizations advertise this as an 
enticement and we have seen traffickers use children as leverage to 
gain entry into our country.
    Just since January, almost 22,000 unaccompanied minors and 40,000 
families arrived at the border under these policies that enrich the 
cartels.
    In other words, because of the insanity of loopholes in current 
law, the next generation of DACA-like people are crossing the border 
and disappearing into our communities.
    We are a Nation of immigrants and we welcome about a million legal 
immigrants into our country each year, but we are being taken advantage 
of and it needs to stop.
    In addition to a border wall, we also need a policy wall as well, 
which is why I have been calling for these border security loopholes to 
be closed.
    We must change our immigration policy to enable the agencies 
charged with protecting our border to do their job and quickly remove 
dangerous public safety risks from our communities.
    Thankfully, in response to these troubling border security trends, 
the President has called for the deployment of thousands of National 
Guard troops to support the effort of the men and women of CBP.
    National Guard personnel have supported border security operations 
several times in recent years. They have built fence and roads, 
conducted ground surveillance along the border, flown aviation support 
missions, monitored camera feeds, and provided intelligence support.
    They are truly a force-multiplier that can provide unique skills to 
boost to our border security. I would like to thank Arizona Governor 
Ducey and the other Governors along the border who have answered the 
call to partner with the Federal Government to deploy these border 
security reinforcements and support the CBP mission. The additional men 
and woman deployed on our border will reduce threats posed by violent 
drug cartels and other bad actors that threaten border communities and 
the Nation as a whole.
    In addition to the deployment of the Guard, Congress has also 
recently provided CBP with billions of dollars to invest in technology, 
wall replacement, and new wall construction that will serve as a 
powerful deterrent to illicit entry.
    We will look forward to hearing an update on the status of wall 
construction and a concrete, no pun intended, time line for its 
completion.
    I called this hearing today to allow the Commissioner an 
opportunity to present our subcommittee, which has principal oversight 
responsibility over the agency, with his vision for CBP which has an 
outsized role in our National security. I look forward to his 
testimony, followed by a thoughtful discussion.

    Ms. McSally. The Chair now recognizes the Ranking Member of 
the subcommittee, the gentleman from Texas, Mr. Vela, for a 
statement he may have.
    Mr. Vela. Thank you, Chairwoman McSally, for holding 
today's hearing and thank you, Chairman McCaul, Ranking Member 
Thompson, for your leadership on the Homeland Security 
Committee, as well.
    Commissioner McAleenan, congratulations on your recent 
confirmation and thank you for joining us today. I know you 
have been at CBP for more than a decade now and that you are 
very familiar with the Office of Field Operations side of CBP.
    My office and I receive daily notifications and press 
releases from CBP about the volume and value of the narcotics 
that are seized, coming through our ports of entry. For 
example, CBP officers at the Pharr port of entry seized 45 
pounds of cocaine, valued at more than $347,000, earlier this 
month.
    At the Progreso International Bridge, CBP officers seized 
nearly 20 pounds of crystal meth, valued at more than $381,000, 
in early April, as well. CBP publishes its enforcement 
statistics monthly, and I have noted that, over the past 
several years, more drugs are seized, on average, by the Office 
of Field Operations than Border Patrol. The only exception to 
that is marijuana, which Border Patrol interdicts at a much 
higher rate.
    In addition to keeping people and contraband from entering 
illegally, CBP is also responsible for facilitating legitimate 
trade and travel, both of which are major drivers for economic 
growth.
    This means CBP officers inspects $6.5 billion worth of 
cargo on a daily basis. CBP officers are also responsible for 
screening and vetting foreign and U.S. citizen travelers headed 
to the United States and at our international airports, cruise 
terminals, or land ports of entry.
    The fact that CBP continues to rely on temporary duty 
assignments and back-to-back shifts to make up for its officer 
shortage remains a major concern. I have stated on multiple 
occasions that CBP's officer staffing shortage and difficulty 
in retaining professional Border Patrol agents are self-
inflicted vulnerabilities.
    These CBP staffing issues are critical to border security, 
yet the administration continues to avoid these problems. 
Commissioner, I introduced the Border and Port Security Act to 
give you the ability to hire more officers and agriculture 
specialists, but we need your commitment to address the 
internal problems that are making it difficult to keep new 
personnel on board.
    I am glad that my bill has bipartisan support, and I know 
that Chairwoman McSally has her own proposal to address CBP's 
officer staffing shortage. My hope is that we can work on this 
issue in a bipartisan way, much like we did with the Public-
Private Partnership Authority granted to CBP to address 
infrastructure need at our ports of entry.
    The city of Donna and CBP have been working to establish 
the model port concept or the new way to streamline cargo and 
passenger vehicle inspections through the Donation Acceptance 
Program.
    This project is an example of the many ways investments in 
our port infrastructure effects positive change along the 
border. I hope that your confirmation gives you a greater 
ability to ensure that the administration uses the facts when 
considering changes to border security.
    Madam Chairwoman, I ask for unanimous consent to enter 
statements from NTEU and the Electronic Privacy Information 
Center into the record.
    Ms. McSally. Without objection.
    [The information follows:]
Statement of Anthony M. Reardon, National President, National Treasury 
                            Employees Union
                             April 26, 2018
    Chairwoman McSally, Ranking Member Vela, distinguished Members of 
the subcommittee, thank you for the opportunity to provide this 
testimony on the vision for the future of CBP. As president of the 
National Treasury Employees Union (NTEU), I have the honor of leading a 
union that represents over 25,000 Customs and Border Protection (CBP) 
Officers and trade enforcement specialists stationed at 328 land, sea, 
and air ports of entry across the United States and 16 PreClearance 
stations.
    Any vision of CBP's future must include the hiring of new personnel 
at the ports of entry. CBP Office of Field Operations (OFO) is the 
largest component of CBP responsible for border security--including 
anti-terrorism, immigration, anti-smuggling, trade compliance, and 
agriculture protection--while simultaneously facilitating lawful trade 
and travel at U.S. ports of entry that are critical to our Nation's 
economy. CBP OFO has a current need to hire 2,516 additional CBP 
officers and 721 agriculture specialists to achieve the staffing target 
as stipulated in CBP's own fiscal year 2018 Workload Staff Model (WSM) 
and Agriculture Resource Allocation Model (AgRAM.) As of February 3, 
2018, CBP OFO has 23,002 CBP officers on-board at the ports of entry--
1,145 short of its fiscal year 2018 target of 24,147.
    Trade and travel volume continue to increase every year, but CBP 
OFO staffing is not keeping pace with this increase. New and expanded 
Federal inspection facilities are being built at the air, sea, and land 
ports, yet CBP OFO staffing is not expanding. For example, in June, a 
new Federal inspection terminal will open at the San Diego Airport. 
Inspection volume will increase from 300 air passengers an hour to 
1,000 air passengers an hour. Currently, there are a total of 53 front-
line officers split between the airport and seaport. CBP needs to hire 
and assign an additional 38 officers to the airport alone to staff this 
new inspection facility. At the San Ysidro land port, 12 new pedestrian 
lanes, and 8 new vehicle lanes come on line in June. There are no new 
CBP officers assigned to this port and beginning on April 1, 2018, 150 
CBP officers have been sent from other short-staffed ports to the 
seriously short-staffed ports of Nogales and San Ysidro for 90-day 
temporary duty assignments (TDYs).
    To address CBP OFO staffing shortages and to address the ever-
increasing volume of trade through the ports of entry in the future, 
Ranking Member Vela and others recently introduced H.R. 4940, the 
Border and Port Security Act, stand-alone, bipartisan legislation that 
would authorize the hiring of 500 additional CBP officers, 100 
agriculture specialists, and additional OFO trade operations staff 
annually until the staffing gaps in CBP's various Workload Staffing 
Models are met. NTEU strongly supports this CBP officer and agriculture 
specialist--only staffing authorization bill and urges every Member of 
Congress to support this bill.
    NTEU also asks Homeland Security Committee Members to request from 
the House Appropriations Committee up to $100 million in fiscal year 
2019 direct appropriations for the hiring of 500 CBP officers, 100 CBP 
agriculture specialists, and needed non-uniformed trade operations and 
support staff.
    The President's fiscal year 2019 budget request does support the 
hiring of new CBP officers to meet the current staffing need of 2,516, 
but seeks to fund these new positions by increasing user fees. The 
President's budget proposal only provides appropriated funding to hire 
60 new CBP officer positions at the National Targeting Center. The 
President's request seeks no appropriated funding to address the 
current CBP officer staffing shortage of 2,516 additional CBP officers 
as stipulated by CBP's own fiscal year 2018 WSM or to fund the 
additional 721 CBP agriculture specialists as stipulated by CBP's own 
fiscal year 2008 AgRAM.
    User Fees.--As in the past, the administration's budget proposes 
significant realignment of user fees collected by CBP. Currently, 33 
percent of a CBP officer's compensation is funded with a combination of 
user fees, reimbursable service agreements, and trust funds. The fiscal 
year 2019 budget proposes to reduce OFO appropriated funding by 
realigning and redirecting user fees, including redirecting the 
Electronic System for Travel Authorization (ESTA) fee that would 
require a statutory change. The fiscal year 2019 budget proposal would 
redirect approximately $160 million in ESTA fees from Brand USA to CBP. 
Rather than redirecting the ESTA fees to fund the additional 2,516 CBP 
officer new hires needed to fully staff CBP officer positions in fiscal 
year 2019 and beyond, as stipulated by CBP's WSM, the budget would in 
fact reduce CBP's appropriated funding by $160 million. Therefore, 
while the budget proposes to increase the number of CBP officer 
positions funded by ESTA user fees by 1,093, it decreases appropriated 
funding by $160 million, and reduces the number of CBP officer 
positions funded by appropriations by 1,093 positions.
    Once again, the President's budget includes CBP officer staffing 
numbers that are dependent on Congress first enacting changes to 
statutes that determine the amounts and disbursement of these user fee 
collections. To accomplish the ESTA fee change in the President's 
budget, Congress must amend the Travel Promotion Act of 2009 (Pub. L. 
111-145). The President's request also proposes fee increases to the 
Immigration and Consolidated Omnibus Budget Reconciliation Act of 1985 
(COBRA) user fees, not a direct up-front appropriation, to fund CBP 
officer new hires as stipulated by the WSM. However, Immigration and 
COBRA user fees cannot be increased without Congress first enacting 
legislation. A proposal to increase user fees has been part of the 
administration's annual budget submission since fiscal year 2014 to 
fund the hiring of new CBP officers. These user fee increase proposals 
are again in the fiscal year 2019 budget request, even though the 
committees with jurisdiction have never shown any interest or even held 
a hearing to discuss this long-standing legislative proposal and the 
administration has not pressed upon these committee Chairs to do so.
    Opioid Interdiction.--CBP OFO plays a major role in addressing the 
Nation's opioid epidemic--a crisis that is getting worse. The smuggling 
of fentanyl and other opioids has increased markedly from 2.4 pounds in 
fiscal year 2013 to 71,195 pounds seized in fiscal year 2017 by CBP 
OFO. The scourge of synthetic opioid addiction is felt in every State 
and is a threat to the Nation's economic security and well-being. The 
majority of fentanyl is manufactured in other countries such as China, 
and is smuggled primarily through the international mail and express 
consignment carrier facilities (e.g. FedEx and UPS) and through ports 
of entry along the Southwest Border. According to CBP, over the last 3 
years, there were 181 CBP employees assigned to the 5 Postal Service 
International Service Centers and 208 CBP employees assigned to the 
Private Express Carrier Facilities.
    Due to the on-going OFO staffing shortages, 208 CBP employees at 
express consignment hubs is an extremely low number. In the past year, 
the FedEx hub in Memphis processed 38 million imports and 48 million 
exports--equaling 86 million in total package volume. There are 
approximately 24 CBP officers in total screening all 86 million 
shipments, and on average, about 15 CBP officers are working the main 
overnight FedEx ``sort'' shift. Considering the volume at the FedEx 
hub, NTEU has been told that the port requires a minimum of 60 CBP 
officers to facilitate the flow of legitimate freight and ensure 
successful interdiction of these synthetic chemicals. NTEU's CBP OFO 
appropriation request supports this critical need at international 
postal and express consignment hubs.
    Agriculture Specialist Staffing.--Despite CBP's release of its 
risk-based AgRAM that documents an on-going shortage of CBP agriculture 
specialists--by 721--at the ports of entry, the budget request includes 
no direct appropriation to hire these critical positions needed to 
fulfill CBP's agriculture quarantine inspection (AQI) mission of pest 
exclusion and safeguarding U.S. agriculture and natural resources from 
the risks associated with the entry, establishment or spread of animal, 
plant pests, and pathogens. NTEU's appropriations request includes a 
direct appropriation to begin to hire the 721 agriculture specialists 
as stipulated in their fiscal year 2018 AgRAM.
    CBP Trade Operations Staffing.--CBP has a dual mission of 
safeguarding our Nation's borders and ports as well as regulating and 
facilitating international trade. CBP employees at the ports of entry 
are the second-largest source of revenue collection for the U.S. 
Government. In 2017, CBP processed more than $2 trillion in imports and 
collected approximately $40 billion in duties, taxes, and other fees. 
Since CBP was established in March 2003, however, there has been no 
increase in non-uniformed CBP trade enforcement and compliance 
personnel even though inbound trade volume grew by more than 24 percent 
between fiscal year 2010 and fiscal year 2014. Additionally, CBP trade 
operations staffing has fallen below the statutory floor set forth in 
the Homeland Security Act of 2002 and stipulated in the fiscal year 
2017 CBP Resource Optimization Model for Trade Positions. NTEU strongly 
supports the funding through direct appropriations of 140 additional 
positions at the CBP Office of Trade to support implementation of Trade 
Enhancement and Facilitation Act (Pub. L. 114-125) requirements.
    Increasing CBP officer staffing at the ports-of-entry is an 
economic driver for the U.S. economy. According to the Joint Economic 
Committee (JEC), ``every day 1.1 million people and $5.9 billion in 
goods legally enter and exit through the ports of entry'' and finds 
that border delays cost the U.S. economy upwards of $5 billion each 
year. CBP estimates that the annual hiring of an additional 500 CBP 
officers at the ports of entry would increase yearly economic activity 
by $1 billion and result in an additional 16,600 jobs per year to the 
U.S. economy.
    Thank you for the opportunity to submit this request on behalf of 
the men and women represented by NTEU at the Nation's ports of entry. 
NTEU asks that the Homeland Security Committee Members seek up to $100 
million from the House Appropriations Committee for direct appropriated 
funding for new CBP officers, agriculture specialists, and support 
staff to build on the CBP OFO staffing advances made in the fiscal year 
2018 omnibus measure.
                                 ______
                                 
         Letter From the Electronic Privacy Information Center
                                    April 24, 2018.
The Honorable Martha McSally, Chairwoman,
The Honorable Filemon Vela, Ranking Member,
U.S. House Committee on Homeland Security, Subcommittee on Border and 
        Maritime Security, H2-176 Ford House Office Building, 
        Washington, DC 20515.
    Dear Chairwoman McSally and Ranking Member Vela: We write to you 
regarding the hearing on ``Border Security, Commerce and Travel: 
Commissioner McAleenan's Vision for the Future of CBP.''\1\ EPIC 
welcomes your continued leadership on CBP oversight and looks forward 
to opportunities to work with you and your staff.
---------------------------------------------------------------------------
    \1\ Border Security, Commerce and Travel: Commissioner McAleenan's 
Vision for the Future of CBP, 115th Cong. (2018), H. Comm. on Homeland 
Security, Subcomm. on Border and Maritime Security, https://
homeland.house.gov/hearing/border-security-commerce-and-travel-
commissioner-mcaleenans-vision-for-the-future-of-cbp/ (Apr. 25, 2018).
---------------------------------------------------------------------------
    The Electronic Privacy Information Center (``EPIC'') is a public 
interest research center established in 1994 to focus public attention 
on emerging privacy and civil liberties issues.\2\ EPIC is focused on 
the protection of individual privacy rights, and we are particularly 
interested in the privacy problems associated with surveillance.\3\ 
EPIC also manages one of the most extensive open Government litigation 
programs in the United States.\4\
---------------------------------------------------------------------------
    \2\ See About EPIC, EPIC.org, https://epic.org/epic/about.html.
    \3\ EPIC, EPIC Domestic Surveillance Project, https://epic.org/
privacy/surveillance/, Statement of EPIC, Unmanned Aircraft Systems: 
Innovation, Successes, and Challenges, Hearing Before S. Comm. on 
Commerce, Science, and Transportation, U.S. Senate, Mar. 13, 2017, 
https://epic.org/testimony/congress/EPIC-SCOM-Drones-Mar2017.pdf; The 
Future of Drones in America: Law Enforcement and Privacy 
Considerations: Hearing Before the S. Judiciary Comm., 113th Cong. 
(2013) (Statement of Amie Stepanovich, EPIC Director of the Domestic 
Surveillance Project), available at https://epic.org/privacy/testimony/
EPIC-Drone-Testimony-3-13-Stepanovich.pdf; Comments of EPIC to DHS, 
Docket No. DHS-2007-0076 CCTV: Developing Privacy Best Practices 
(2008), available at https://epic.org/privacy/surveillance/
epic_cctv_011508.pdf.
    \4\ EPIC FOIA Cases, EPIC, https://epic.org/foia/; Marc Rotenberg 
et al, The Open Government Clinic: Teaching the Basics of Lawyering, 48 
IND. L. REV. 149 (2014); EPIC, Litigation Under the Federal Open 
Government Laws 2010 (2010).
---------------------------------------------------------------------------
    EPIC understands that enhanced surveillance techniques will be part 
of the discussion over border security.\5\ EPIC writes to warn that 
enhanced surveillance at the border will almost certainly sweep up the 
personal data of U.S. citizens. Before there is any increased 
deployment of surveillance systems at the U.S. border, an assessment of 
the privacy implications should be conducted. Additionally, deployment 
of surveillance technology should be accompanied by new policy and 
procedures and independent oversight to protect citizens' rights. And 
any law enforcement agency that uses surveillance tools should be 
prepared to comply with all current laws, including all open government 
obligations. The privacy assessments, policies and procedures, and 
oversight mechanisms should all be made public. Most critically, if the 
CBP chooses to create or expand a system of records that contains 
personal information which is retrievable by name, it must comply with 
all of the requirements of the Privacy Act, including publishing a 
System of Records Notice and a Notice of Proposed Rulemaking so that 
the public is able to comment on a record system established by a 
Federal agency.\6\
---------------------------------------------------------------------------
    \5\ Samantha Schmidt, Border wall with Mexico won't be built `from 
sea to shining sea,' DHS secretary says, Washington Post, April 6, 
2017, https://www.washingtonpost.com/news/morning-mix/wp/2017/04/06/
border-wall-with-mexico-wont-be-built-from-sea-to-shining-sea-dhs-
secretary-says/.
    \6\ 5 U.S.C.A. Sec. 552a(e)(4).
---------------------------------------------------------------------------
                  biometric entry/exit tracking system
    Recently, new privacy risks have arisen with the deployment of 
facial recognition technology at U.S. airports. An Executive Order 
recommends that agencies ``expedite the completion and implementation 
of biometric entry exit tracking system,''\7\ and Customs and Border 
Protection (``CBP'') has deployed facial recognition technology at 
several U.S. airports.\8\ But corresponding privacy safeguards have not 
yet been established.
---------------------------------------------------------------------------
    \7\ Exec. Order No. 13,780 Sec. 8.
    \8\ U.S. Customs and Border Protection, CBP Deploys Facial 
Recognition Biometric Technology at 1 TSA Checkpoint at JFK Airport 
(Oct. 11, 2017), https://www.cbp.gov/newsroom/national-media-release/
cbp-deploys-facial-recognition-biometric-technology-1-tsa-checkpoint.
---------------------------------------------------------------------------
    EPIC would like to remind the committee that in 2009, Verified 
Identity Pass, Inc., a corporate participant in the Transportation 
Security Administration's (``TSA'') Registered Traveler program ceased 
operations after declaring bankruptcy, following a massive data breach 
concerning personal data, including biometric identifiers.\9\ Verified 
Identity Pass, Inc. operated ``Clear,'' a TSA recognized Registered 
Traveler program. Clear was the largest Registered Traveler program in 
the Nation operating out of 20 airports with about 200,000 members.
---------------------------------------------------------------------------
    \9\ EPIC, Bankruptcy of Verified Identity Pass and the Privacy of 
Clear Registered Traveler Data, https://www.epic.org/privacy/airtravel/
clear/.
---------------------------------------------------------------------------
    EPIC had warned this committee back in 2005 of the risks of the 
Registered Traveler program.\10\ We explained that without ensuring 
compliance with Federal Privacy Act obligations, the agency was placing 
at risk the privacy and security of the American public. We said:
---------------------------------------------------------------------------
    \10\ The Future of Registered Traveler, 109th Cong. (2005), H. 
Comm. on Homeland Security, Subcomm. on Economic Security, 
Infrastructure Protection, and Cybersecurity (testimony of Marc 
Rotenberg), available at http://epic.org/privacy/airtravel/
rt_test_110305.pdf.

``The Privacy Act creates critical and necessary safeguards not simply 
to protect privacy, but also to ensure accuracy and accountability. Any 
government-approved security system that keeps personal information on 
individuals should meet the Privacy Act requirements for necessity, 
relevance, and openness, including individual access and correction. It 
should be made clear that these requirements apply whether the 
information originates with the agency or with information provided by 
---------------------------------------------------------------------------
the individual.''

    Facial recognition continues to pose significant threats to privacy 
and civil liberties. Facial recognitions techniques can be deployed 
covertly, remotely, and on a mass scale. Additionally, there is a lack 
of well-defined Federal regulations controlling the collection, use, 
dissemination, and retention of biometric identifiers. Ubiquitous 
identification by Government agencies eliminates the individual's 
ability to control the disclosure of their identities, creates new 
opportunities for tracking and monitoring, and poses a specific risk to 
the First Amendment rights of free association and free expression.
    Transparency about these biometric surveillance programs is 
essential, particularly because their accuracy is questionable. In 
December 2017, a Freedom of Information Act lawsuit pursued by EPIC 
produced the public release of a CBP report on iris imaging and facial 
recognition scans for border control. The ``Southwest Border Pedestrian 
Field Test'' revealed that the CBP does not perform operational 
matching at a ``satisfactory'' level.\11\ In a related FOIA lawsuit, 
EPIC obtained documents from the FBI concerning the Next Generation 
Identification database which contains facial scans, fingerprints, and 
other biometrics of millions of Americans.\12\ The documents obtained 
by EPIC revealed that biometric identification is often inaccurate.\13\
---------------------------------------------------------------------------
    \11\ U.S. Customs and Border Protection, Southern Border Pedestrian 
Field Test Summary Report, https://epic.org/foia/dhs/cbp/biometric-
entry-exit/Southern-Border-Pedestrian-Field-Test-Report.pdf (December 
2016).
    \12\ EPIC v. FBI--Next Generation Identification, EPIC, https://
epic.org/foia/fbi/ngi/.
    \13\ DEPT. OF JUSTICE, FEDERAL BUREAU OF INVESTIGATION, NEXT 
GENERATION IDENTIFICATION (NGI) SYSTEM REQUIREMENTS DOCUMENT VERSION 
4.4 at 244 (Oct. 1, 2010), https://epic.org/foia/fbi/ngi/NGI-System-
Requiremets.pdf.
---------------------------------------------------------------------------
    The use of facial recognition at the border has real consequences 
for U.S. citizens as well as non-U.S. citizens. All people entering the 
United States, including U.S. passport holders, could be subject to 
this intrusive screening technique. EPIC has filed a FOIA lawsuit to 
obtain documents to determine if there are proper privacy safeguards in 
place for the collection of biometric information at U.S. airports.\14\
---------------------------------------------------------------------------
    \14\ EPIC v. CBP (Biometric Entry/Exit Program), EPIC, https://
epic.org/foia/dhs/cbp/biometric-entry-exit/.
---------------------------------------------------------------------------
    There is also a new study from the MIT Media Lab which found that 
facial recognition is less accurate for persons of color. The MIT study 
found that the error rate in face recognition software for dark-skinned 
females was 20.8 percent--34.7 percent, while the error rate for light-
skinned males was 0.0 percent--0.3 percent.\15\ As the New York Times 
explained, ``[t]hese disparate results, calculated by Joy Buolamwini, a 
researcher at the M.I.T. Media Lab, show how some of the biases in the 
real world can seep into artificial intelligence, the computer systems 
that inform facial recognition.''\16\ If it is correct that that facial 
recognition as a form of identification discriminates against persons 
of color in ways that other forms of identification do not, there is a 
substantial civil rights concern that the committee should investigate.
---------------------------------------------------------------------------
    \15\ Joy Buolamwini and Timnit Gebru, Gender Shades: Intersectional 
Accuracy Disparities in Commercial Gender Classification, Proceedings 
of Machine Learning Research (2018) at 11, available at http://
proceedings.mlr.press/v81/buolamwini18a/buolamwini18a.pdf.
    \16\ Steve Lohr, Facial Recognition Is Accurate, if You're a White 
Guy, New York Times, Feb. 9, 2018, https://www.nytimes.com/2018/02/09/
technology/facial-recognition-race-artificial-intelligence.html.
---------------------------------------------------------------------------
    The involvement of private companies raises additional concerns. 
CBP has enlisted airlines such as JetBlue and Delta to implement face 
recognition technology in U.S. airports.\17\ JetBlue is running a self-
boarding program using facial recognition in lieu of checking boarding 
passes. Delta aims to use facial recognition as part of baggage drop 
off.\18\ It is unclear whether access to biometric identifiers by 
JetBlue and Delta will lead to non-security uses of biometric 
identifiers.
---------------------------------------------------------------------------
    \17\ Asma Khalid, Facial Recognition May Boost Airport Security But 
Raises Privacy Worries, NPR, June 26, 2017, https://www.npr.org/
sections/alltechconsidered/2017/06/26/534131967/facial-recognition-may-
boost-airport-security-but-raises-privacy-worries.
    \18\ Ben Mutzabaugh, Delta to test facial-recognition tech on new 
self-service bag drop, USA TODAY, May 15, 2017, https://
www.usatoday.com/story/travel/flights/todayinthesky/2017/05/15/delta-
test-facial-recognition-tech-new-self-service-bag-drops/101703956/.
---------------------------------------------------------------------------
    These airlines are promoting facial recognition as a convenience, 
but it's clearly part of a larger effort by the government to implement 
a biometric surveillance program that will capture the facial images of 
all air travelers. And travelers do not understand how this system, 
once in place at airports, could be deployed in other settings.
    The CBP and the TSA now plan deploy facial recognition technology 
at TSA checkpoints--further expanding the use of a privacy-invasive 
technology without regulations in place to provide proper protections.
    Commissioner McAleenan should be asked the following questions:
  <bullet> Has the CBP conducted the necessary Privacy Impact 
        Assessments prior to deployments?
  <bullet> Are there plans to increase the use of facial recognition?
  <bullet> Has CBP detected racial bias in the deployment of its facial 
        recognition systems?
  <bullet> What safeguards are currently in place to protect facial 
        scans from hacking or breaches?
  <bullet> What restrictions on the use of biometric identifiers by 
        private companies have been established?
                          drones at the border
    Customs and Border Protection (CBP) is already deploying aerial 
drones with facial recognition technology at the border.\19\ In 2013, 
records obtained by EPIC under the Freedom of Information Act showed 
that the CBP is operating drones in the United States capable of 
intercepting electronic communications.\20\ The records obtained by 
EPIC also indicate that the ten Predator B drones operated by the 
agency have the capacity to recognize and identify a person on the 
ground.\21\ The documents were provided in response to a request from 
EPIC for information about the Bureau's use of drones across the 
country. The agency has made the Predator drones available to other 
Federal, State, and local agencies. The records obtained by EPIC raise 
questions about the agency's compliance with Federal privacy laws and 
the scope of domestic surveillance.
---------------------------------------------------------------------------
    \19\ Russel Brandom, The US Border Patrol is trying to build face-
reading drones, The Verge, Apr. 6, 2017, http://www.theverge.com/2017/
4/6/15208820/customs-border-patrol-drone-facial-recognition-silicon-
valley-dhs; Dept. of Homeland Security, Other Transaction Solicitation 
(OTS) HSHQDC-16-R-00114 Project: Small Unmanned Aircraft Systems (sUAS) 
Capabilities, Jul. 15, 2016, https://www.fbo.gov/spg/DHS/OCPO/DHS-OCPO/
HSHQDC-0916-R-00114/listing.html.
    \20\ EPIC, EPIC FOIA--US Drones Intercept Electronic Communications 
and Identify Human Targets, Feb. 28, 2013, https://epic.org/2013/02/
epic-foia-us-drones-intercep.html (record received available at https:/
/epic.org/privacy/drones/EPIC-2010-Performance-Specs-1.pdf.)
    \21\ Performance Spec for CBP UAV System, Bureau of Customs and 
Border Patrol, https://epic.org/privacy/drones/EPIC-2005-Performance-
Specs-2.pdf.
---------------------------------------------------------------------------
    Following the revelations about drone surveillance at the border, 
EPIC, joined by 30 organizations and more than a thousand individuals, 
petitioned CBP to suspend the domestic drone surveillance program, 
pending the establishment of concrete privacy regulations.\22\ The 
petition stated that ``the use of drones for border surveillance 
presents substantial privacy and civil liberties concerns for millions 
of Americans across the country.'' Any authorization granted to CBP to 
conduct surveillance at the border must require compliance with Federal 
privacy laws and regulations for surveillance tools, including drones.
---------------------------------------------------------------------------
    \22\ EPIC, Domestic Drones Petition, https://epic.org/
drones_petition/.
---------------------------------------------------------------------------
    Much of this surveillance technology could, in theory, be deployed 
on manned vehicles. However, drones present a unique threat to privacy. 
Drones are designed to maintain a constant, persistent eye on the 
public to a degree that former methods of surveillance were unable to 
achieve. The technical and economic limitations to aerial surveillance 
change dramatically with the advancement of drone technology. Small, 
unmanned drones are already inexpensive; the surveillance capabilities 
of drones are rapidly advancing; and cheap storage is readily available 
to maintain repositories of surveillance data.\23\ Drones ``represent 
an efficient and cost-effective alternative to helicopters and 
airplanes,'' but their use implicates significant privacy 
interests.\24\ As the price of drones ``continues to drop and their 
capabilities increase, they will become a very powerful surveillance 
tool.''\25\ The use of drones in border security will place U.S. 
citizens living on the border under ceaseless surveillance by the 
government.
---------------------------------------------------------------------------
    \23\ See generally EPIC, Drones: Eyes in the Sky, Spotlight on 
Surveillance (2014), https://www.epic.org/privacy/surveillance/
spotlight/1014/drones.html.
    \24\ M. Ryan Calo, The Drone as Privacy Catalyst, 64 Stan. L. Rev. 
Online 29, 30 (Dec. 12, 2011); See also Jeffrey Rosen, Symposium 
Keynote Address, 65 Rutgers L. Rev. 965, 966 (2013) (``[A]s police 
departments increasingly begin to use drone technologies to track 
individual suspects 24/7, or to put areas of the country under 
permanent surveillance, this possibility of 24/7 tracking will become 
increasingly real.'').
    \25\ Bruce Schneier, Surveillance And the Internet of Things, 
Schneier on Security (May 21, 2013), https://www.schneier.com/blog/
archives/2013/05/the_eyes_and_ea.html.
---------------------------------------------------------------------------
    The Supreme Court has not yet considered the limits of drone 
surveillance under the Fourth Amendment, though the Court held 20 years 
ago that law enforcement may conduct manned aerial surveillance 
operations from as low as 400 feet without a warrant.\26\ No Federal 
statute currently provides adequate safeguards to protect privacy 
against increased drone use in the United States. However, some border 
States do limit warrantless aerial surveillance. In 2015, the Supreme 
Court of New Mexico held that the Fourth Amendment prohibits the 
warrantless aerial surveillance of, and interference with, a person's 
private property.\27\ Accordingly, there are substantial legal and 
Constitutional issues involved in the deployment of aerial drones by 
law enforcement and State and Federal agencies that need to be 
addressed.
---------------------------------------------------------------------------
    \26\ See Florida v. Riley, 488 U.S. 445 (1989) (holding that a 
police helicopter flying more than 400 feet above private property is 
not a search).
    \27\ State v. Davis, 360 P.3d 1161 (N.M. 2015); see Brief of Amicus 
Curiae EPIC, id., available at https://epic.org/amicus/drones/new-
mexico/davis/State-v-Davis-Opinion.pdf.
---------------------------------------------------------------------------
    A 2015 Presidential Memorandum on drones and privacy required that 
all Federal agencies to establish and publish drone privacy procedures 
by February 2016.\28\ Emphasizing the ``privacy, civil rights, and 
civil liberties concerns'' raised by the technology,\29\ President 
Obama ordered agencies to ensure that any use of drones by the Federal 
Government in U.S. airspace comply with ``the Constitution, Federal 
law, and other applicable regulations and policies.''\30\
---------------------------------------------------------------------------
    \28\ President Barack Obama, Presidential Memorandum: Promoting 
Economic Competitiveness While Safeguarding Privacy, Civil Rights, and 
Civil Liberties in Domestic Use of Unmanned Aircraft Systems (Feb. 15, 
2015), https://obamawhitehouse.archives.gov/the-press-office/2015/02/
15/Presidential-memorandum-promoting-economic-competitiveness-while-
safegua.
    \29\ Id. at  1(e).
    \30\ Id. at  1.
---------------------------------------------------------------------------
    However, the DHS has failed to produce reports required by the 2015 
Presidential Memorandum. EPIC has submitted a FOIA request for DHS's 
policies and reports required under the Presidential Memorandum, but 
the DHS has failed to respond.
    Commissioner McAleenan should be asked:
  <bullet> How will CBP comply with State laws prohibiting warrantless 
        aerial surveillance when deploying drones?
  <bullet> When will CBP publish the drone privacy procedures report 
        required by the 2015 Presidential Memorandum?
    We ask that this letter be entered in the hearing record. EPIC 
looks forward to working with the subcommittee on these issues of vital 
importance to the American public.
            Sincerely,
                                            Marc Rotenberg,
                                                    EPIC President.
                                      Caitriona Fitzgerald,
                                              EPIC Policy Director.
                                             Jeramie Scott,
                                    EPIC National Security Counsel.
                                          Christine Bonnan,
                                                EPIC Policy Fellow.

    Mr. Vela. I yield back the balance of my time.
    [The statement of Ranking Member Vela follows:]
                Statement of Ranking Member Filemon Vela
                             April 25, 2018
    My office and I receive daily notifications and press releases from 
CBP about the volume and value of the narcotics that are seized coming 
through our ports of entry. For example, CBP officers at the Pharr Port 
of Entry seized 45 pounds of cocaine valued at more than $347,000 
earlier this month. At the Progreso International Bridge, CBP officers 
seized nearly 20 pounds of crystal methamphetamine valued at more than 
$381,000 in early April as well.
    CBP publishes its enforcement statistics monthly, and I have noted 
that, over the past several years, more drugs are seized on average by 
the Office of Field Operations than Border Patrol. The only exception 
to that is marijuana, which Border Patrol interdicts at a much higher 
rate.
    In addition to keeping people and contraband from entering 
illegally, CBP is also responsible for facilitating legitimate trade 
and travel--both of which are major drivers for economic growth. This 
means CBP officers inspect $6.5 billion worth of cargo on a daily 
basis.
    CBP officers are also responsible for screening and vetting foreign 
and U.S. citizen travelers headed to the United States, and at our 
international airports, cruise terminals, or land ports of entry. 
However, the fact that CBP continues to rely on temporary duty 
assignments and back-to-back shifts to make up for its officer shortage 
remains a major concern of mine.
    I have stated on multiple occasions that CBP's officer staffing 
shortage and difficulty in retaining professional Border Patrol agents 
are self-inflicted vulnerabilities. These CBP staffing issues are 
critical to border security, yet the administration continues to ignore 
these problems.
    Commissioner, I introduced the Border and Port Security Act to give 
you the ability to hire more officers and agriculture specialists, but 
we need your commitment to address the internal problems that are 
making it difficult to on-board new personnel and keep them.
    I am glad that my bill has bipartisan support, and I know that 
Chairwoman McSally has her own proposal to address CBP's officer 
staffing shortage.
    My hope is that we can work on this issue in a bipartisan way, much 
like we did with the public-private partnership authority granted to 
CBP to address infrastructure needs at ports.
    In my district, the city of Donna and CBP have been working to 
establish the Model Port concept, or the new way to streamline cargo 
and passenger vehicle inspections, through the Donation Acceptance 
Program. This project is an example of the many ways investments in our 
port infrastructure affects positive change along the border.
    I hope that your confirmation gives you a greater ability to ensure 
the administration uses the facts when considering changes to border 
security.

    Ms. McSally. The gentleman yields back.
    The Chair now recognizes the Chairman of the full 
committee, the gentleman from Texas, Mr. McCaul.
    Mr. McCaul. Thank you, Chairwoman McSally and Ranking 
Member Vela, for having this hearing. First, I would like to 
congratulate you, sir, Commissioner McAleenan on your Senate 
confirmation last month. Well done. I am glad the Senate 
finally got that accomplished. They have a lot more to do in my 
judgment, but that is another point of view.
    Our country, though, is fortunate, I think, that you were 
willing to answer the President's call and serve as 
commissioner of this very vital, important agency. CBP has a 
broad and important mission from securing our border to 
facilitating legitimate trade to ensuring those who enter our 
country do so legally.
    Commissioner, you have a lot on your plate. I am confident, 
though, that you are up to the task. Despite this historic drop 
that we saw in apprehensions last year, more must be done to 
secure the border. As you know and know very well, during the 
last few months we observed a troubling spike in illegal 
immigration, over 200 percent more crossings this year than 
last.
    Many who are apprehended at the border are not looking to 
even evade capture, but rather they simply turn themselves in 
to the nearest Border Patrol agent or CBP officer and claim a 
fear of persecution and an asylum claim for persecution in 
their country. That is what the drug cartels have coached them 
to say, and that is what they do.
    Unfortunately, the cartels understand the weakness of our 
immigration laws all too well. They have marketed the use of 
immigration loopholes to entice illicit migrants. I support 
Secretary Nielsen's call to close these legal loopholes.
    We need to change the law that treats unaccompanied minors 
from Mexico and Central America differently. We must also 
reform our asylum policies and ensure the prompt removal of 
anyone who crosses the border illegally, regardless of where 
they come from.
    In response to the recent surge, mainly in south Texas, the 
President deployed thousands of National Guard troops to 
support the efforts of men and women of CBP. I applaud this 
effort, but sending the National Guard to the border is nothing 
really new. Guard troops helped build the fence in Operation 
Jump Start under President Bush and provided much-needed 
aviation support to supplement CBP's air and marine operations 
under Operation Phalanx during the Obama administration.
    I also want to thank my Governor, Governor Abbott, for his 
leadership on border security. My home State of Texas, I 
believe, has been leading the way when it comes to securing the 
border. For years we have used the National Guard on our border 
at our State's expense, to help ensure the safety of Texans, 
despite years of inaction by previous administrations.
    Congress has recently provided CBP with billions of dollars 
to invest in technology, barrier replacement, new levee wall 
construction in the Rio Grande Valley sector. I believe all of 
this is desperately needed down there.
    I believe this will serve as a powerful deterrent to 
illegal entry as well as provide flood protection against the 
Rio Grande Valley from the river. So this is a very important 
issue and I look forward to an update on how CBP prepares to--
as this caravan, they call it, prepares to come up north into 
the United States and other threats, as well.
    Madam Chair, with that, I yield back.
    [The statement of Chairman McCaul follows:]
                Statement of Chairman Michael T. McCaul
                             April 25, 2018
    First, I would also like to congratulate Commissioner McAleenan on 
his Senate confirmation last month.
    Our country is fortunate that you were willing to answer the 
President's call and serve as the commissioner of this agency.
    CBP has a broad and important mission--from securing our border and 
facilitating legitimate trade, to ensuring those who enter our country 
do so legally.
    Commissioner McAleenan, you have a lot on your plate. But I am 
confident you are up to the task.
    Despite the historic drop in apprehensions last year, more must be 
done to secure the border.
    During the last few months, we observed a troubling spike in 
illegal immigration--over 200 percent more crossings this year than 
last.
    Many who are apprehended at the border are not looking to evade 
capture. They simply turn themselves in to the nearest Border Patrol 
agent, or CBP officer and claim a fear of persecution in their country.
    This is what the cartels have coached them to do.
    Unfortunately, the cartels understand the weakness of our 
immigration laws all too well.
    They have marketed the use of immigration loopholes to entice 
illicit migrants.
    I support Secretary Nielsen's call to close these loopholes.
    We need to change the law that treats unaccompanied minors from 
Mexico and Central America differently.
    We must also reform our asylum policies and ensure the prompt 
removal of anyone who crosses the border illegally.
    In response to the recent surge, mainly in South Texas, the 
President deployed thousands of National Guard troops to support the 
effort of the men and women of CBP.
    Sending the National Guard to the border is not new.
    Guard troops helped build the fence in Operation Jump Start and 
provided much-needed aviation support to supplement CBP's Air and 
Marine Operations under Operational Phalanx.
    I would like to thank Governor Abbott for his leadership on border 
security. My home State of Texas has been leading the way.
    For years we have used the National Guard on the border--at our 
State's expense--to help ensure the safety of Texans, despite years of 
inaction by the previous administration.
    Congress has recently provided CBP with billions of dollars to 
invest in technology, barrier replacement, and new levy wall 
construction in the Rio Grande Valley Sector.
    This will serve as a powerful deterrent to illegal entry as well as 
provide flood protection against the Rio Grande River.
    This is a very important issue and I look forward to hearing an 
update on CBP's progress in South Texas.
    I yield the balance of my time.

    Ms. McSally. The Chairman yields back. The Chair now 
recognizes the Ranking Member for the full committee, gentleman 
from Mississippi, Mr. Thompson.
    Mr. Thompson. Thank you very much, Chairwoman McSally and 
Ranking Member Vela, for holding today's hearing. Commissioner, 
good seeing you again. It is always nice to have a permanent 
title after your nomination.
    You officially have been head of CBP, for only a month, but 
your many years in leadership positions within CBP will, no 
doubt, serve you well in this new position. I encourage you to 
use your deep knowledge of CBP to meaningfully inform the 
Department's approach to border security.
    Our border security challenges are more nuanced than simply 
building a wall. At a time when the Department's own data show 
that illegal entries are at the lowest level they have been 
since the 1970's, it makes little sense as to why we should 
heavily rely on building walls for the foreseeable future or 
deploy National Guard's troops to the Southern Border.
    During last month's subcommittee hearing, the Government 
Accountability Office witness testified that U.S. Customs and 
Border Protection still does not have the metrics to measure 
how a wall contributes to border security, in general. I urge 
you to correct this immediately.
    Given that CBP has received more than $1 billion for 
barriers and requested another $1 billion for the upcoming 
fiscal year, I am concerned that we are bound to repeat many 
mistakes if we do not know what we are getting in return.
    I also echo Ranking Member Vela's frustration that the 
Trump administration continues to overlook critical staffing 
problems within CBP, and particularly the shortage of officers 
manning our ports of entry. Both Border Patrol and the Office 
of Field Operations are losing trained, experienced agents and 
officers at a faster rate than CBP is able to replace them. 
This is another problem that I urge you to address quickly.
    Additionally, I am concerned by the policy proposals and 
practices CBP and other components within DHS are using to 
deter illegal immigration. In February, all 12 of the Democrats 
on this committee and 63 other Democratic colleagues sent a 
letter to Secretary Nielsen asking her to halt the practice of 
separating migrant parents from their children when they are 
apprehended at the border or in immigration detention in cases 
that do not warrant it.
    The practice is inhumane, excessively punitive, and can 
deliberately interfere with their legal right to request 
asylum. I reiterate my opposition to this practice and I 
caution CBP from pursuing other such practices that do not 
honor our values as a Nation of immigrants.
    In your testimony, you commit to enhancing internal 
integrity programs, transparency, and professionalism measures. 
I take this to mean that misconduct and lack of professionalism 
by errant agents and offices will be swiftly addressed.
    A number of videos have circulated in recent months that 
show CBP personnel acting in ways that do not seem to comply 
with this policy. We know that the overwhelming majority of CBP 
personnel work hard, conduct themselves professionally, and are 
a credit to their agency. I hope that you are investigating 
these incidents to ensure that they are not indicative of a 
problem within CBP's ranks.
    Last, Mr. Commissioner, I hope you are able to share with 
us how your priorities for CBP align with the administration's. 
As we have seen on multiple occasions, experts at CBP and DHS 
are neither informing, nor even being notified in advance of 
major policy changes to border security operation. The rollout 
of the first travel ban Executive Order last year and the 
recent National Guard deployment announcement come to mind as 
examples.
    I hope that your first-hand knowledge that more than walls 
are required is well utilized.
    I thank you for agreeing to testify before us today and 
look forward to your testimony and yield back.
    [The statement of Ranking Member Thompson follows:]
             Statement of Ranking Member Bennie G. Thompson
                             April 25, 2018
    Our border security challenges are more nuanced than simply 
building a wall.
    At a time when the Department's own data show that illegal entries 
are at the lowest levels they have been since the 1970's, it makes 
little sense why we should heavily rely on building walls for the 
foreseeable future or deploy National Guard troops to the Southern 
Border.
    During last month's subcommittee, the Government Accountability 
Office testified that U.S. Customs and Border Protection still does not 
have metrics to measure how a wall or even land-based technology 
contribute to border security in general.
    I urge you to correct this immediately.
    Given that CBP has received more than $1 billion for barriers and 
requested another $1 billion for the upcoming fiscal year, I am 
concerned that we are bound to repeat many mistakes if we do not know 
what we are getting in return.
    I also echo Ranking Member Vela's frustration that the Trump 
administration continues to overlook critical staffing problems within 
CBP, in particular the shortage of officers manning our ports of entry.
    Both Border Patrol and the Office of Field Operations are losing 
trained, experienced agents and officers at a faster rate than CBP is 
able to replace them.
    This is another problem I urge you to address quickly.
    Last, I am concerned by the policy proposals and practice CBP and 
other components within DHS are using to deter illegal migration.
    In February, all 12 of Democrats on this committee and 63 other 
Democratic colleagues sent a letter to Secretary Nielsen asking her to 
halt the practice of separating migrant parents from their children 
when they are apprehended at the border or in immigration detention in 
cases that do not warrant it.
    The practice is inhumane, excessively punitive, and can 
deliberatively interfere with their legal right to request asylum.
    I reiterate my opposition to this practice, and I caution CBP from 
pursuing other such policies that do not honor our values as a Nation 
of immigrants.
    In your testimony, you commit to enhancing ``internal integrity 
programs,'' transparency, and ``professionalism measures.''
    I take this to mean that misconduct and lack of professionalism by 
errant agents and officers will be swiftly addressed.
    A number of videos have circulated in recent months that show CBP 
personnel acting in ways that do not seem to comply with policy.
    We know that the overwhelming majority of CBP personnel work hard, 
conduct themselves professionally, and are a credit to their agency.
    I hope you are investigating these incidents to ensure they are not 
indicative of a problem within CBP's ranks.

    Ms. McSally. The gentleman yields back.
    Other Members of the committee are reminded that opening 
statements may be submitted for the record.
    [The statement of Mr. Barletta follows:]
                  Statement of Honorable Lou Barletta
    Thank you commissioner for coming before this committee today to 
discuss the importance of securing our borders, and for your service to 
this country.
    We have immigration laws for two reasons, to ensure the National 
security of the United States, and to protect American jobs. I am 
pleased that the American people finally have a partner in the White 
House whose main priority is representing their interests.
    There are many victims of illegal immigration; I do not need an 
expert to explain the issue to me because I have lived it. When I was 
the Mayor of Hazleton, Pennsylvania, we had a massive illegal 
immigration problem, as our population grew by 50 percent, but our tax 
revenue stayed the same.
    Hospitals and schools were overcrowded, our police force was 
overwhelmed by the increased crime, and resources were stretched thin 
and diverted from tax-paying Americans and legal immigrants.
    We are a compassionate Nation, one with a proud and diverse 
history. However, too often I am told we must have compassion for the 
illegal alien who broke the law to enter our country. But I have sat at 
the tables of Pennsylvanians who have lost loved ones to the violent 
acts of illegal aliens, and it is those people for whom I have 
compassion.
    We as a Congress have failed by not enforcing the laws of our land 
and refusing to put the safety and well-being of the American people 
first.
    For example, in Philadelphia, multiple child molesters have been 
released back onto the streets because of the city's sanctuary policy.
    Deadly narcotics like fentanyl continue to flood across our 
borders. In Pennsylvania alone, drug overdose deaths rose by 37 percent 
in 2016 according to the Drug Enforcement Administration.
    It is time to secure our borders, enforce our Federal laws, and put 
America first.

    Ms. McSally. We are pleased to have Commissioner Kevin 
McAleenan before us today to discuss a wide range of issues 
facing CBP. Commissioner McAleenan was sworn in on March 20, 
2018, as the fifth commissioner of U.S. Customs and Border 
Protection.
    Prior to his confirmation, Mr. McAleenan served as the 
acting commissioner since the beginning of this administration. 
As the agency's chief executive, Mr. McAleenan oversees 60,000 
employees, manages a budget of over $13 billion, and ensures 
the effective operations of CBP's mission to protect National 
security while promoting economic prosperity. The witness's 
full written statement will appear in the record.
    The Chair now recognizes Commissioner McAleenan for 5 
minutes.

 STATEMENT OF KEVIN K. MC ALEENAN, COMMISSIONER, U.S. CUSTOMS 
  AND BORDER PROTECTION, U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. McAleenan. Thank you, Chairwoman McSally, Ranking 
Member Vela. It was nice to see the full committee Chairman 
McCaul as well as Ranking Member Thompson here and Members of 
the subcommittee.
    Thank you for the opportunity to appear before you today. 
It is a privilege to speak to you about my priorities as 
commissioner and to represent the nearly 60,000 strong men and 
women of U.S. Customs and Border Protection.
    The opportunity to lead and work alongside these men and 
women is the biggest privilege of my professional life. CBP is 
central to many priorities for the American people and the 
administration, from countering terrorism, to enhancing border 
security, to securing and facilitating trade and travel.
    Our dedicated officers and agents, specialists, pilots, and 
support personnel are relentlessly perusing a more secure and 
economically competitive Nation. My vision for CBP is that we 
aspire to become the most effective, most innovative, and most 
trusted and transparent law enforcement agency in the United 
States while remaining the premier border security and 
management agency in the world.
    During my tenure as CBP commissioner, I have committed to 
five overarching priorities: Attracting, retaining, and 
developing the most qualified and resilient workforce to serve 
our Nation and meet tomorrow's challenges; accelerating the 
adoption of innovative technologies to keep America and our 
people safe; building and strengthening partnerships across 
Government and with international counterparts; transforming 
the ways that our stakeholders interact with CBP and our 
operations; and investing in our culture through Unity of 
Effort initiatives that further develop a common purpose and a 
mission commitment across all CBP's operational and support 
components.
    My written testimony submitted to the committee further 
elaborate CBP's on-going efforts to enhance our security and 
strengthen our organization, keeping our Nation safe my 
priority strategies for continuing to improve.
    With the support of Congress to provide the resources, 
authorities, and legislative changes we need, I believe that 
CBP will continue to make great strides across our core 
missions and in every area of our operations.
    We will also enhance her internal integrity programs and 
pursue transparency and professionalism measures that will help 
us increase and maintain the trust of the public we are sworn 
to serve.
    But even as we continue to enhance border security at and 
between ports of entry, increasing our effectiveness at 
identifying and interdicting threats, apprehensions of those 
crossing our borders illegally or who are determined to be 
inadmissible at ports of entry continue to rise.
    Seizures of illicit hard narcotics are also increasing 
across all categories, both at and between ports of entry, 
especially methamphetamine and synthetic opioids like fentanyl. 
As we strengthen our screening and vetting across multiple 
agencies to identify potential threats before they enter the 
United States, we continue to face a multifaceted and dispersed 
terrorist adversary.
    We need to continue to invest in and deploy critical 
capabilities to prevent and interdict illegal crossings between 
ports of entry: A modern border wall system, situational 
awareness sensors, airborne mobile and fixed, access and 
mobility and mission readiness, our virtual agents, pilots, and 
air interdiction agents and support personnel.
    At our ports of entry, we need enhanced nonintrusive 
inspection equipment to detect deep concealment of drugs and 
CBP officers and agriculture specialists, for trade enforcement 
mission will augment our dedicated an expert team with 
additional specialists, auditors and attorneys, and we need to 
continue to build our world-leading capabilities at the 
National target center and develop the new National vetting 
center as well as supporting increase capacity for 
international partners.
    But CBP is ultimately only one part of a much larger 
system, one that neither begins or ends at our borders. To 
address threats of illegal immigration and human smuggling, 
narcotics trafficking and terrorism, we need to close legal 
loopholes in our immigration enforcement system, expand our 
investigative and interdiction reach, and strengthen 
international partnerships and policy alignment.
    Illegal and irregular immigration will continue at 
increasing levels unless a systemic vulnerabilities in our 
statutory regime are addressed. If only a small percentage of 
those border crossings apprehended by the Border Patrol in 
certain categories are effectively repatriated, others drawn by 
strong economy, the prospect of family reunification, and the 
promise of a successful crossing will continue to follow.
    These loopholes create a powerful magnet, draining energy 
and youth from Central America even as we work to invest and 
partner in the security and prosperity of the neighboring 
region.
    They put children at risk of violence and assault, they 
enriched transnational criminal organizations, and they 
threaten the security of our international neighbors and our 
domestic neighborhoods.
    The administration's legislative priorities on the 
unaccompanied children family units, asylum and credible fear, 
along with the requested investments in Central America and 
elsewhere would help address these issues.
    I urge Congress to act on these priorities and I look 
forward to working with Members on both sides of the aisle to 
address these challenges. Border security is National security; 
it is a nonpartisan issue.
    With the on-going support of Congress, CBP will continue to 
secure our Nation's borders while facilitating international 
trade and travel. Our dedicated front-line workforce and our 
supporting team will ensure it.
    Thank you for the opportunity to appear before you today. I 
look forward to answering your questions.
    [The prepared statement of Mr. McAleenan follows:]
                Prepared Statement of Kevin K. McAleenan
                             April 25, 2018
                              introduction
    Chairwoman McSally, Ranking Member Vela, and distinguished Members 
of the subcommittee, thank you for the opportunity to appear before you 
today on behalf of U.S. Customs and Border Protection (CBP). I was 
deeply honored to be confirmed by the Senate, and sworn in by the 
Secretary on March 20, as the fifth commissioner of CBP. It is a 
privilege to continue working alongside some of the finest 
professionals in Government service to tackle the most compelling 
mission set in law enforcement.
    CBP is central to so many priorities for the American people and 
the administration, from countering terrorism, to enhancing border 
security, to securing and facilitating trade and travel. In our 
relentless pursuit of a more secure and economically competitive 
Nation, we aspire to be the most innovative and trusted law enforcement 
agency in the world. During my tenure as CBP commissioner, I am 
committed to streamlining CBP efforts and focusing on Unity of Effort 
through a ``One CBP'' culture; to attracting and retaining the best 
workforce to serve our Nation and meet tomorrow's challenges; to 
accelerating the adoption of innovative technology to keep America and 
our workforce safe; to building and strengthening partnerships across 
Government and with our international counterparts; and to transforming 
the ways our stakeholders interact with CBP.
    My testimony today discusses CBP's on-going efforts to keep our 
Nation safe and my priority strategies for enhancing those efforts. I 
also appreciate the important oversight responsibility of this 
committee and pledge to continue working with you to ensure we carry 
out our missions in a manner consistent with the law.
    With the support of Congress to provide us the resources, 
authorities, and legislative changes we need, I believe that CBP will 
make strides across our core missions and in every area of our 
operations, from border security, counterterrorism, agriculture 
protection, and travel and trade facilitation to trade enforcement. We 
will also enhance our internal integrity programs and pursue 
transparency and professionalism measures that will help us increase 
and maintain the trust of the public we are sworn to serve.
    My vision for the organization is that CBP become the most 
effective, most innovative, and most trusted and transparent law 
enforcement agency in the United States, while remaining the premier 
border security and management agency in the world. Investing and 
focusing on developing our culture, supporting and building our 
workforce and its resiliency, and capitalizing on emerging technologies 
will help us deepen partnerships and enhance how we engage our 
stakeholders, for the traveling public and trade communities and others 
that we regulate or interact with.
                  cbp unity of effort and ``one cbp''
    As America's unified border agency, CBP protects the United States 
from terrorist threats and prevents the illegal entry of inadmissible 
persons and contraband, while facilitating lawful travel and trade. 
Before the creation of the Department of Homeland Security (DHS) and 
CBP, border security, trade and travel compliance, and the facilitation 
of international travel and trade were conducted by multiple agencies. 
After September 11, 2001 I was extraordinarily fortunate to have the 
opportunity to help lead the new focus on counterterrorism within the 
United States Customs Service and then support the transition to our 
unified border security agency as U.S. Customs and Border Protection. 
On March 1, 2003, CBP became the Nation's first comprehensive border 
security agency with a focus on maintaining the integrity of the 
Nation's boundaries and POEs. The consolidation of these roles and 
responsibilities allowed CBP to develop seamless security procedures 
while ensuring compliance with the Nation's immigration, health, and 
international trade laws and regulations.
    Because of the work of CBP employees, the Nation's borders and the 
American communities around them have never been more secure. But there 
is much more to be done. As CBP progresses into its second decade, the 
Nation will see a fully integrated approach to international security, 
trade, and travel that makes the world safer, facilitates international 
travel and trade, and pushes forward the continuous improvement of 
CBP's operations. I am honored to lead these efforts.
               attract and retain a world-class workforce
    CBP's U.S. Border Patrol (USBP) and Air and Marine Operations (AMO) 
agents patrol our Nation's borders, maritime approaches, and associated 
airspace to prevent the illegal entry of people and goods into the 
United States. CBP officers and agriculture specialists are multi-
disciplined and perform the full range of inspection, intelligence 
analysis, examination, and law enforcement activities relating to the 
arrival and departure of persons, conveyances, and merchandise at air, 
land, and sea POEs. The people of CBP do the critical, sometimes 
dangerous work of keeping Americans safe, often in remote locations and 
in all kinds of environmental conditions. I am proud of their 
dedication, integrity, and commitment, and it is a privilege to work 
for and alongside each and every one of them.
    CBP has faced challenges in the past to meet our hiring goals. 
However, we have taken decisive action, while recognizing that much 
work remains to be done to ensure we have enough officers and agents to 
meet our needs well into the future. In the last 2 years, more than 40 
individual improvements to CBP's hiring process have resulted in 
significant recruitment and hiring gains--despite record low 
unemployment around the United States and intense competition for 
highly-qualified, mission-inspired people. With support from Congress, 
we are making investments in our capability and capacity to hire across 
all front-line positions. CBP is focusing on efforts to attract 
qualified candidates and expedite their progress through the CBP hiring 
process.
    In the last 2 years, CBP has undertaken a comprehensive effort to 
look across all of our recruitment and hiring process areas. We 
implemented process changes that have resulted in significant 
recruitment and hiring gains. We embraced the use of social media, and 
are working to more effectively identify the best return on investment 
in digital media. We have also introduced a mobile app for applicants 
in our hiring pipeline to keep them engaged during the process. We are 
going to introduce an ``applicant care'' component whereby we assign a 
dedicated employee to an applicant to help them navigate the process. 
We are also leveraging private-sector expertise and experience in 
recruiting and human resources to provide additional capacity.
    CBP's streamlined front-line hiring process has led to significant 
reductions in the average time-to-hire. In the last 12 months close to 
70 percent of new USBP agents and 60 percent of new CBP officers on-
boarded in 313 days or fewer, with 17 percent of each occupation on-
boarding within 92 days. While work remains to be done to improve the 
process, this is a significant improvement from the 469-day overall 
baseline established in January 2016. This streamlined process has 
helped us to grow our workforce by reducing the number of qualified 
candidates who drop out due to process fatigue or accepting more timely 
job offers elsewhere. CBP's background investigation time is 
approximately 90 days for a Tier 5 level investigation, which is 
required for all of CBP's law enforcement officer applicants and 90 
percent of CBP applicants overall. This is considerably faster than the 
Government average for the same level investigation. CBP is also 
recognized as having a best practice quality assurance program, which 
other agencies regularly visit CBP to learn about.
    As a result of these improvements, CBP's fiscal year 2017 hiring 
totals surpassed fiscal year 2016 totals, including increases of 21 
percent for CBP officers, 4 percent for USBP agents, and 91 percent for 
AMO air interdiction agents. In fiscal year 2017, CBP reached the 
highest number of USBP agent hires since fiscal year 2013, and the 
highest number of air interdiction agents and marine interdiction agent 
hires since fiscal year 2014. The total number of front-line applicants 
increased by 73 percent between fiscal year 2015 and fiscal year 2017, 
including a 41 percent increase from fiscal year 2016 to fiscal year 
2017.
    CBP is also actively working to minimize attrition and fill 
positions in ``hard-to-fill'' locations that are often remote and offer 
very limited amenities compared to metropolitan locations. A stable 
relocation program will help meet USBP operational requirements and 
alleviate the workforce's concerns about lack of mobility, which is 
significantly contributing to increased attrition. CBP is thankful for 
the continued dedication of Members of Congress to working 
collaboratively with CBP to find a variety of targeted solutions to 
address our complex hiring challenges.
    Consistent with the Explanatory Statement accompanying the fiscal 
year 2017 Consolidated Appropriations Act concerning the alternative 
polygraph exam format, CBP conducted a 6-month pilot program that 
allowed the agency to compare data points from applicants tested with 
the new, alternative format against applicants tested with the previous 
format. CBP developed this pilot in collaboration with the National 
Center for Credibility Assessment, which governs all Federal polygraph 
programs. Before making any determination on whether to continue with 
the piloted test or return to the previous test, CBP is carefully 
evaluating these metrics and measures to maintain CBP's high standard 
of integrity for future applicants, and we ensure on-going 
communication with Congress on this area of interest. While its format 
may change, the exam retains all of the critical test topics of the 
previous exam and maintains CBP's commitment to high integrity 
standards for its personnel.
    Additionally, DHS supports the Anti-Border Corruption 
Reauthorization Act of 2017, which was ordered as H.R. 2213 in the 
House of Representatives and S. 595 in the Senate. The House passed 
H.R. 2213 on June 7, 2017, thanks to the strong support of this 
subcommittee and the co-sponsorship of Chairwoman McSally, and the bill 
is currently pending vote by the Senate. This pending legislation 
grants the Commissioner authority to waive the polygraph requirement 
for three groups of applicants who have a demonstrated, long-standing 
history of public trust and meet specific criteria: Current, full-time 
State and local law enforcement officers; current, full-time Federal 
law enforcement officers; and veterans, active-duty service members, 
and reservists. We thank the Members of Congress for your continued 
support as we seek to hire the men and women who will fulfill CBP's 
complex and crucial mission in the months and years to come.
                   empower with innovative technology
    Technology enhances CBP's operational capabilities by increasing 
our ability to detect and apprehend individuals illegally crossing the 
border, to detect dangerous goods and materials concealed in cargo and 
vehicles, and to detect and interdict illegal activity in the air and 
maritime domains. Advanced detection and surveillance technology is a 
critical element of CBP's multi-layered border security strategy to 
deploy the right mix of personnel, technology, and tactical 
infrastructure to enable us to meet the everyday challenges of a 
dynamic border threat environment. For CBP, the use of technology in 
the border environment is an invaluable force multiplier that increases 
situational awareness. It allows us to more quickly deter, and more 
safely detect illegal activity, including unauthorized border-crossers, 
and interdict illicit materials, including illicit narcotics, and those 
who attempt to smuggle them.
Border Security
    President Trump has directed CBP toward a new standard of border 
security between the POEs, and defined operational control as the 
ability to prevent or interdict all illegal border crossings. To make 
progress toward this standard, CBP will need substantial investments in 
impedence and denial capabilities, surveillance technology, access and 
mobility, and mission readiness and personnel. For impedence and 
denial, a modern border wall system will significantly enhance CBP's 
efforts to attain operational control of the border between the POEs. 
Border barrier systems are comprehensive solutions. A wall system that 
integrates sensors, cameras, lighting, and access and patrol roads, has 
the support of our USBP agents working our borders and is the direct 
result of an in-depth analysis of existing capability gaps. Between the 
POEs, tactical infrastructure, including physical barriers, has long 
been a critical component of CBP's multi-layered and risk-based 
approach to securing our Southwest Border. It is undeniable that border 
barriers have enhanced--and will continue to enhance--CBP's operational 
capabilities by creating persistent impedance and facilitating the 
deterrence and prevention of illegal entries of people and contraband.
    Constructing and improving CBP's physical infrastructure is also 
essential to keeping Americans safe. CBP is investing in modernizing 
our land POEs along the Northern and Southern Borders to ensure that 
CBP's physical infrastructure is operationally viable for front-line 
and mission support functions. Thanks to the funding provided in the 
fiscal year 2018 Omnibus, CBP is working with the General Services 
Administration (GSA) to ensure that our priority requirements in 
locations including Otay Mesa, CA, and Alexandria Bay, NY receive much-
needed updates. We look forward to working with GSA and Congress to 
ensure that our physical infrastructure meets CBP's needs now and in 
the future.\1\
---------------------------------------------------------------------------
    \1\  Alexandria Bay, NY, Lewiston Bridge, NY, San Luis I, AZ, Otay 
Mesa, CA, Blaine, WA, and Calexico West, CA have been identified as 
priority requirements in the President's fiscal year 2019 budget.
---------------------------------------------------------------------------
    CBP is actively engaging with our Nation's best minds in and 
outside of Government to find innovative solutions to the challenges 
facing our country. For example, groundbreaking software developed by 
the Johns Hopkins University Applied Physics Laboratory is giving AMO 
agents the edge in combating international smugglers intent on evading 
law enforcement. Minotaur, as the software is called, links sensors, 
cameras, radar, and communications equipment into a single, automated 
system, allowing operators to more efficiently identify and track any 
suspicious or illegal activity on both land and sea. This technology, 
when coupled with robust space-based satellite links, allows AMO to 
increase the situational awareness of its law enforcement partners by 
sharing video and radar track data real-time. As the Minotaur system 
evolves, it will allow multiple aircraft to share information from 
multiple sources, providing a never-before-seen level of air, land, and 
maritime domain awareness for a larger number of users.
    CBP is also partnering with DHS Science and Technology to access 
emerging technologies and tools from startups and others. From 
innovative surveillance approaches that can provide multi-sensor data 
direct to our agents, to tools to protect our canines, to analyzing 
data feeds, to empowering our agents on the ground with portable small 
unmanned aircraft systems capability, CBP will continue to push for 
more efficient and effective ways to support our personnel and carry 
out our mission.
    But CBP is part of a system which neither begins nor ends at our 
borders, and which innovative technologies and enhanced interdiction 
capabilities alone cannot prevent illegal crossings. The administration 
seeks support from Congress to amend current law to facilitate the 
expeditious return of Unaccompanied Alien Children (UACs) and family 
units who are ineligible for relief. The administration supports 
correcting the systemic deficiencies that created the asylum backlog, 
and supports providing additional resources to reduce the immigration 
court backlog and ensure the swift return of illegal border crossers. I 
look forward to working with Congress on the legislation needed to 
enhance the security of our country, ensure effective immigration and 
enforcement, and protect American workers and taxpayers. These 
legislative needs have a direct impact on CBP and our ability to 
perform our mission.
Narcotics Interdiction
    As America's unified border agency, CBP plays a critical role in 
preventing dangerous drugs, including opioids, from reaching the 
American public. CBP uses advanced detection equipment and technology, 
including Non-Intrusive Inspection (NII) equipment and radiation 
detection technologies, to maintain robust cargo, commercial 
conveyance, and vehicle inspection regimes at our POEs. NII 
technologies deployed to our Nation's land, sea, and air POEs include 
large-scale X-ray and gamma-ray imaging systems, as well as a variety 
of portable and hand-held technologies. NII systems enable CBP officers 
to examine cargo conveyances such as shipping containers, commercial 
trucks, and rail cars, as well as privately-owned vehicles, for the 
presence of contraband without physically opening or unloading them. 
CBP is establishing the Model Port concept as the guiding framework to 
streamline the cargo and passenger vehicle inspection process to 
increase the volume of vehicles examined. We anticipate completing 
testing and evaluation of drive-through X-ray system pilots this year. 
Additionally, we anticipate completing the technical architectural 
framework that will be used within the design for the Donna, Texas land 
POE through the Donations Acceptance Program. We will continue to adapt 
our deployment of NII systems so that we can work smarter and faster in 
detecting contraband, while expediting legitimate trade and travel. 
Additionally, Operations Support's Laboratories and Scientific Services 
Directorate plays a critical role in the detection of opioids and in 
identifying the chemical screening devices that will help CBP target 
new designer drugs, including opioids.
    All told, in fiscal year 2017 CBP officers and agents seized or 
disrupted over 1.9 million pounds of narcotics across the country, 
including over 60,000 pounds of methamphetamine, over 330,000 pounds of 
cocaine, over 4,800 pounds of heroin, and approximately 1,476 pounds of 
illicit fentanyl.\2\ More than 790 pounds of illicit fentanyl have 
already been seized in fiscal year 2018.
---------------------------------------------------------------------------
    \2\ https://www.cbp.gov/newsroom/stats/cbp-enforcement-statistics-
fy_2017.
---------------------------------------------------------------------------
    CBP, with the support of Congress, has made significant investments 
in and improvements to our drug detection and interdiction technology 
and targeting capabilities at and in between our POEs, including in the 
international mail and express consignment carrier (ECC) environments. 
The United States Postal Service (USPS) receives international mail 
from more than 180 countries, the vast majority of which arrives via 
commercial air or surface transportation. An increasing number of 
foreign postal operators provide advance electronic data (AED) to USPS, 
which is then passed on to CBP.
    CBP and the USPS are currently conducting an AED pilot on express 
mail and e-packets from select countries at five of our main 
International Mail Facilities (IMFs) to target high-risk shipments, 
with plans for further expansion. USPS is responsible for locating the 
shipments and delivering them to CBP for examination. Thus far in 
fiscal year 2018, CBP has interdicted 186 shipments of fentanyl at the 
John F. Kennedy International Airport IMF, a participant in the AED 
pilot program. One hundred and twenty-five of those interdictions can 
be attributed to AED targeting. We support efforts to expand the 
ability of USPS to collect fees to help offset the additional cost 
associated with building the capacity of foreign postal operators to 
implement AED collection, to develop new scanning technology, and to 
greatly increase the availability of AED for international mail.
    Recent agreements between USPS and foreign postal operators 
regarding AED have increased CBP's ability to target high-risk 
shipments. Currently in the international mail environment CBP receives 
AED on over 40 percent of all international mail shipments with goods. 
The volume of mail and the potentially hazardous nature of various 
types of illicit drugs presents challenges to CBP's interdiction 
efforts in the international mail environment. CBP will continue to 
work with USPS and the U.S. Department of State (DOS) to address the 
issue of AED and, through its participation on U.S. delegations to 
meetings of the Universal Postal Union (UPU), is working to expand the 
use of AED globally in ways consistent with the United States' 
international obligations as a member of the UPU.
                     build and develop partnerships
    CBP is committed to fulfilling our complex missions and to do that, 
we are working with our partners across the country and around the 
world. I am actively seeking to deepen our partnerships across all 
levels of government and with our international counterparts to ensure 
that information is shared quickly, resources are spent where they are 
most needed, and that the American people and economy are kept safe.
Counter-Terrorism
    Since September 11, the U.S. Government has improved information 
sharing regarding known or suspected terrorists (KSTs), including by 
creating the Terrorist Screening Center (TSC). The TSC is a multi-
agency organization administered by the Federal Bureau of Investigation 
(FBI), and is responsible for managing and sharing the Terrorist 
Screening Database (TSDB) which contains identity information on 
international and domestic KSTs. We have also worked closely with our 
foreign partners to deepen bilateral and international information 
sharing to enhance the depth and quality of our information holdings.
    For example, CBP offers its automated targeting system-global (ATS-
G) software, along with technical assistance, to potential 
international partners. ATS-G is similar to the software used at the 
National Targeting Center (NTC) and evolved from decades of experience 
designing and operating passenger and cargo targeting systems. The 
software can vastly improve how travelers flying in and out of a 
country are vetted.
    CBP also created the global travel assessment system (GTAS). GTAS 
permits foreign countries to independently perform vetting activities 
without the collaboration involved with ATS-G. Launched in 2016, GTAS 
is free and designed for rapid use. The software is easily downloaded 
from a special CBP website and ready to use. It can also be used to 
improve an existing vetting system because the coding allows nations to 
customize the software or just download the portions that meet their 
needs.
    GTAS is comparable to ATS-G because GTAS also automatically 
evaluates passenger manifests in real time to identify suspicious 
travelers or crew members who may pose a National security risk and 
require a closer assessment. Using GTAS, governments can screen 
suspects before they enter or leave that nation. Since the software is 
new, CBP is working with the World Customs Organization in Brussels, a 
group that promotes trade and supply chain security, to promote this 
software. In an interconnected world, it is more important than ever 
that countries conduct these risk assessments, and CBP is helping 
advance global security through ATS-G, GTAS, and the expertise of the 
NTC.
National Targeting Center (NTC)
    At CBP's NTC, advance data and access to law enforcement and 
intelligence records converge to facilitate the targeting of travelers 
and cargo that pose the highest risk to our security in all modes of 
inbound transportation. The NTC takes in large amounts of data and uses 
sophisticated targeting tools and subject-matter expertise to analyze, 
assess, and segment risk at every stage in the cargo/shipment and 
travel life cycles. As the focal point of that strategy, the NTC 
leverages classified, law enforcement, commercial, and open-source 
information in unique, proactive ways to identify high-risk travelers 
and shipments at the earliest possible point prior to arrival in the 
United States.
    To bolster its targeting mission, the dedicated men and women of 
the NTC collaborate with critical partners on a daily basis, including 
ICE Homeland Security Investigations (ICE-HSI), the Drug Enforcement 
Administration (DEA), the FBI, members of the intelligence community 
(IC), and the U.S. Postal Inspection Service (USPIS). ICE-HSI and USPIS 
investigative case data is fused with CBP targeting information to 
bolster investigations targeting illicit narcotics smuggling and 
trafficking organizations. Moreover, NTC works in close coordination 
with several pertinent task forces, including the Organized Crime Drug 
Enforcement Task Forces (OCDETF), the High Intensity Drug Trafficking 
Areas, the Joint Interagency Task Force--West (JIATF-W), the HS Joint 
Task Force--West (JTF-W), and DHS Joint Task Force--Investigations 
(JTF-I).
National Vetting Center
    On February 6, 2018, President Trump ordered the establishment of a 
National Vetting Center (NVC), to be managed by DHS under the guidance 
of a newly-established National Vetting Governance Board. CBP will be a 
key component helping lead the implementation of the NVC. The NVC will 
be co-located with the NTC to leverage its existing capabilities, 
workforce, system capabilities, network connections, and interagency 
presence. The NVC will provide front-line Government personnel with the 
information they need to keep terrorists, criminals, and other threats 
out of the country. Consistent with applicable law and policy, it will 
ensure that international travelers and visa and immigration benefit 
applicants are vetted against all appropriate U.S. Government 
information to identify National security and public safety threats.
Border Security
    The number of individuals apprehended while trying to enter the 
country illegally in between established POEs, and in those presenting 
themselves for entry without proper documentation along our Southwest 
Border, increased by 37 percent from February to March 2018. When 
compared to March 2017, the increase is an extraordinary 203 
percent.\3\ CBP is committed to working with our domestic and 
international Government partners to secure our border and anticipate--
and even prevent--increases in apprehensions.
---------------------------------------------------------------------------
    \3\ https://www.cbp.gov/newsroom/stats/sw-border-migration.
---------------------------------------------------------------------------
    To enhance CBP's capability in Southwest Border sectors the U.S. 
Department of Defense (DOD), in conjunction with border State 
Governors, has begun deploying the National Guard to assist in stopping 
the flow of deadly drugs and other contraband, gang members and other 
criminals, and illegal aliens into this country. Initial forces are 
already on the ground. The National Guard will assist CBP by providing 
logistical and administrative support, operating detection systems, 
providing mobile communications, augmenting border-related intelligence 
analysis efforts, and repairing border infrastructure. National Guard 
members will provide added surveillance, engineering, administrative, 
and mechanical support to our agents on the front line to allow them to 
focus on their primary responsibility of securing our border. National 
Guard personnel will not conduct law enforcement activities, will not 
be assigned responsibilities that require direct contact with migrants, 
and will not be assigned missions that require them to be armed. This 
deployment will allow CBP to send front-line personnel back to the 
border and raise our interdiction and efficiency rates. CBP is working 
with DHS and DOD to ensure a seamless coordination of efforts.
    Throughout Central America, CBP leverages its Attache and Advisor 
network to engage local immigration, border management, and police 
authorities, as well as our Federal partners such as the DOS 
International Narcotics and Law Enforcement (INL), U.S. Agency for 
International Development (USAID), and ICE to enhance security and 
promote prosperity in the region. CBP efforts in the region include 
training, mentoring, and sharing best practices with local law 
enforcement; making customs processes more efficient and transparent to 
enhance trade facilitation; and build the capacity of law enforcement 
in each country to counter drug smuggling activities, monitor, track, 
and deter the illicit migration of third-country nationals, and 
facilitate cross-border coordination.
    CBP hosts monthly briefings/teleconferences with Federal, State, 
and local partners regarding the current state of the border--both 
Northern and Southern--to monitor emerging trends and threats and 
provide a cross-component, multi-agency venue for discussing trends and 
threats. The monthly briefings focus on drugs, weapons, and currency 
interdictions and alien apprehensions both at and between the POEs. 
These briefings/teleconferences currently include participants from: 
The Government of Canada, the Government of Mexico, the Government of 
Australia, ICE, U.S. Coast Guard (USCG), DEA, FBI, DOD's U.S. Northern 
Command, U.S. Central Command, U.S. European Command, and U.S. Southern 
Command, Joint Interagency Task Force--South (JIATF-S), the Bureau of 
Alcohol, Tobacco, Firearms, and Explosives (ATF), U.S. Attorneys' 
Offices (USAOs), Naval Investigative Command, State and Major Urban 
Area Fusion Centers, and other international, Federal, State, and local 
law enforcement as appropriate.
    The Office of Intelligence (OI) hosts a bi-weekly fusion forum to 
facilitate an open discussion with CBP's Federal, State, local, and 
international partners on emerging trends and patterns, specific 
problem sets confronted by each organization, and each organization's 
attempts to address them. Additionally, OI personnel take part in a 
variety of weekly or monthly conference calls related to a variety of 
issues affecting CBP's mission including narcotics, terrorism, trade, 
and migration.
    CBP is enhancing our collaboration with other DHS components to 
leverage the unique resources, authorities, and capabilities of each 
agency to more effectively and efficiently execute our border security 
missions against drug trafficking organizations, transnational criminal 
organizations, and other threats and challenges. Under the Department's 
Unity of Effort initiative the JTF-W, JTF-East, and JTF-I operations 
also increase information sharing with Federal, State, and local law 
enforcement agencies, improve border-wide criminal intelligence-led 
interdiction operations, and address transnational threats.
Extended Border: Source and Transit Zone Operations
    AMO's significant contribution of aerial support to the JIATF-S 
mission \4\ to detect and monitor aerial and maritime transit of 
illegal drugs into the United States has been critical to JIATF-S's 
continued success. AMO's P-3s fixed-wing aircraft are an integral part 
of the successful counter-narcotic missions with the JIATF-S. P-3s 
patrol a 42 million-square-mile area that includes more than 41 
nations, the Pacific Ocean, Gulf of Mexico, Caribbean Sea, and seaboard 
approaches to the United States. Already in fiscal year 2018, AMO 
involvement in the JIATF-S mission has resulted in the seizure of 
52,839 pounds of cocaine, with a wholesale value of $711 million.
---------------------------------------------------------------------------
    \4\ Title 10 U.S.C. Sec. 124 statutory obligatory.
---------------------------------------------------------------------------
International Trade Coordination and Facilitation
    On March 26, 2018, I was in Mexico City to sign a memorandum of 
cooperation with Osvaldo Santin, Chief of Mexico's Tax Administration 
Service, to help our two countries better cooperate on trade and 
customs compliance, as well as combat illicit activities. Issues 
covered under this memorandum include anti-dumping duties, counterfeit 
merchandise, and substandard pharmaceuticals.
    Additionally, CBP and the Mexican tax service signed a memorandum 
of understanding on a cargo pre-inspection program and Unified Cargo 
Processing (UCP). UCP currently operates at seven ports of entry along 
the U.S.-Mexico border, with the memorandum merging two more cargo pre-
inspection sites into UCP. UCP eliminates duplicative inspection 
efforts while reducing border wait times and costs for the private 
sector. The new agreement looks to expand the process to possibly more 
than a dozen locations. CBP and the National Service for Agro-
Alimentary Public Health, Safety, and Quality--Mexico's agency 
responsible for inspecting incoming goods for pests and diseases--also 
signed an agreement to enable collaboration between the two agencies on 
agriculture safeguarding, agriculture quarantine inspections at ports 
of entry, and information sharing. The memorandum promotes cooperation 
and information sharing to enable the United States to handle 
legitimate and safe shipments quickly while addressing those that pose 
a risk.
Collaboration with our Trade Partners in the Private Sector
    CBP is actively engaging with our trade partners in the private 
sector. The Trade Facilitation and Trade Enforcement Act of 2015 
(TFTEA) empowered CBP to collaborate with our partners in new ways, and 
CBP remains committed to enforcing trade law in accordance with the 
mandates of TFTEA and in close collaboration with our partners across 
Government and the private sector while facilitating legitimate trade.
    The Commercial Customs Operations Advisory Committee (COAC) advises 
the Secretaries of the U.S. Department of the Treasury and DHS on all 
matters involving the commercial operations of CBP, including advising 
on significant proposed changes to regulations, policies, or practices. 
The trade environment is changing rapidly. Most notably, CBP has seen a 
nearly 50 percent increase in express consignment and international 
mail shipments over the past 5 years. In fiscal year 2013, CBP 
processed over 76 million express bills and, in fiscal year 2017, CBP 
processed approximately 110 million bills. In fiscal year 2013, CBP and 
the USPS processed approximately 150 million international mail 
shipments. By fiscal year 2017, the number of international mail 
shipments had swelled to over 400 million.
    As new e-commerce participants may not know they are importers, or 
understand the responsibilities of being an importer, COAC identified 
the need for a mechanism to educate the public. COAC also identified 
the need for better data collection, automation, and a legal framework 
for sharing data. The working group also identified education and 
outreach as a need. As a follow-up to recent meetings, the working 
group developed recommendations that CBP is working to implement.
                            transforming cbp
    As international trade and travel grow, so too does CBP's workload 
and the expectations on our people and systems. I am committed to 
ensuring that we meet those expectations, and the new and changing 
demands placed on CBP, with the utmost professionalism in keeping with 
the CBP vision: To serve as the premier law enforcement agency 
enhancing the Nation's safety, security, and prosperity through 
collaboration, innovation, and integration.
Biometric Exit
    Since fiscal year 2013, CBP has led the entry/exit mission, 
including research and development of biometric exit programs. A 
comprehensive entry/exit system that leverages both biographic and 
biometric data is key to supporting DHS's mission. Adding biometrics 
provides greater assurance of the information already collected by CBP 
and will allow for future facilitated processing upon both entry and 
exit. CBP will use a traveler's face as the primary way of identifying 
the traveler to facilitate entry and exit from the United States, while 
simultaneously leveraging fingerprint records from most foreign 
visitors, such as are collected during entry processing, to check 
derogatory holdings and perform other law enforcement checks. This 
innovative structure will make it possible to confirm the identity of 
travelers at any point in their travel, while at the same time 
establishing a comprehensive biometric air exit system.
    Using the Traveler Verification Service (TVS), CBP has re-
architected data flows and data systems to pre-stage biometric data 
throughout the travel process. TVS, a robust cloud-based service, 
serves as the backbone to verify traveler identity across the air, 
land, and sea travel modes of operation. TVS uses biometric data to 
retrieve all associated traveler facial images from DHS holdings and 
segregate them into smaller, more manageable data sets, for example, by 
flight, by cruise, or by frequent border crossers. It fuses biometric 
and biographic information, enabling the biometric data to be the key 
to verifying traveler identity with the advance data. CBP has 
demonstrated the capabilities of TVS at airports across the United 
States \5\ as well as in the sea environment and plans to pilot the 
capability at land POEs in 2018.
---------------------------------------------------------------------------
    \5\ Washington Dulles International Airport (June 2017); Atlanta 
Hartsfield-Jackson International Airport (June 2017 upgrade 
demonstration capability; original pilot in 2016); Houston George Bush 
Intercontinental Airport (June 2017); Chicago O'Hare International 
Airport (July 2017); Las Vegas McCarran International Airport (July 
2017); Houston William P. Hobby Airport (August 2017); John F. Kennedy 
International Airport (August 2017); Miami International Airport 
(October 2017)
---------------------------------------------------------------------------
    CBP is continuing to discuss with additional airlines how they can 
be incorporated into the program, and we are ready to partner with any 
airline or airport that wishes to use biometrics to expedite the travel 
process for its customers. One of our biometric exit partners has told 
us that the new process allows it to board an A380, the largest 
passenger plane in wide operation in the world, in less than 20 
minutes.
    In the land border environment CBP will conduct a technology 
demonstration for ``at speed'' facial biometric capture camera 
technology on vehicle inbound and outbound travelers at our land POEs. 
CBP will utilize operational facilities at the Anzalduas, Texas, POE to 
evaluate performance of ``at-speed'' facial technology including 
determining optimal equipment placement, number of cameras necessary to 
capture photos beyond the driver, and establish performance baselines.
    Comparative analysis will be performed on facial recognition 
matching algorithms being developed by academia and industry on images 
captured during the technology demonstration against traveler photos on 
file in Government holdings. CBP will create a gallery of expected 
border crossers and validate the concept of ``face as a token'' and 
close the arrival departure reporting gap in the vehicle environment. 
The technology demonstration will begin in 2018.
Simplified Arrival
    Our new simplified arrival process quickly and reliably uses the 
traveler's face to biometrically verify identity and retrieve traveler 
records from our systems. This eliminates manual, time-consuming steps 
for most travelers, such as document scans and fingerprint captures, 
which speeds up the inspection process. Simplified Arrival is the first 
step in re-envisioning the entirety of how travelers arrive in the 
United States. With a faster clearance process, airlines, airports, and 
travelers benefit from shorter connection times and standardized 
arrival procedures. Our initial pilot programs in Miami have shown that 
arriving passengers can clear the immigration and customs area 35 
percent faster using the new biometric process.
    CBP is committed to working with our travel industry partners to 
transform the international travel process and enhance the passenger 
experience. CBP's goal is to integrate best practices into existing 
processes and infrastructure to ensure a seamless, secure travel 
experience for everyone.
Web-based service
    We are committed to making sure that travel is secure and 
straightforward. For example, in January 2018, CBP launched two new 
traveler compliance initiatives to make it easier for Visa Waiver 
Program (VWP) travelers to check the status of their stay in the United 
States and remain in compliance with the terms of their admission. A 
new feature added to the I-94 website under the ``View Compliance'' tab 
allows VWP travelers to check the status of their admission to the 
United States. This check will inform travelers of the number of days 
remaining on their lawful admission or the number of days they have 
remained past their admitted until date. In addition, CBP will now send 
an email notification to VWP travelers who are still in the United 
States 10 days prior to the expiration of their lawful admission 
period. CBP has taken these proactive steps to help inform and remind 
travelers of the terms of their admission and to prevent travelers from 
overstaying.
Automated Commercial Environment (ACE)
    With the strong support of Congress, CBP reached an historic 
milestone on February 24, 2018, deploying the last of the major 
scheduled core trade processing capabilities in the Automated 
Commercial Environment (ACE). ACE is the ``Single Window'' through 
which all import and export data are reported by industry to more than 
47 partner Government agencies, automating 269 different forms and 
streamlining trade processes. Built on a modernized platform, ACE has 
resulted in a 44 percent reduction in wait times for truck processing 
at land POEs and the 68 times faster processing of bonds.
    Looking ahead, CBP will focus on sustaining all deployed ACE 
capabilities and ensuring ACE operates as a highly available, reliable 
system. There is an on-going demand for additional and enhanced ACE 
capabilities, and CBP will continue to collaborate with the trade 
community, partner Government agencies, and stakeholders to implement 
automated solutions that advance secure shipments, streamline trade 
processes and support the strong enforcement of trade laws. This 
includes increased focus on the rise of e-commerce and high-volume, low 
value shipments, an aspect of the U.S. economy that presents 
enforcement and trade facilitation challenges. System enhancements to 
enable de minimis functionality will provide CBP access to previously 
unavailable admissibility data for low-value shipments, resulting in 
improved cargo processing and use of enforcement resources.
Transparency and Accountability
    As commissioner, I am committed to ensuring transparency and 
employee accountability regarding the use of force. The CBP National 
Use of Force Review Board (NUFRB) is a review committee established to 
review all significant use of force incidents--those that result in 
serious bodily injury or death and those that involve the discharge of 
a firearm,\6\ regardless of the outcome. The NUFRB is comprised of 
senior officials from across CBP, as well as officials from DHS and 
DOJ. As of October 2017, there have been 11 meetings of the board. 
These meetings have reviewed 36 significant use of force incidents. CBP 
recently completed a web-based tracking system for recommendations made 
by the NUFRB.
---------------------------------------------------------------------------
    \6\ Excluding the euthanasia of an animal and AMO vessel disabling 
fire or warning shots.
---------------------------------------------------------------------------
    Local Use of Force Review Boards (LUFRBs) were established to 
conduct an objective review of the use of less-lethal devices not 
addressed by the NUFRB. The LUFRBs provide CBP senior leadership with 
an objective assessment of less-lethal force incidents from a regional 
committee of leadership from components within CBP. CBP recently 
initiated the development of a web-based tracking system for cases that 
come before the LUFRB. This system will track the consideration and 
disposition of cases heard by the LUFRBs. These systems will help us 
hold one another accountable to the public--and to ourselves.
    As part of CBP's continued emphasis on transparency and 
accountability, CBP is also beginning to implement Incident-Driven 
Video Recording Systems (IDVRS). CBP is first conducting a thorough 
field evaluation (March-September 2018) and analysis to provide more 
thorough information concerning the expansion of audio and video 
recording capabilities through the incorporation of IDVRS. In an effort 
to maintain a high level of transparency, CBP recently conducted a 
Privacy Impact Assessment (PIA). The goal of the evaluation was to 
determine the effectiveness of fixed, vehicle, and body-worn camera 
technology to provide an accurate representation of law enforcement 
encounters, while allowing CBP officers and agents to safely perform 
their duties. CBP published the PIA to evaluate the privacy concerns 
associated with CBP's use of incident-driven video recording technology 
at and between POEs and to inform the public of potential privacy 
concerns associated with the deployment of body-worn cameras and other 
audio/video recording devices, as well as CBP's planned efforts to 
mitigate those potential privacy concerns. The PIA is now available on 
the DHS website.\7\
---------------------------------------------------------------------------
    \7\ https://www.dhs.gov/publication/dhscbppia-052-incident-driven-
video-recording-systems-idvrs-evaluation.
---------------------------------------------------------------------------
    Body-worn cameras alone may not be the proper solution. CBP seeks 
to determine the most effective and efficient solution to an IDVRS 
strategy, including a comprehensive incorporation of body-worn, 
vehicle-mounted, and permanently-fixed camera systems, to help CBP 
further fulfill our commitment to transparency and accountability. We 
will continue to pursue initiatives that advance our integrity and 
transparency.
                               conclusion
    The border environment in which CBP works is dynamic and requires 
continual adaptation to respond to emerging threats and rapidly 
changing conditions. I am proud of CBP's dedicated workforce, who 
continue to meet these challenges with integrity and commitment. The 
challenges facing our Nation are considerable. However, with the 
talents and energy of the people of CBP, along with the support of the 
administration and Congress, we will continue to make great strides in 
the months and years ahead.
    Thank you for the opportunity to appear before you today. I look 
forward to working with you and your colleagues in Congress, and I look 
forward to your questions.

    Ms. McSally. Thank you, Commissioner, and I recognize 
myself for 5 minutes for questions.
    We have been working on closing these legal loopholes for a 
while, and I want to recognize that my bill, along the Chairman 
McCaul and Goodlatte and Labrador, we address these issues, but 
for the public out there, the layman, our constituents, maybe 
they don't understand what we are talking about, right?
    We are talking about how even if you have the will and the 
desire in order to secure the border and with your CBP 
personnel and your Border Patrol agents, if you catch someone, 
you are able to swiftly be able to send them back and then that 
deters others from coming and then it also stops the profits of 
the cartels, that these loopholes do not allow that to happen 
and we referenced it today. But can you paint it in layman's 
terms what the issue is and how it is being exploited by these 
cartels?
    This caravan has gotten a lot of attention where there is a 
large group of people coming here. Many of them will also 
exploit this loophole, but it is happening every single day in 
the communities along the border. So can you--give you an 
opportunity to just talk through those and why it is so 
important that we in Congress close these loopholes so that you 
can do your job.
    Mr. McAleenan. Sure. Thank you, Chairwoman. I would be 
happy to talk through the loopholes.
    What we are facing at the border--and our sector chief and 
Rio Grande Valley, which is seeing about 50 percent of our 
apprehensions Nationally, has invented a new term to address 
the increasing traffic.
    You highlighted some of it in your opening statement. As 
opposed to 90 percent adults in a migrant workforce that we saw 
in the past, we are now seeing 40 percent kids and families 
crossing the border. He is taking the calling of these 
populations nonimpactables, meaning that there is no 
consequence, there is no response to an illegal entry for these 
groups.
    For unaccompanied children, I think you need only look at 
the disparity between Mexican nationals and children from 
Central America and further away. About 96 percent of Mexican 
unaccompanied children are returned within 3 years. That number 
drops to 3 percent for people from other countries.
    Essentially, once a Border Patrol agent apprehends them, 
and usually they are actually looking for a Border Patrol agent 
once they cross the border, they are taken into custody, 
processed, and quickly turned over via our partners at 
Immigration and Customs Enforcement to Health and Human 
Services where they can be properly cared for.
    They then have their sponsor vetted and they are turned 
over by Health and Human Services to someone living in the 
United States, possibly illegally. So that is the process for 
an unaccompanied child.
    For a member of the family unit, if they are apprehended, 
and again, they are not always seeking to evade Border Patrol 
agents. Sometimes they are picked up relatively routinely right 
at the border line. They are turned over to ICE. ICE takes them 
to a family residential facility where they are processed and 
detained, generally for less than 20 days. That is the expected 
standard due to court decisions in the Ninth Circuit.
    They are then released pending a court hearing, which could 
happen many years out, and in the mean time they are living 
here with authorization to be employed. This is a real 
challenge, because that first threshold of determining whether 
somebody may have a fear of returning to their country is very 
low, so a very high percentage gets that. But the ultimate 
court decision doesn't come for many years, so it creates a 
significant pull factor for others.
    Then the third category is adults that claim fear, that 
also go through that asylum process and spend time here in 
between that initial determination of fear and that ultimate 
court decision, which could be many years out due to the 
significant backlog in our immigration courts.
    So, for a Border Patrol agent on the border, they want to 
protect the American people from threats. They don't want to 
interdict and process people that are coming to claim asylum 
between ports of entry. It is not a good process. The status 
quo is not acceptable.
    Ms. McSally. Thank you. I appreciate you expanding on that. 
I mean, the thing that is--the insanity is that essentially the 
message is to any transnational criminal organization or really 
anybody, just get yourself, get your kid, just get to the 
boarder, look for someone, turn yourself in, say the right 
words, and then you can disappear into the interior of the 
United States with a very small percentage showing up for their 
court date in the future. Correct?
    Mr. McAleenan. That is correct. That is exactly right. The 
transnational criminal organizations are preying on these 
individuals. They are charging them $5,000 to $10,000 to 
smuggle them to the border and allow them to use their area of 
the border to cross. That enriches organizations that are 
threatening the security and safety of Mexican citizens. It 
puts those children at risk of assault and violence in the 
process.
    Ms. McSally. Thank you. So can you talk about the caravan 
then? Then I will yield back and we will do another round, but 
can you talk about the caravan and how this is impacting--
everyone is sort of watching this all happen with this big 
caravan, but this is happening every day in smaller numbers.
    Mr. McAleenan. Right. I think the caravan highlights the 
challenge that the loopholes present. If we don't have 
alignment in migration policy between countries, destination 
and transit countries, if we don't have a statutory regime that 
has loopholes closed, this invites groups like this to try to 
come to our border and come into the United States in this 
irregular fashion.
    So we are going to enforce the immigration law. We are 
going to absolutely treat claims of fear and protection fairly 
as we encounter this group. But it presents a challenge and I 
just think is highlighting publicly the issues that we are 
facing in the statutory regime.
    Ms. McSally. Thank you, and I yield back. The Chair now 
recognizes Mr. Vela.
    Mr. Vela. Thank you, Chairwoman McSally. After we passed--
after the House passed the spending bill, the House Democratic 
leader issued this statement. Democrats want explicit language 
restricting border construction to the same see-through fencing 
that was already authorized under current law.
    What I am wondering if that is true or not, because when we 
take a look at the provision for $445 million in primary 
pedestrian levee fencing, that comes out to $17 million a mile. 
Can you elaborate on that? Because $17 million a mile doesn't 
sound like it is just see-through fencing.
    Mr. McAleenan. So I think we are maybe covering a couple 
different topics together. The 2017 appropriated funding is for 
a replacement wall in El Paso sector, in El Centro sector, and 
San Diego----
    Mr. Vela. Yes, 2017. I am talking 2018.
    Mr. McAleenan. Two-thousand eighteen, there is specific 
appropriations for Rio Grande Valley levee wall in Hidalgo 
County. That is a similar wall to what we built in 2008. That 
is actually not see-through, because it is a concrete wall that 
helps protect the levee. It is a hydraulic wall. That is 
consistent with the appropriations language, and it is 
something that we are working on planning and designing right 
now to build.
    Mr. Vela. Yes, and that was precisely my question, because 
the statement seemed to be untrue, because that money is for a 
concrete levee wall, right?
    Mr. McAleenan. Yes, the language restricted to previous and 
similar designs, to previous efforts, and that concrete wall is 
very similar.
    Mr. Vela. Now, in anticipation of our hearing today, I had 
some constituents actually e-mail, because representing the Rio 
Grande Valley sector, you can imagine there are people watching 
what we do. But I had one question from a constituent. In its 
end of year report, CBP reported a 45 percent increase in 
assaults over fiscal year 2016, over 847 assaults in fiscal 
year 2017.
    Assaults against law enforcement personnel were led by U.S. 
Border Patrol, accounting for 93 percent of overall assaults 
and--reporting 6 percent of total assaults. I understand that 
the method for counting and tracking assaults on CBP personal 
changed a few years ago. Can you describe how these types of 
incidents are counted and if the methodology changed or not?
    Mr. McAleenan. Sure. First, I am very proud of the men and 
women who secure our border and face dangers every day on 
behalf of the American people. They are often subject to 
assault and violence in carrying out their duties.
    We are talking about violent transnational criminal 
organizations that are often heavily armed that are prepared 
for encounters with law enforcement, and I am very proud of how 
they conduct themselves.
    One of the areas where we have taken steps to increase our 
transparency is publishing a lot of data on our enforcement 
encounters, both in terms of our use of force by our agents and 
officers but also on the force that they face as they are 
patrolling the border.
    So for our agents, we published two different sets of data 
simultaneously, the number of incidents of assault and the 
number of assaults, which could include the number of people 
mounting an assault, the number of agents that are impacted, or 
the weapons that are used in an assault.
    So those two numbers are both transparently reported. We 
did see a spike, an increase last year in the assaults. I think 
that is a testament to the intensity of those incidents. We 
think it is appropriate to report both numbers to inform the 
public what our officers and agents are facing.
    Mr. Vela. I know you and I are going to meet afterwards, so 
I will go into some of this other stuff later. Let me ask about 
this. With respect to infrastructure, can you tell us how much 
funding is needed to fully modernize land ports of entry? Is 
the donation authority program sufficient to make up this 
funding shortage?
    Mr. McAleenan. So, you know, that is a great question, 
Congressmen. Our land ports of entry are critical to the 
economy of the United States, to the legitimate flow of trade 
and travel. You are absolutely right, there is a deficit in 
investment in ports of entry that is decades-long that we need 
to continue to work with Congress to fund.
    CBP has developed a prioritized list in partnership with 
GSA, the Department of Transportation, the Department of 
Commerce, and our cross-border international partners where we 
need port of entry investment. Each year, we work to fit as 
much of that as we can in concert with GSA within the annual 
budget caps.
    But really, we have about a $4 billion deficit in ports of 
entry. So the donation acceptance program which allows us to 
work with private-sector entities, with cities and State and 
local governments like you referenced in South Texas, meet some 
of that need and provides flexibility where there is a return 
on investment.
    But we are going to continue to need appropriated support 
for those gateways of international commerce that support all 
50 States.
    Mr. Vela. Well, thank you.
    Ms. McSally. Gentleman yields back. Chair now recognizes 
Mr. Rogers from Alabama.
    Mr. Rogers. Thank you, Madam Chairman. It was obvious from 
your first remarks in your opening statement that you recognize 
that the most valuable component of your border security system 
are people. We will talk about that more in a minute. But aside 
from that, when you look at border infrastructure, what do you 
think is the most critical component that you have to have to 
secure that border, the Southwest Border?
    Mr. McAleenan. For security? So it is not coming from me. 
It is coming from our agents and our chiefs on the ground, who 
through a process every year called the capabilities gap 
analysis--that is then analyzed by our headquarters operations 
team--tell us what they need to secure that border.
    They have consistently identified four master capabilities. 
The first is impedance and denial. That is the ability to stop 
someone from easily crossing and disappearing--we call it 
vanishing time--into the United States, into infrastructure and 
U.S. side.
    The second is situational awareness, being able to see what 
is happening on that border through technology.
    Third is access and mobility, the ability to reach that 
border and move laterally along it so that they can affect 
interdictions.
    Last is mission readiness. That is our people and the 
communications equipment they carry with them to get to those 
spots.
    Mr. Rogers. The No. 1 ability to impede is a wall or 
barrier, correct?
    Mr. McAleenan. Border barrier is a proven technique. We 
have got 654 miles of it. It has been effective where we have 
applied it, reducing crossings 90 percent and more in key areas 
of San Diego, Yuma, El Paso, Nogales. It is a critical 
capability.
    Mr. Rogers. You just talked with the Ranking Member about 
the funds that you have had to work with. Do you have enough to 
be able to meet that challenge on that first component of 
border security?
    Mr. McAleenan. So, first of all, we appreciate the 
President's request, listening to agents on the ground and what 
they need to secure the border between ports of entry. This is 
a significant investment in 2017 and 2018 in border wall. 
Almost $2 billion combined. That will help us get started.
    It is certainly a significant replacement wall. The RGV 
wall that Congressman Vela alluded to, both a levee wall, which 
we are working on 25 miles of levee wall in Hidalgo County as 
well as 8 miles now in Starr County are important investments 
in our highest traffic sector that we are working hard to get 
built.
    Mr. Rogers. Well, it was obvious from your outline of your 
priorities that border security is a system. It is not any one 
thing. One of the things that you have listed--I think it was 
your No. 3 item--was technology. When it comes to procuring 
technology, can you describe for us your process for what you 
decide you need next and how you pursue that?
    Mr. McAleenan. Sure. Actually, we have had a lot of 
innovation in that side of our process lately by working with 
DHS science and technology to try to access more innovative 
technologies that are being developed by start-ups and provide 
a much faster cycle from identifying a capability that we could 
use in the hands of our agents and officers and then a 
contracting with a start-up to start piloting it and ultimately 
apply it.
    We are doing that in multiple areas. A situational 
awareness system for our Border Patrol agents where they can 
have right there on a smartphone the picture from all the 
sensors in their area. They can know where their fellow agents 
are. For our trade professionals that are working on 
identifying threats, intellectual property rights, or supply 
chain elements that are by forced labor.
    We have a contract on big data to help us analyze all the 
trade information flowing at us. For our canine teams that are 
working in 120 degree heat, say, in Calexico, California, we 
are looking at wearable technology to keep them safe and really 
trying to keep it that cutting-edge.
    So it is really two things. It is the long-term planning on 
things that our integrated fixed towers where we have an on-
going year-over-year contract with capable major systems 
integrators, but also trying to access that emerging technology 
and apply it more quickly and get it in the hands of our 
agents. They don't want to show up at work and put their 
smartphone on the dashboard. They want to be able to take that 
with them and apply its capabilities as they patrol.
    Mr. Rogers. Well, speaking of that, in March, the Acting 
Deputy Commissioner Vitiello told the subcommittee that fiber 
optic detection was something they wanted to incorporate. Is 
that something you still plan to do into your security systems?
    Mr. McAleenan. Absolutely. That is a core component of what 
we are calling a border wall system. I didn't answer that part 
of Congressman's Vela question fully. The difference in cost of 
what we are proposing now from what we built in 2006 or 2008 is 
that instead of just building a physical structure, we are 
integrating the entire system, the sensors, the lighting, the 
cameras and the access and control roads that we need to make 
it effective. So it is a total cost, and for the property 
acquisition, it is a total cost, not just one piece of it.
    Mr. Rogers. Well, I hope you have success, because I have 
been trying to do that for the 16 years I have been here. It 
has never been a challenge that was met. Last, I hope you have 
success on trying to deal with your retention problems. It is 
hard to keep those folks on that border when they can make so 
much more money in a big urban area.
    It is such a difficult environment to work in, but I hope 
you are successful. With that, I am sorry, my time is expired. 
I yield back.
    Ms. McSally. Gentleman yields back. The Chair now 
recognizes Mr. Correa from California for 5 minutes.
    Mr. Correa. Thank you, Madam Chairperson McSally and of 
course Chairman McCaul for your time and Ranking Member 
Thompson and Ranking Member Vela and of course Commissioner 
McAleenan for being here today.
    I come from the State of California. Today we are probably 
the fifth or sixth largest economy in the world, and we are 
probably looking at becoming the No. 4 economy in the world 
since we passed up Great Britain. Unemployment right now in my 
county is less than 3 percent.
    Big ag industry in my State, my farmers keep talking about 
the need for more workers. I think we can all agree that our 
immigration laws are broken in this country. Maybe not. But one 
thing we can all agree on is the issue of drug addiction, 
opioids, heroin, and the challenges it presents to our country. 
It is my understanding that addiction deaths up about 500 
percent in this country right now, all over the country so the 
issue of illegal drugs is a major one for all of us and I think 
all of us can agree on that.
    As we talk about those precious taxpayer dollars we have in 
this country, I wish we would have a matrix to measure what is 
effective and what is not in terms of, as we call it, 
addressing the border. Thirty years ago, the major port of 
entry for a lot of our drugs was Miami and as we tightened down 
on Miami the shift in drugs went from the seas to inland going 
through Mexico. Results were Mexico was effectively 
destabilized because of all the drugs running through Mexico, 
as well as the money, as well as the arms.
    As we began to squeeze in that area, we will probably find 
Canada to be a major port of entry. Just where you are sitting 
Commissioner a few months ago, we had the commandant of the 
Coast Guard speaking. His testimony 2016, 580 ships that he 
knew were caring drugs could not be stopped because they didn't 
have the assets in the Coast Guard to interject those ships as 
they were coming in from Latin America; 580 ships with drugs 
could not be stopped that we knew were heading to our shores.
    So as we are looking at the effectiveness of a wall, in 
your words, it is an effective, proven tool. How does that 
compare to, for example, additional border agents at our ports 
of entry? I have gone to San Ysidro, California, the biggest 
entry, the biggest port, the biggest crossed border port in the 
world, and I have talked to those agents. What they have told 
me is give us more dogs, give us more X-ray machines, give us 
more trained personnel we can do better job.
    As I talk to those agents, you can see them smiling from 
one end of their face to the other when I asked them about, 
tell me, how is it that you were able to spot that big shipment 
of drugs coming through? It wasn't about a wall. It was about 
trained agents being able to spot something irregular in that 
vehicle coming across the border.
    So as we look at the American taxpayer, looking at how much 
we need to spend and we need to spend more on interjecting 
drugs, where would you say our priority is in terms of 
investment, on a wall, X-ray machines, trained personnel, 
trained dogs? I know you are going to say all of it is good, 
but if you had a buck, what would you spend it on first?
    Mr. McAleenan. Thank you, Congressman, for that question. 
You predicted accurately that I was going to tell you it is a 
balanced package of all of that.
    Mr. Correa. Sir, I know it is balanced, but if I had to 
prioritize, where would you place your money first?
    Mr. McAleenan. Well, Congress is helping prioritize by 
investing in our personnel.
    Mr. Correa. Sir, how would you prioritize that investment?
    Mr. McAleenan. I would prioritize it in an even posture, 
because----
    Mr. Correa. So you say all of the above.
    Mr. McAleenan [continuing]. Because we can't put it all in 
one area and not the other.
    Mr. Correa. Dogs, trained agents, X-ray machines, a wall, 
they are all equally----
    Mr. McAleenan. Right.
    Mr. Correa [continuing]. Effective at the border in 
stopping drugs.
    Mr. McAleenan. The fiscal year 2018 budget, which we 
appreciate greatly, has a nice balanced investment in all of 
those things. It is--nonintrusive inspection----
    Mr. Correa. But, sir, in your opinion as a professional, 
where do you think those dollars are the most effectively 
invested? I know what those border agents told me in San 
Ysidro. In your opinion, where are they most effectively 
invested?
    Mr. McAleenan. So, at the ports of entry, there are two 
things. It is nonintrusive inspection technology, which 
includes the X-rays so we can get more vehicles through them. 
These are deep consealants that challenge our officers, more 
canines----
    Mr. Correa. I am running out of time, so let ask you----
    Mr. McAleenan. And more CBP officers.
    Mr. Correa. Compared to that border, it is not one, it is 
the whole border, where is that money most effectively invested 
to interdict drug shipments?
    Mr. McAleenan. For hard narcotics, it is nonintrusive 
inspection technology. That is the most important.
    Mr. Correa. Madam Chair, I am out of time.
    Ms. McSally. The gentleman yields back. The Chair now 
recognizes Ms. Demings from Florida for 5 minutes.
    Mrs. Demings. Thank you so much, Madam Chairwoman, and to 
the Ranking Member, as well. Commissioner, it is good to see 
you. Congratulations on your confirmation.
    Since 2009, the Orlando International Airport has seen its 
international passenger arrivals increase by 89 percent, yet 
the number of Custom and Border Patrol officers have stayed 
relatively flat.
    As a former law enforcement officer, I was assigned out at 
OIA for a good number of years and so I know the critical role 
that your agency serves. The airport authority has invested 
millions of dollars in automatic passport control kiosks and 
other technology. But in 2007, Customs and Border Patrol 
officers serving at Orlando International Airport were notified 
that some of the officers would be redeployed for about 90 days 
to the Southwest Border crossings.
    These temporary assignments would definitely--would 
continue indefinitely. At the time, CBP official also made 
statements--or officials also made statements that these 
assignments are beneficial to both the temporary duty locations 
as well as to their permanently assigned place because they had 
gained broader experience.
    Could you please tell me, how does CBP determine which 
ports of entry will temporarily deploy officers to the 
Southwest Border? More broadly, how are you prioritizing 
personnel and resources for the ports of entry? I understand 
the--I guess I would say marching orders to--to the border but 
we are also extremely concerned about our ports of entry, as 
well.
    Mr. McAleenan. Sure. Thank you for that question. First of 
all, we have tremendous relationship with Orlando International 
Airport. Recently we have been piloting facial recognition 
technology with Orlando, and they are so impressed by the 
effectiveness that they are looking at expanding that 
partnership with us.
    You are absolutely right. They have invested through a 
similar program to the donation acceptance program that we were 
talking about earlier by partnering with us to facilitate that 
travel, so that 89 percent growth in 2013 and 2014 were 
actually able to reduce wait times. We have been able to stay 
on top of that, through that partnership and through applying 
enhanced technology, increased global entry membership, and I 
think facial recognition is going to take us to the next level 
on facilitating those entries.
    I am also glad you asked about staffing at ports of entry 
more broadly----
    Mrs. Demings. Yes, how do you prioritize which ports you 
are going to take from----
    Mr. McAleenan. Sure.
    Mrs. Demings [continuing]. To deploy somewhere else? 
Because that certainly concerns me.
    Mr. McAleenan. Understood. Just I guess the first point is, 
our Southwest Border ports of entry, some of the biggest, San 
Ysidro is represented as Correa mentioned as well as Calexico, 
Nogales, Laredo. These are some of the toughest places we have 
in terms of staffing and the traffic at the land border is 
relentless, and that panoply of threats that we face at that 
border provides a tremendous experience for our officers.
    So we try to pull in a balanced way, from ports of entry 
when we do these temporary TDYs to augment our abilities at the 
Southern Border port of entry. So Orlando was probably asked 
for staff at the same time that ports along the Eastern 
Seaboard, in the Midwest, even the West Coast for seaports and 
airports were asked to support those TDYs. So that is a rolling 
basis. It is based on who is closest to their capacity for 
staffing, and who needs help the most. So, that will continue 
to be a future as we increase our hiring.
    That said, we have hired 850 officers in the last 3 years. 
We hired 200, a net 200 last year. We are expecting significant 
progress this year thanks to the funding for 328 additional 
officers. That continues to be a hiring priority for us.
    I think it is maybe misunderstood that we are not asking 
for officers. We actually are. We are sending a workload 
staffing model to Congress every year.
    Mrs. Demings. Let me ask you about that.
    Mr. McAleenan. Yes.
    Mrs. Demings. Particularly about attrition, you know, I 
agree that you having worked along with your officers and 
agents that they are fine men and women who do a great job. But 
what are you doing to deal with attrition? What steps are you 
taking to hold on to your current staff? I don't know what is 
going on with the attrition rate, because it is high. What are 
you doing to attract additional persons into the profession?
    Mr. McAleenan. So first and foremost, the hiring is going 
to be the best way to hold on to our current staff, as well, 
because it is going to balance that workload out. There was a 
reference to the overtime hours, to double shifts. We want to 
limit that as much as we can. So that is one key piece.
    Two, we are clarifying our career paths and offering 
mobility--predictable mobility for our officers and agents. One 
of the No. 1 reasons we see people leaving the CBP is that they 
feel like they can't move to other locations. Maybe they have 
taken a job on the border. They have been excited about the 
opportunity to serve, but then they would like to move back to 
a major metropolitan area, or go back home. They haven't had 
the mobility within our system to do that. We now have a web-
enabled predictable process were we are supporting moves, 
thanks to Congress.
    This year, we are going to have almost 1,200 moves for 
front-line personnel between our officers and agents through 
multiple opportunities. So we think that mobility is going to 
be key.
    Then we are investing in workforce resilience. We have 
created a National resiliency task force. We are trying to look 
at the whole person, and not just the individual, but their 
family. We are trying to address suicide prevention. We are 
trying to address issues with stress, and provide that support 
in that environment that shows our professionals that we care 
about them and we care about their career progression.
    Mrs. Demings. Thank you, Commissioner. I yield back.
    Ms. McSally. The gentlewoman yields back. The Chair now 
recognizes Ms. Barragan from California for 5 minutes.
    Ms. Barragan. Thank you, Madame Chairwoman, and our Ranking 
Member. Commissioner, thank you for being here today.
    I want to follow up a little on the questions of my 
colleague, Mr. Correa from California. I also have concerns 
about staffing levels at the ports of entry. I happen to 
represent the port of Los Angeles. It is a--as you know, a very 
busy port. We call it America's port.
    I want to start by thanking you and CBP for the terrific 
personnel that is down there and the partnership with the port 
of Los Angeles. So I think the use of the ACE program has been 
very helpful, the Automated Commercial and Environment program, 
to help efficiency and the supply chain there.
    But I remain concerned about the adequate staffing at major 
points of entry, especially in our seaports and our airports, 
where I happen to believe is the larger target of a terror 
threat.
    I know you alluded to this a little bit, but how do you 
decide, when you are balancing CBP officers, between something 
like the seaports, the airport, and then the border wall, the 
Southwest Border?
    Mr. McAleenan. Sure. So I mentioned the workload staffing 
model. This is where we submit to Congress, every year, based 
on a number of workload factors and threat vectors, how many 
personnel we need in each area of our operations. It is 
actually granular down to the specific port of entry.
    So we have requested another 2,500 officers Nation-wide on 
a prioritized basis. We have provided recommended fee proposal 
for Congress to consider that would allow us to hire that 
staffing, and the Port of Los Angeles is included.
    We do appreciate--by the way, I had the leadership of the 
Port of Los Angeles visit, I think, about a month ago. 
Tremendous partnership there, and that communication and dialog 
is, I think, critical.
    The other way we try to balance that staffing is 
recognizing the impact of our innovation. You mentioned the 
Automated Commercial Environment single window, which is 
providing significant capability, but we have also done several 
things to help make us more efficient.
    Our Radiation Portal Monitors, which we have at every exit 
to the terminal at the Port of Los Angeles--those are now more 
finely tuned so that they detect threats, but they don't 
trigger on so many naturally occurring materials that are 
backing up trucks.
    Ms. Barragan. Right. You mentioned the 2,500 additional 
officers. Is that from--I think I saw a most recent CBP Office 
of Field Workload Staffing Model--is that where that comes 
from?
    Mr. McAleenan. Correct.
    Ms. Barragan. I have been reading and looking, and I have 
seen the administration put request in for more border agents, 
but I haven't seen a request--rather, I haven't seen a request 
from the administration for any of those 2,500 additional CBP 
officers that you identify are needed.
    Have you heard back on whether that is going to be coming 
down the pipeline anytime soon on this administration making 
that a priority?
    Mr. McAleenan. It was actually in the President's 2018 
budget as a fee request, and we sent that legislative proposal 
forward the last 4 consecutive years to Congress. So there was 
a formal request for officers against that requirement.
    Ms. Barragan. OK. It is also my understanding that there is 
a shortage of front-line CBP officers at the L.A. Long Beach 
port complex, and that is also concerning to me. Is CBP 
forecasting increased staffing at the seaports down in Los 
Angeles and Long Beach?
    Mr. McAleenan. So it is an important point. We have to not 
only work on the land border ports of entry, which have that 
present crush of traffic every day, but we have to support our 
seaports, as well.
    So, in that 2,500 that we have requested, a significant 
number would go to seaports, including the Port of Los Angeles 
Long Beach.
    Ms. Barragan. So do you have a forecast at all on 
increasing staffing down at those two ports? Do you have any 
idea--like, are we talking about 6 months, a year? Do you have 
any idea?
    Mr. McAleenan. Well, it is dependent on increased funding 
for us to hire new staff. If the workload balance changes in a 
way that L.A.-Long Beach seaport needs staff more than another 
port of entry, then we rebalance within that year and are able 
to reassign through that mobility program that I referenced.
    Ms. Barragan. Got it. Thank you.
    I have heard from the Pacific Merchant Shipping 
Association--the PMSA--about a new policy to charge terminals 
for scanning operations outside of normal hours, which go from 
8 o'clock a.m. to 3 o'clock--outside the hours of 8 o'clock 
a.m. to 3 o'clock a.m.
    Many of the terminals work outside of those hours, either 
to build trains or have trucks lined up by 7 o'clock a.m. so 
they are ready to leave once 8 o'clock a.m. hits. Now, they 
have to pay by the hour for those operations which is--and 
these costs, as I am hearing, are becoming unpredictable at 
times. Are you committed, at all, to working with the PMSA--
will you commit to working with them to see what can be done to 
reduce some of the impact and the cost?
    Mr. McAleenan. I would be happy to work on that issue with 
the PMSA.
    Ms. Barragan. Great, thank you. I yield back.
    Ms. McSally. The gentlelady yields back. We are going to do 
another round here. So, fully support the deployment of the 
National Guard to the border. We have--representing a border 
community myself, it is just taking too long to get the 
political will for Washington, DC, to be able to meet the 
President's intent to secure our border.
    So I fully support it. Can you talk about the status of the 
deployment, what the National Guard troops are doing and should 
we see additional National Guardsmen and women deployed, as 
well, for the mission?
    Mr. McAleenan. CBP--we very much the opportunity to work 
with the Guard again. As you noted, we did it in 2006. We did 
it in 2010 and had on-going air surveillance support through 
2016. So to have them back in significant numbers is going to 
be a huge augmentation to our capabilities.
    We have got 600 already on the ground with us, doing 
missions like surveillance, operational support, everything 
from helping us on the radio side, to intelligence analysts, to 
the motor pool and then infrastructure. We have got to maintain 
all of these roads, these access roads to the border. They have 
capable units that are dedicated to these areas.
    So they are going to extend our capability in a number of 
different areas. To your point, Chairwoman, to enhance our 
ability to secure that border as we continue to invest in the 
resources necessary and the personnel to do so.
    Ms. McSally. Great. So, how many are deployed right now?
    Mr. McAleenan. Six hundred and seven as of this morning.
    Ms. McSally. Is there any plan to deploy more?
    Mr. McAleenan. There is, of course. We have a set of 
missions that we have sent through the National Guard Bureau at 
main Department of Defense, chopped out to the States. The 
adjutants general are then the responding entities under the 
command of the Governors, under Title 32, including Governor 
Ducey who has been very supportive.
    Then we are going to be applying those assets through our 
sector command leadership to the specific mission we need. We 
are also hoping to have support for our cargo and our 
counternarcotics missions at ports of entry and for aviation 
surveillance, as well, in the coming weeks.
    Ms. McSally. Great, thanks. So this frees up the Border 
Patrol agents to be able to be patrolling the border and 
intercepting the illegal activity while you the Guardsmen 
doing, many times within their core competencies in the 
military, right, to provide some of those support functions, 
but also concerned about the Border Patrol agents that we have 
really being focused on the border.
    There were some media reports on one station in particular, 
I think had 700 agents assigned, and on any--or on one 
snapshot, had only about 12 percent available out patrolling 
the border. I always use my military analogies, right?
    I commanded a fighter squadron, we had a small number of 
fighter pilots and then we had other people that were trained 
in all the other support functions, but if you want us to be 
doing all the support functions, we probably won't do a good 
job, No. 1. But we are the ones trained to be the fighter 
pilots.
    So, when you have got Border Patrol agents, highly-trained 
law enforcement officers that are doing things like fleet 
management and other admin--really other people should be 
trained to do in other positions. How do we--you know, what is 
the issue there? Because 12 percent is not adequate. We need to 
make sure that these highly-trained agents are out there 
patrolling the border.
    What else can we do to partner with you to free them up to 
do that job, while having less trained people or more specified 
trained people, doing these other support functions, what we 
call in the military, sometimes, some of the admin things and 
the paperwork--I won't tell you what we call it, but anyways--
we are on the record here. But, you know, it is really an 
important part of the mission, but you don't want the agents 
doing all of that because it takes them away from the main 
mission.
    Mr. McAleenan. I could not agree more with you, Chairwoman, 
that we want our highly-trained professionals out on the 
border, doing their core law enforcement work and patrolling. 
One of the areas that you highlighted, not just the mission 
support side, but also processing. This goes back to the 
loopholes.
    Ms. McSally. Right.
    Mr. McAleenan. The time it takes to properly process and 
care for family units and kids is much more extensive than 
other groups. The station that you cited is in Rio Grande 
Valley sector where we see the most crossings of this type.
    During that time we had about 60 percent of our agents 
doing patrol work, sector-wide. So we understand the scrutiny. 
We want to make sure those agents are out on the line; that is 
where we need them. But that processing issue, supporting them 
by--with remote processing, closing the loopholes, and then, 
looking at, maybe, a more balanced workforce investment.
    I know it is very important to invest in our very highly-
trained law enforcement professionals, but we need to support 
them with a variety of occupations, that might be able to hire 
to more quickly, to really free them up to do their work.
    As you noted, we are going to realize a number of agents 
back to the border from having the National Guard support us in 
operational and mission support functions. But I think we can 
do the same on a sustained basis, with a more balanced staffing 
profile.
    Ms. McSally. Because you don't need to be an agent to do 
the processing, right? That could be a GS-7 who is doing that, 
who is trained specifically for that? Or do you have to be an 
agent?
    Mr. McAleenan. That is an immigration officer function.
    Ms. McSally. OK .
    Mr. McAleenan. So--but we are doing things like remote 
processing for stations that are not as busy in other sectors. 
They are doing the interviews and processing via VTC, via 
Skype, if you will. That has been helpful because we are trying 
to alleviate those high-traffic sectors so they can get out on 
the border doing their mission.
    Ms. McSally. OK , thanks. I am out of time, so, gentleman 
from Texas, Mr. Vela.
    Mr. Vela. Are we using Department of Defense dollars or 
Department of Homeland Security dollars to pay for the National 
Guard deployment?
    Mr. McAleenan. The National Guard deployment is funded by 
the Department of Defense.
    Mr. Vela. With respect to the issue of hiring, I mentioned 
this to Chief Vitiello, I think. You know, we passed that 
polygraph bill out of the House. But even then, even if we were 
able to get that through the Senate and signed by the 
President, you know, given the shortfall--and I appreciate the 
numbers you were throwing out, with respect to 800 hires over 3 
years and--but even then, that is still really well short of 
the goals.
    I am not really suggesting it is anybody's fault, but it 
just seems to me that we need to take a really new look at the 
way we are addressing that, right? What I have--and ever since 
I brought this up with Chief Vitiello, back home, I talked to 
one of our sheriffs just last week.
    It seems to me that one of the things we might want to 
really take a look at is, you know, focusing on hiring people 
that are closer to the location of wherever they are going to 
be sent.
    Because what I am hearing from law enforcement personnel on 
the ground, not necessarily who are in Border Patrol, but who 
handle--you know, who supervise municipal police and sheriff's 
deputies is that--one of the things is, you know, if you live 
in the city of--if you live in the Rio Grande Valley, which is 
Brownsville and McAllen, and you are not sure that you are 
going to be able to be stationed within a 30- or 45-mile radius 
of where you live, you know, even being stationed at the 
checkpoint in Kingsville, for example, which doesn't look like 
that far, but if that means you are going to commute and hour-
and-a-half back and forth each day or move your family to 
Kingsville.
    That appears to be one of the major challenges, I think, we 
are confronting, at least from what I am hearing on ground.
    Mr. McAleenan. So, that is an important policy that we have 
for our Border Patrol agents, for their initial duty station, 
to not be right there at home. We want to make sure that that 
is an integrity and anti-corruption measure, to ensure that 
they are not in a cycle with neighbors who might be involved in 
cross-border criminal activity and be susceptible to that.
    So we want to start them off in the agency in a location 
that is a little bit further away. But there is a mobility 
factor later in the career, and that is something that we are 
trying to emphasize.
    But to your point, taking a fresh look at every aspect of 
our hiring cycle is my top mission support priority. It was my 
first statement in what my vision is for CBP. Even though we 
have made 40 separate process improvements, we have reduced the 
time to hire, we have partnered with DOD on veteran hiring, all 
of that is helping, but it is not enough.
    We need to do more. That includes accessing the expertise 
of the private sector, doing digital recruiting and marketing 
in a more precise and targeted way, increasing our capacity at 
different choke points in the hiring cycle, and then to your 
point, effective administration of the polygraph, and ideally a 
limited waiver for those that we can trust based on their 
military and law enforcement service in other capacities.
    Mr. Vela. Yes, I don't know. I think it sounds to me like 
we probably ought to take a fresh look at that original policy 
you mentioned, because it seems--it just seems from what I am 
hearing is, is that every time I ask people that are on the 
ground that appears to be the major challenge.
    I think we ought to have a little bit more faith, you know, 
in the system that we set up and in the agents that we hire. 
Because I think if we are able to--I think our best chance at 
being able to fulfill that shortage is going to be to address 
the location issues. So you know, maybe that is something that 
we can work on further.
    I also--and we can talk about this when we are done, but I 
submitted a letter, I think, requesting details on plans and, 
you know, for what, when, and where with respect to the border 
wall. I don't know if you have had a chance to respond to that 
in writing, or when we might be able to get that.
    Mr. McAleenan. I have a signed copy to deliver to you in 
our meeting.
    Mr. Vela. Thank you very much.
    Mr. McAleenan. OK .
    Ms. McSally. The Chair will now recognize Mr. Correa from 
California for 5 minutes.
    Mr. Correa. Thank you, Madam Chair.
    Commissioner, just there was a lot of discussion in this 
committee and other places that the polygraph test was being a 
major issue, in terms of your hiring goals. What is the latest 
on that issue?
    Mr. McAleenan. So we have been working to streamline our 
administration of the polygraph and also to ensure that we have 
the right polygraph protocol for a pre-employment test at an 
agency of our size and scope.
    So over the last 10 months, we have been piloting an 
alternative, Federally-certified protocol for our pre-
employment polygraph. It is showing very good results.
    It has reduced the time of the exam. It has maintained the 
disqualification numbers that we had before. So we are still 
identifying those people that haven't disclosed something in 
their background that would be disqualifying, because we have 
very stringent background standards.
    But we are not seeing a physiological response in as many 
cases that creates an inconclusive. So our pass rates have 
increased using this protocol.
    We are in the process of completing our pilot analysis and 
certifying it and looking at it as something we are going to 
use going forward. So we have really tried to improve our 
polygraph administration on multiple levels.
    Mr. Correa. Thank you. Shifting gears a little bit, talking 
about National defense, terrorism. Folks that have been where 
you are at right now have stated that if any terrorists or 
drugs reach our borders, we have essentially lost the war. So 
what we have got to do is really interdict the terrorist bad 
folks as far as can from our border, as well as drugs.
    Any thoughts, any comments on the progress or what we need 
to do to help you with your cooperation with other countries, 
other agencies, other attorney generals around the world that 
may help us identify those bad folks before they get here?
    Mr. McAleenan. Thank you for that comment, Congressman. I 
could not agree more with you that addressing the threats as 
early as possible in a travel cycle toward the United States is 
the best way to secure our border.
    We are doing that through our National Targeting Center. 
Last year, over 2,800 individuals who turned out to be known or 
suspected terrorists were prevented from even getting 
permission to travel to the United States through a visa--
through an electronic system for travel authorization. Another 
900 in the air environment were denied boarding before they 
could fly to the United States.
    Working with our allies around the world through 
PreClearance programs so that we can clear travelers heading to 
the United States before they even board a flight is another 
method that is critical, and really just building the capacity 
of our international partners.
    We have had two U.N. Security Council resolutions that 
highlight the importance of collecting data, from analyzing it, 
from sharing watch list information, and from partnering across 
borders so that we can protect this global travel cycle, has 
been a very positive development.
    CBP has been spearheading efforts to help allies around the 
world, in the Western Hemisphere, in Europe, in Asia to develop 
and utilize this capability, because we think it is critical to 
our security going forward.
    So Congress's support to those programs which were 
authorized in our--in the Trade Facilitation and Trade 
Enforcement Act of 2015 has been very helpful. We intend to 
continue those advances.
    Mr. Correa. Anything else we can do to help you build those 
relationships overseas?
    Mr. McAleenan. On the relationships overseas, I think the--
we need to tackle this challenge on being able to protect 
privacy between--and the sharing of data between countries, 
while still addressing the threats.
    We think with advanced technology, the ability to check 
data in an anonymized way, and only see and share the hits, 
that we have a process to do that. So being able to invest and 
demonstrate that technology capability will enhance our 
sharing.
    Mr. Correa. So you do have some protocol for sharing 
certain information with foreign governments that may be of 
interest--mutual interest to all involved, so to speak, for 
National securities purposes?
    Mr. McAleenan. We absolutely do, both at CBP and with our 
partners in the Federal law enforcement and intelligence 
communities.
    Mr. Correa. Would those consider Mexico, Colombia, and some 
of those other Latin American countries?
    Mr. McAleenan. Absolutely. Our partnership with Mexico is 
about as active as any global partnership in the world, 
including sharing information on trade violations, on potential 
security threats, on immigration issues.
    I just signed three agreements in Mexico City last month on 
trade enforcement collaboration and information sharing. It is 
a critical partnership.
    Mr. Correa. I would like to get more information on those 
agreements. Thank you very much, sir, for again, to your 
service, and to your personnel for the good job they do.
    Mr. McAleenan. Thank you.
    Mr. Correa. Madam Chair, I yield.
    Ms. McSally. Gentleman yields back. I have a few more 
questions.
    Mr. McAleenan. Right.
    Ms. McSally. The first is on land ports of entry. These are 
so critical for both economic opportunity and increasing cross-
border commerce, which is going to provide economic development 
and jobs in America, but also for security.
    The potential for additional hard drugs--we have seen the 
vast majority of drugs are coming through the ports of entry, 
as you mentioned, plus other contraband and things that could 
make it through the ports of entry.
    So this is the--these ports of entries, they are a part of 
border security, but they are also a part of economic 
development and opportunity. They are--many of them are 
woefully inadequate, like the Douglas Port of Entry in my 
district.
    Built in 1933, this needs to be replaced. We have been 
advocating for it since I have been here. Glad to see that it 
is--there is a feasibility study going on now. There is an 
opportunity for it to be funded in the future.
    Have you been to the Douglas Port of Entry? Can you talk 
about the importance to upgrade ports of entry like this, both 
for economic opportunity and for security and counterterrorism 
mission?
    Mr. McAleenan. Absolutely. I have been to the Douglas point 
of entry multiple times, a challenging facility to say the 
least especially given the growth in traffic since the 1930's.
    Ms. McSally. Yes.
    Mr. McAleenan. The change in our mission, the change in our 
agency composition, it wasn't designed for where we are today. 
So the imperative to invest both in the physical infrastructure 
to accommodate the flow but also the security technology, the 
offices, the detention areas, all of that is critical so we can 
facilitate that cross-border trade and travel.
    So we have initiated a feasibility study on the Port of 
Douglas. That is going to tell us both the planning factors for 
additional cargo flow, as well as the regular travel. We are 
going to need to then put a budget wedge against that study to 
see if we can modernize the port itself and we have in our 
planning but also in what is the right structure for the future 
of the port.
    That is an area that we need to invest in across the board 
on the border as well as in partnership with Mexico and Canada, 
because if we don't align our investments and our priorities we 
can create real challenges.
    Ms. McSally. I agree. Can you tell me where the Douglas 
Port fits in your priorities right now on the list?
    Mr. McAleenan. The modernization of the Douglas Port of 
entry is a top 10 priority that we have budgeted in the out 
years.
    Ms. McSally. OK. Top ten, but I mean we--just usually only 
get 0 to 2 it seems over the last few years. So it was in the 
5-year plan. Top 10 doesn't sound as high as I would like it to 
be.
    Mr. McAleenan. I believe it is a 2019 or 2020. I will get 
back to you, Chairwoman, on exactly where----
    Ms. McSally. OK. In fiscal year 2019 or fiscal year 2020, 
you mean----
    Mr. McAleenan. Yes.
    Ms. McSally [continuing]. As working through--OK, great, 
thank you. The other element that has been talked about already 
is the opioid crisis, fentanyl specifically, coming through the 
ports of entry. Do you have the adequate technology to detect 
it--it can be deadly to our agents, as well--and the training 
that they need in order to identify and be able to respond 
quickly should they be exposed to it?
    Mr. McAleenan. So middle of last year, I commissioned a 
counter-opioid strategy at CBP. It is attacking everything from 
the advanced data for instance in the international mail 
environment to the technology we need to detect small vials of 
fentanyl, which is extraordinarily potent, as you referenced.
    The ability to test it, not only for the safety of our 
officers and ICE specialists and canines, but also give us the 
quick reaction so that we can do with an investigator partner a 
controlled delivery and address the network that is bringing 
that into the country, and not just make that individual 
seizure.
    So we have benefited from support from Congress to invest 
in testing technology both in 2017 and now in 2018. We are 
getting that out to all of the key ports of entry that need it, 
and we are also buying naloxone, so that if there is an 
accidental exposure that creates a health hazard for our 
personnel, that they have naloxone on-site to address that 
quickly, and it works also for our canines, as well.
    Ms. McSally. You said you are buying naloxone. Is it not 
available right now at all ports of entry?
    Mr. McAleenan. It is available at all ports of entry, but 
we want to deploy more, so it is more readily accessible----
    Ms. McSally. OK.
    Mr. McAleenan. Because of how quickly and how potent this 
drug acts.
    Ms. McSally. Great. Thank you. All right.
    Mr. Correa, do you have any more questions?
    OK, I want to thank our witness for your valuable testimony 
and Members for the questions.
    The Members of the committee may have some additional 
questions for the witness. I ask you respond to those in 
writing. Pursuant to committee Rule VII(D), the hearing record 
will be held open for 10 days. Without objection, the committee 
stands adjourned.
    [Whereupon, at 3:31 p.m., the subcommittee was adjourned.]



                            A P P E N D I X

                              ----------                              

    Questions From Chairwoman Martha McSally for Kevin K. McAleenan
    Question 1a. Commissioner McAleenan, we have heard that U.S. 
Customs and Border Protection is interested in joining the intelligence 
community. This subcommittee firmly believes that Congress needs to be 
consulted before any steps are taken.
    From CBP's standpoint, where is the breakdown between CBP and the 
IC happening that would warrant CBP gaining membership to the IC? Can 
you provide specific examples?
    Answer. CBP continues to work with its partners, including the IC, 
to facilitate the sharing of data and information, as appropriate. 
Later this month, senior CBP and DHS leadership will meet with the 
principal deputy director of National Intelligence (PDDNI) to discuss 
potential options to further strengthen the sharing of data and 
information, especially in exigent and rapidly-evolving situations.
    Question 1b. Are there specific reforms that can be made within the 
intelligence community or the DHS Office of Intelligence and Analysis 
that could fix some of these problems without restructuring the IC?
    Answer. We are working very closely with the Office of Intelligence 
and Analysis (I&A) to increase CBP's ability to deliver on the 
President's objectives on border security, trade enforcement, and 
countering transnational organized crime. I&A leadership has 
implemented important changes to manage and integrate intelligence 
across the DHS intelligence enterprise, and CBP and I&A continue to 
work together to facilitate the sharing of data and information, as 
appropriate.
    Question 2. Commissioner McAleenan, the fiscal year 2018 enacted 
budget includes $196 million for border security technology acquisition 
and deployment. Can you provide us with a breakdown of each technology 
line item that this $196 million will fund?
    Answer. The $196 million in the fiscal year 2018 enacted budget 
refers to the additional funds provided for border security technology 
acquisition and deployment. The table below identifies the allocation 
of those funds by line item. The paragraphs below the table describe 
the use of all funds enacted in fiscal year 2018 for border security 
technology acquisition and deployment.

------------------------------------------------------------------------
                                           Fiscal     Fiscal     Fiscal
      Technology ($ in Thousands)        Year 2018  Year 2018  Year 2018
                                          Request    Plus Up    Enacted
------------------------------------------------------------------------
Integrated Fixed Towers................    $27,238    $12,000    $39,238
Remote Video Surveillance System (RVSS)     46,193     41,000     87,193
Northern Border (NB) RVSS..............          0      7,000      7,000
Mobile Video Surveillance System (MVSS)      4,838     42,000     46,838
Innovative Towers......................          0     10,000     10,000
Cross Border Tunnel Threat (CBTT)......     11,955     30,000     41,955
Agent Portable Surveillance System               0     16,000     16,000
 (APSS)................................
Linear Ground Detection System (LGDS)..          0     16,000     16,000
Small Unmanned Aircraft System (sUAS)..          0     10,000     10,000
Maritime Detection Project (MDP).......          0      9,000      9,000
Android Team Awareness Kit (ATAK)......          0      3,000      3,000
                                        --------------------------------
      Total Technology.................     90,224    204,000    294,224
------------------------------------------------------------------------

    IFT: Fiscal year PC&I enacted of $39.2 million funds partial 
deployment of the IFT system in Tohono O'odham Nation, including 7 
surveillance towers in Casa Grande and one in Ajo-2, the associated 
Command and Control Center in the Tohono O'odham Nation in Tucson 
Sector, and Program Planning and Control (PP&C) requirements, completes 
two towers of the final IFT system in the Tohono O'odham Nation, and 
funds some of the IFT Deferred ORD/Sensor Fusion/TSM Integration 
requirements.
    RVSS: Fiscal year PC&I enacted funds the design and construction of 
43 RVSS Upgrade Sensor & Relay towers for Brownsville, Falfurrias, Ft. 
Brown, Harlingen, Kingsville and Weslaco USBP Station Areas of 
Responsibility (AORs) and the design, construction, and deployment of 
approximately 30 Relocatable towers, surveillance/communication 
technology, and 3 Modular Command and Control (C2) centers in Rio 
Grande Valley Sector.
    NBRVSS: Fiscal year PC&I enacted of $7.0 million funds 
approximately 4 NB RVSS towers in Swanton Sector.
    MVSS: Fiscal year PC&I enacted of $46.8 million funds Program 
Planning and Control (PP&C) to develop documentation for a follow-on 
MVSS contract and completes the procurement and deployment of 
approximately 49 MVSS systems to El Paso Sector and planning for 
additional units in other sectors.
    Innovative Towers: Fiscal year enacted of $10 million funds 
acquisition of additional towers if they pass T&E, additional test and 
evaluation, and transition planning.
    CBTT: Fiscal year PC&I enacted of $42.0 million funds CBTT system 
procurement, including test and evaluation, IT security, and 
engineering change proposals, alternative analyses, technology 
demonstrations, test bed, and approximately 10.7 miles of persistent 
tunnel detection technology.
    APSS: Fiscal year PC&I enacted of $16.0 million funds approximately 
39 systems that will be deployed on the Northern and Southern Border 
based on USBP priorities.
    LGDS: Fiscal year PC&I enacted of $16.0 million funds approximately 
60 miles of LGDS technology deployed in conjunction with the Wall 
System in RGV.
    sUAS: Fiscal year PC&I enacted of $10.0 million funds approximately 
9 SUAS suites in RGV sector and 2 SUAS suites in Big Bend sector. 1 
sUAS Suite consists of 1 fixed wing sUAS, 1 Vertical takeoff and 
landing sUAS and 1 Hybrid sUAS.
    MDP: Fiscal year PC&I enacted of $9.0 million funds approximately 5 
MDP towers in Buffalo Sector.
    ATAK: Fiscal year PC&I enacted of $3.0 million funds planning, 
servers, phone acquisition, user training, and dedicated TAK 
development team.
    Question 3a. Commissioner McAleenan, Chief Scott Luck testified 
before this subcommittee last July about border security technology. He 
noted that the Border Patrol was testing small unmanned aerial systems 
in Arizona, Texas, and Vermont to help fill domain awareness gaps.
    Can you update us on that status and results of that testing?
    Answer. USBP conducted field demonstrations of small unmanned 
aircraft systems (SUAS) September 2017 to March 2018. These 
demonstrations helped familiarize USBP with SUAS in their operational 
environment, demonstrate the effectiveness and suitability of SUAS, and 
help refine operational and acquisition documentation supporting a 
Program of Record. SUAS deployments will supplement current fixed-wing 
technology and manned aircraft thereby reducing surveillance and 
situational awareness gaps. Further, ease of mobility and portability 
enable SUAS to be moved to high-risk areas, allowing agents to adapt to 
changing threats.
    Question 3b. CBP has requested $300 million for small UAS, what 
exactly will that money go toward?
    Answer. The SUAS funding will be used to procure and maintain SUAS, 
and train BP agents. Doing so will meet the USBP's Full Operational 
Capability (FOC) requirement for SUAS based on a documented 245k fiscal 
year flight-hour capability gap.
    Question 3c. Is there a specific time line or plan for a small UAS 
strategy in the works?
    Answer. Yes, the plan for SUAS is to award a contract(s) in fiscal 
year 2019. The procurement of commercially available, high technology-
readiness systems will help to accelerate the procurement and deliver 
capability to the field in an expedited manner.
    Question 4a. Commissioner McAleenan, we have non-intrusive 
inspection equipment and other innovative force multiplying 
technologies deployed at our ports of entry, however, drugs are still 
pouring in through these ports.
    Do we have the technology but not the volume needed or are there 
technical capabilities we are missing?
    Answer. As threats and hazards evolve and trade volume increases, 
smugglers will continue to seek ways to exploit the border environment. 
To address this area with NII, CBP is actively working to integrate our 
NII technology across operations, with an objective of reducing 
processing time to examine a greater portion of conveyances, or 
redirect officers to other high-priority operations. The key 
limitations to achieve this objective include stand-alone NII 
technology and the lack of pre-primary/primary NII imaging capability/
capacity.
    Currently, NII systems are stand-alone systems, in that they do not 
integrate with other hardware systems or transmit data across the CBP 
Network. The lack of interoperability results in increased processing 
time as officers and agents must complete manual, and often redundant, 
data entry/data transfer activities. Additionally, NII scanning is 
largely a secondary inspection process largely due to the size of the 
technology and footprint of the port.
    To address these areas, CBP is assessing technologies and 
operational concepts that place NII in pre-primary or primary 
inspection operations. Within this concept, CBP is assessing the 
ability to transmit NII data to CBP IT systems and local command center 
operations, and to perform remote health monitoring to support system 
maintenance. Collectively, this would allow CBP to increase the volume 
of conveyances examined without negative impact to facilitating lawful 
trade and travel.
    Question 4b. Why don't we have multi-lane scanning capabilities at 
our land ports of entry?
    Answer. CBP is actively exploring concepts that include placing 
drive-through NII systems, inclusive of multi-lane scanning systems, in 
pre-primary or primary operations. This would allow CBP to process both 
commercial trucks and passenger vehicles.
    CBP, together with DHS Science and Technology (S&T) and technology 
vendors, are planning to initiate operational assessments of drive-
through passenger and cargo vehicle X-ray imaging systems along the 
Southwest Border. The assessments will be used to determine the 
feasibility of conducting pre-primary and primary NII scanning using 
commercially available drive-through X-ray imaging technologies in a 
new concept of operations. As commercial trucks and passenger vehicles 
arrive at the port of entry, they will drive through the NII system; a 
license plate reader will package the plate with the scan and send the 
package into a command center, secondary, and/or to the primary 
officer. As part of the assessment, CBP will evaluate how and where the 
image is transmitted for officer review. The assessment will consider 
the dynamic operational tempos and resources across ports, so CBP can 
employ a flexible and adaptable concept to support the varying 
environments. For example, one port may transmit to a Command Center 
and another port may transmit to primary or secondary operations.
    Question 5a. Commissioner McAleenan, this subcommittee believes 
that the border security technology acquisition process needs serious 
improvement.
    Does CBP utilize the DHS Silicon Valley Innovation Program, which 
reaches out to innovation communities across the Nation and around the 
world to harness the commercial R&D ecosystem for technologies with 
Government applications?
    Answer. CBP has utilized the DHS Silicon Valley Innovation Program 
(SVIP) since its inception as a way to identify commercially available, 
innovative technology which can be rapidly developed, piloted, and 
brought into CBP operations. These technologies can directly support 
CBP by allowing front-line agents and officers to carry out our mission 
more safely and effectively. We now have a portfolio of 13 commercial 
start-ups piloting innovative technologies such as near-autonomous 
small UAS, low-cost/high-performing sensors, travel technologies, and 
machine learning capabilities. CBP views SVIP as a strategic partner 
and a key mechanism for bringing innovative technology into the CBP 
ecosystem.
    Question 5b. What efforts are being made by CBP to work with the 
private sector on technology innovation?
    Answer. CBP has established the Commercial Technology Innovation 
Program (CTIP) in order to identify, pilot, and deliver cutting-edge 
commercial technology that makes our front-line personnel safer and 
more effective. Through strategic partnerships such as the DHS Silicon 
Valley Innovation Program, In-Q-Tel, and others, CBP is pursuing 
innovation in three key capability areas: (1) Autonomous capabilities, 
(2) advanced analytics and artificial intelligence, and (3) 
communications, sensors, and data. As an example, CBP is piloting 4 
fully autonomous, low-cost surveillance towers in the San Diego Border 
Patrol Sector. The towers require no external power source and have the 
ability to autonomously detect, identify, classify, and track targets 
through a novel combination of radar and machine vision. Due to their 
autonomy, the towers have enhanced situational awareness without 
requiring additional personnel to operate them.
    Question 5c. Is there a mechanism in place for the private sector 
to initiate a proposal for scaling current border security technology 
or to submit ideas for improving port of entry functions, or are all 
CBP technology considerations Department initiated?
    Answer. Response was not received at the time of publication.
    Question 6. Commissioner McAleenan, the Interdict Act was signed 
into law in January of this year, authorizing and providing CBP the 
appropriation of $9 million for new opioid and other illicit substance 
screening devices, laboratory equipment, facilities, and personnel for 
support during all operational hours to expedite the testing of 
suspected opioids seized at our borders and ports of entry. Has CBP 
begun the procurement and hiring process for any of these 
appropriations?
    Answer. CBP thanks Congress for its support contained in the 
INTERDICT Act authorizing language. The language will improve our 
ability to interdict fentanyl, synthetic opioids, and other narcotics 
and psychoactive substances illegally imported into the United States. 
CBP assumes the enactment of this Bill drove some of the decisions in 
the Appropriations Committees to appropriate the one-time $30.5 million 
for Opioid Detection and Labs and the additional Non-Intrusive 
Inspection acquisition funding. CBP's Office of Field Operations (OFO) 
and Laboratories and Scientific Services (LSS) have partnered in 
anticipation of receipt of funds by building a spend plan. The funding 
was allocated to OFO and LSS during the week of May 14, 2018, and 
acquisitions are under way. There is no hiring process possible with 
these appropriations as the funding appropriated was non-pay and only 
available for 1 year.
    Question 7. Commissioner McAleenan, there are independent companies 
in existence that can test, verify, and evaluate solutions to ensure 
that all border security technology products and services are 
performing to their defined capabilities. Is CBP looking at utilizing 
independent verification and validation in its technology acquisition 
programs? Why or why not?
    Answer. Yes, CBP is utilizing independent verification and 
validation (IV&V) in its technology acquisition programs in accordance 
with DHS IV&V Annex to the DHS Systems Engineering Life Cycle (SELC) 
Guidebook.
    Question 8a. During our hearing on April 25, 2018, Commissioner 
McAleenan indicated that fiber optic detection would be integrated into 
a ``Border Wall System.''
    What are CBP's near-term plans to test and evaluate potential fiber 
optic intrusion detection solutions? Please provide the committee with 
a time line for LGDS testing and evaluation.
    Answer. CBP anticipates testing and evaluating potential fiber 
optic intrusion detection solutions as part of source selection, and 
after contract award in fiscal year 2019.
    Question 8b. Has CBP established testing criteria, evaluation 
considerations, and key performance parameters? If so, can this 
information be shared with the committee?
    Answer. As part of the normal acquisition and procurement process, 
CBP is developing test criteria, evaluation considerations, and key 
performance parameters. The information will be documented in the 
solicitation which will be released by Q1 fiscal year 2019.
    Question 8c. Will the fiber optic detection be deployed along the 
Northern Border or just the Southwest Border?
    Answer. Yes, the fiber optic detection system will be deployed 
along the Northern Border and Southwest Border.
    Question 9a. Commissioner McAleenan, in the past, CBP has outlined 
the need for hiring an additional 5,000 Border Patrol agents, 540 AMO 
agents and over 2,500 CBP officers in order to secure the borders. In 
order to meet these new mandates, CBP is faced with the necessary task 
of bringing on more than 750 additional mission support personnel. It 
is my understanding that you have signed a contract with Accenture to 
help the agency fill these positions.
    Can you give us a ballpark estimate on how long it will take to 
meet these ambitious staffing goals?
    Answer. The Accenture contract allows CBP to front-line (BPAs, 
CBPOs, and AMO agents) surge hiring requirements over the next 5 years, 
while also allowing CBP to benefit from any innovation and efficiencies 
Accenture brings to the recruiting and hiring process. The contractor 
will help CBP hire 5,000 BPAs, 2000 CBPOs, and 500 AMO agents only. CBP 
HRM resources will maintain focus on addressing front-line attrition 
and non-front-line hiring needs to support the agency mission.
    While this contract is specific to CBP's 5-year hiring goals, CBP 
strives to constantly evolve to support its operational needs, 
understanding that what worked just a few years ago quickly becomes 
obsolete as technology advances, how we think about the workforce 
environment advances, and the very nature of CBP's mission changes. 
CBP's hiring demands are complex, interdependent, and driven by 
National security objectives, Executive-level policies, Congressional 
mandates, and component-specific operational requirements. There are 
always opportunities to improve, and we're committed to continuously 
reassessing and refining our organizational structure to maximize 
effectiveness and process efficiency, as well as keep pace with 
evolving demands. Our focus continues to be on front-line hiring and 
ensuring CBP reaches Executive Order-mandated hiring targets for front-
line personnel, while at the same time providing the highest possible 
level of support to our current employees.
    While providing an estimated time frame for achieving all of our 
hiring goals is difficult and subject to many variables, we believe 
that leveraging Accenture's expertise, in addition to recent 
refinements to our recruitment and hiring processes, responds to the 
unique hiring challenges we face today. We are committed to ensuring 
that our front-line staffing effort remains focused but agile, 
centralized but precisely calibrated to the various, changing threat 
environments across the border and through the ports.
    Question 9b. Can you give us an overview of how that contract is 
going so far? Have you seen progress in the speed and quality of the 
hiring process?
    Answer. The Contract had a 120-day start-up and transition period 
for the Contractor to learn the CBP process, hire staff, and get them 
cleared to work at CBP and process applicants. The Contractor began 
marketing and recruiting in February and initial processing in March 
2018, and the first EODs are scheduled in late fiscal year 2018. The 
contractor currently has over 1,700 applicants in process.
    The Contractor is using advanced data analytics to try new 
recruiting methods and will also be developing innovative technology 
solutions that will be leveraged by CBP. Some of their processing and 
technology expertise has already been adopted into the CBP hiring 
process.
    Question 10. Commissioner McAleenan, there have been recent media 
reports that state in certain Border Patrol sectors only about 13 
percent of agents are patrolling along the border. What is the actual 
percentage of agents that patrol the line each day per Border Patrol 
sector on the Southwest Border?
    Answer. The Southern Border sectors have, on average, 69 percent of 
the agents on duty operating in border enforcement activities, at or 
within the immediate border environment. Due to certain terrain 
challenges and accessibility issues, our border enforcement posture 
will not always be at the immediate border, but within a reasonable 
distance where the U.S. Border Patrol can perform their law 
enforcement/interdiction duties.
    The other 31 percent of agents, on duty, not assigned to patrol the 
border are tasked to a myriad of other activities such as performing, 
processing/prosecutorial functions, intelligence-gathering operations, 
collaborative operations with partner agencies, strategic planning 
duties, and performing other necessary functions such as serving as 
command and control staff. These numbers vary by sector and by area of 
operation, but USBP's recognizes and adheres to the border security 
mission through a proper, forward-deployed, methodology to deter, 
identify, and mitigate incursions within the closest proximity to the 
border as possible. The USBP recognizes that the ability to mitigate 
incursions at the earliest identified point will greatly improve our 
enforcement posture and deterrence capabilities.
    Question 11a. Commissioner McAleenan, the workforce attrition rate 
among agents in the Border Patrol has been an issue since the early 
2000's. The Border Patrol has implemented mobility programs and 
opportunities before, but here we are today still talking about 
attrition.
    What programs or incentives have worked to curb attrition in the 
Border Patrol?
    Answer. U.S. Border Patrol (USBP) has a systemic need to stabilize 
the workforce and improve retention of employees with mission-essential 
competencies. Our 3-year average attrition rate of 4.8 percent 
continues to outpace the annualized 3-year hiring average of 2.3 
percent; highlighting the immediacy of our need for retention 
incentives.
    Based on both internal and external surveys, Border Patrol agents 
cite the primary reason for leaving is a lack of mobility. Mid-career 
BPAs feel there is no opportunity to either relocate to a more 
desirable location or advance from their current position, leading to 
decisions to leave U.S. Border Patrol. The Federal Employee Viewpoint 
Survey (FEVS), HRM surveys, and the USBP Human Capital Study show a 
strong correlation between a lack of agent mobility and lower morale 
and higher attrition rates. Analysis of CBP's hiring and attrition 
challenges revealed that USBP needed a program that improved 
operational response capabilities with the flexibility to address 
continually changing threats, and improve retention. The Operational 
Mobility Program meets both criteria; additionally, it resolved the No. 
1 reason for agent attrition--lack of mobility.
    USBP's Operational Mobility Program provides a stable relocation 
program for the USBP workforce to address declining morale and 
attrition. To achieve needed mobility, CBP implemented an incremental 
mobility program in fiscal year (+$25 million above $14 million in 
baseline funding), with the goals of achieving a 12 percent workforce 
mobility target by fiscal year 2000.
    Question 11b. You talk about mobility programs, but what specific 
programs do you plan to implement in the future to address the high 
attrition rates?
    Answer. CBP will continue to use its operational mobility program 
to address attrition, and will continues to look for new approaches to 
improve attrition rates for mission-essential competencies. CBP is also 
working to make improvements to its hiring process so that attrition of 
seasoned agents is less of an issue than it is currently.
    Question 12a. Commissioner McAleenan, deploying the National Guard 
to the Southwest Border is not a permanent solution to address CBP's 
manpower shortage. While efforts to improve hiring and retention at CBP 
have not proven to be successful so far, it's time to look at the full 
range of options available. Particularly, in terms of tasks that do not 
require the skill set that our agents and officers have, contracting 
out that work might make sense.
    Has CBP considered contracting out work that does not require a law 
enforcement skill set, such carrying out day-to-day scanning and 
screening functions, and image analysis, to the private sector?
    Answer. CBP is interested in further exploring the ability of 
having a cadre of personnel that are focused on image analysis and 
manifest reconciliation, specifically as CBP continues to evaluate the 
ability of pre-primary/primary NII Scanning with command center 
operations. CBP has discussed utilizing image analyst personnel, either 
contractor or non-law enforcement personnel (CBP technicians), to 
reconcile the CONSIST manifest information and review the X-ray image 
for the presence of anomalies. If an anomaly were discovered during the 
image analysis, the analyst would notify an on-site CBP officer for 
final adjudication. A CBP officer would always be on-hand to provide 
supervision and/or guidance to the analysts. This concept would 
optimize the role of the CBP officer by allowing them to focus on other 
high-priority law enforcement duties.
    CBP has implemented several business transformation initiatives to 
optimize CBP officer resources and increase efficiency. Initiatives 
such as Automated Passport Control (APC), Mobile Passport Control 
(MPC), Vehicle and Pedestrian Ready Lanes, Trusted Traveler Programs, 
and the CBP Mobile Program continue to result in significant savings. 
From fiscal year 2012 through fiscal year 2016, CBP saved over 1.4 
million inspectional hours through business transformation. It is 
estimated that through fiscal year 2019 CBP will save an additional 
523,000 hours. Overall savings estimates from fiscal year 2012-fiscal 
year 2019 equate to $52 million in salaries and expenses.
    Question 12b. What are the logical next steps for CBP to make this 
a reality?
    Answer. The most logical next steps would be to develop analysis as 
to the benefits and issues associated with this approach. Fortunately, 
the Office of Field Operations is developing a data-driven staffing 
model that analyzes mission and operational support positions, 
activities, and functions in an effort to alleviate some of the 
administrative burden of CBP officers and CBP agriculture specialists. 
Some of the activities that we are considering within the context of 
the Mission and Operational Support Resource Allocation Model (MOSRAM) 
is operator support to Non-Intrusive Inspection (NII) equipment such a 
Z-portals, fixed and mobile X-ray systems. While actual review and 
adjudication of scanned images must be performed by a CBP officer or 
CBP agriculture specialist there are other roles that could be 
performed by a CBP technician.
    Question 13a. Commissioner McAleenan, CBP deploys a variety of 
personnel at its 15 PreClearance locations with different skill sets, 
ranging from front-line officers to agricultural specialists.
    For PreClearance locations, how do you determine the number and 
type of personnel needed?
    Answer. The deployment of CBP officers and agriculture specialists 
to our PreClearance locations serves an important role in the CBP 
mission of strengthening our ability to identify terrorists, criminals, 
and other National security threats prior to encountering them on U.S. 
soil. PreClearance operations places a trained law enforcement 
professional at foreign points of departure to enforce our country's 
laws and to protect the traveling public destined for the United 
States. These law enforcement professionals already have many years of 
service and experience prior to their potential selection for a 
PreClearance location. They are required to apply for the position and 
be selected through consideration of these skillsets and experience.
    CBP works closely with foreign stakeholders, airlines, and agency 
partners to provide and accommodate the appropriate number of personnel 
at our PreClearance locations. These continual and on-going discussions 
address any potential fluctuations due to economy, weather, and 
industry, regionally or nationally, which could impact the staffing 
overseas.
    Question 13b. What is the average cost associated with deploying 
one front-line CBP officer abroad? One support specialist?
    Answer. The average cost of a CBP PreClearance employee abroad in 
fiscal year was approximately $275,000 dollars. However, the cost of 
stationing a PreClearance employee abroad can cost upwards of $400,000 
dollars or more depending on a number of variables specific to each 
individual deployment (e.g. relocation costs due to family size/
housing/location, Department of State allowances, and support costs at 
a particular post, etc.). These numbers take into account any cost 
reimbursement that CBP gets at certain PreClearance locations. It 
should also be noted these costs do not include any State-side 
``overhead'' support costs.
    At this time, CBP PreClearance has limited support positions 
overseas. However, CBP PreClearance is exploring the possibility of 
increasing the number of mission support specialists and CBP 
technicians overseas allowing officers and agriculture specialists to 
be relieved of administrative duties that they are currently required 
to complete. CBP PreClearance believes the average cost for a support 
position would be around $225,000 dollars per year but could be higher 
depending on the variables listed above.
    Question 13c. How long is it currently taking to deploy a front-
line officer abroad to PreClearance locations?
    Answer. The deployment of a front-line officer takes anywhere from 
6-9 months, starting with extending the job offer and finishing with 
the employee entering on duty in PreClearance. The time frame depends 
on how soon the employee completes the pre-employment process, which 
entails obtaining medical clearances and diplomatic passports for the 
employee and their dependents from the Department of State, completing 
all mandatory training, and obtaining a security clearance, if 
applicable (required for supervisory positions).
    Question 14a. Commissioner McAleenan, CBP is currently using a 
risk-based approach to scan ``high-risk'' containers which amounts to 
scanning 3-4 percent of all U.S.-bound cargo. There is a large gap 
between the requirement in the law of scanning 100 percent of all cargo 
containers before they are bound for the United States and the current 
practice of scanning relatively few containers once they arrive on 
shore.
    Could you reasonably scan more containers, using a risk-based 
approach?
    Answer. As previously reported, DHS implemented both full-scale and 
limited-capacity deployments of integrated scanning systems in foreign 
ports under its Secure Freight Initiative (SFI). Due to challenges 
identified during the initiative's pilot program, all operations, with 
the exception of Port Qasim, Pakistan, have reverted from the 100 
percent scanning model to the risk-based targeting approach of the 
Container Security Initiative (CSI) program to optimize results through 
advanced analysis of manifest data and identification of high-risk 
cargo.
    As noted in 20 previous reports titled Update on Integrated 
Scanning System Pilot,\1\ initial SFI operations at pilot locations 
afforded DHS the opportunity to test possible solutions to the complex 
challenges posed by scanning 100 percent of U.S.-bound maritime 
containers, particularly at transshipment and high-volume ports. It was 
determined that while scan data can be useful, operational costs are 
significant even in limited environments. DHS documented numerous 
challenges associated with implementing 100 percent scanning, including 
diplomatic and operational challenges, port reconfiguration issues, the 
potential for reciprocal requirements on United States ports, and the 
lack of available technology to efficiently scan transshipped cargo.
---------------------------------------------------------------------------
    \1\ Update on Integrated Scanning System Pilot--Reported to 
Congress: May 29, 2008; June 12, 2008; January 4, 2010; July 15, 2010; 
January 24, 2011; May 20, 2011; February 29, 2012; October 3, 2012; 
March 11, 2013; July 29, 2013; April 8, 2014; July 7, 2014; December 
15, 2014; April 14, 2015; December 17, 2015; June 30, 2016; March 2, 
2017; February 9, 2018.
---------------------------------------------------------------------------
    The DHS recognizes the need to proceed with container security 
programs in a responsible, practical manner that maximizes the security 
of maritime cargo, as well as facilitating its movement and enhancing 
global supply chain resilience.
    CBP is committed to a risk-based approach to cargo security. In 
fiscal year 2017 less than one-half of 1 percent of maritime 
containerized cargo was determined to be high-risk using the Automated 
Targeting System (ATS). CBP scans all containers identified as high-
risk and also scans a significant number at random. Scanning more 
containers would put an undue burden on CBP and foreign government 
resources without adding any additional security.
    CBP continues to refine and improve its targeting for potentially 
high-risk cargo in all modes of transportation. As part of this 
process, in May 2017, CBP introduced a new risk assessment methodology 
for maritime cargo. The risk assessment methodology is based on the 
latest available intelligence and incorporates scenarios and anomaly 
detection capabilities. All available advance data, including manifest, 
importer security filing, and entry, are assessed for risk through ATS, 
which is one of the most advanced targeting systems in the world.
    With the implementation of the new methodology, there has been a 
reduction in the number of high-risk shipments identified, but an 
increase in overall confidence that CBP is targeting the right 
shipments for further scrutiny.
    The maritime shipping environment is large, complex, and includes a 
host of private and public sector stakeholders. To be successful, we 
will need to continue to seek models for scanning and other supply 
chain resilience solutions that make sense for industry stakeholders to 
incorporate into their business processes, and from which other 
governments can also realize value.
    Question 14b. Of the 3-4 percent of containers that you do scan, 
how often do you find contraband like illicit drugs or weapons?
    Answer. As part of CBP's Container Security Initiative, CBP 
officers are stationed in foreign seaports to work together with their 
host counterparts to share information, develop investigative leads on 
potential threats, and identify and examine high-risk shipments. During 
fiscal year 2017, collaborative targeting efforts between Container 
Security Initiative CBP officers and their foreign counterparts 
resulted in the detection and seizure of approximately 15,200 kilograms 
(16.75 tons) of cocaine, $41.5 million in undeclared merchandise, 18 
stolen vehicles, $96,000 in undeclared currency, and 11 arrests.
    CBP officers in overseas locations do not seize prohibited items, 
but rather the host country authorities make a determination on the 
disposition of illicit goods. CBP officers in foreign locations have 
been instrumental in assisting their counterparts in disrupting and 
dismantling Transnational Criminal Organizations and effecting 
controlled deliveries, which have led to arrests of those involved in 
illicit activity.
    Question 14c. Through partnerships, such as the Container Security 
Initiative, what percentage of high-risk cargo is scanned overseas?
    Answer. Approximately 82 percent of all high-risk cargo passes 
through a CSI port. One hundred percent of that cargo is reviewed, 
researched, and either mitigated or examined (scanned or physical 
examination) by CBP officers in conjunction with foreign counterparts.
    CBP has a dedicated team of CBP officers at the National Targeting 
Center (NTC) that reviews the approximately 18 percent of high-risk 
cargo that does not originate in a CSI port prior to that cargo leaving 
the foreign port. The team will further research all potentially high-
risk cargo and either mitigate the risk or explore other avenues to 
have the cargo examined.
    Question 15a. Commissioner McAleenan, there are currently 61 
Container Security Initiative (CSI) ports in 35 countries. For a port 
to be considered part of CSI, CBP officers do not necessarily have to 
be present at that port.
    Is CBP considering adding more CSI ports? If so, will they have CBP 
personnel on-site, or utilize a regional model of cooperation, like in 
Italy, where one CBP officer has relationships with multiple ports in 
the country?
    Answer. CSI is always exploring opportunities to expand to 
additional locations. When considering any possible expansion, some of 
the factors which are considered are: Potential risk from certain 
locations, political will of the host government, regular recurring 
container volume to the United States, the type of technology utilized 
by the host government (such as non-intrusive inspection equipment), 
and/or their ability to procure such.
    When expanding into a new location, CSI would, at least initially, 
have CSI staff on-site in order to develop and enhance the working 
relationship with host counterparts. At such a time when CSI feels a 
level of confidence in the commitment, relationship, and responsiveness 
of the host counterparts, CSI could then explore the feasibility of 
adapting the operational model to a remote or regional targeting model.
    Question 15b. How does CBP vet foreign customs officers tasked with 
scanning containers that are cause for concern?
    Answer. CBP is prohibited from vetting foreign customs officers 
with whom they work in foreign locations due to sovereignty concerns. 
In the vast majority of CSI ports, CBP officers do, however, actively 
participate in the scanning and examination process in conjunction with 
the host country counterparts. This close cooperative working 
relationship allows CBP officers to identify any potential anomalies 
during the scanning process.
    CBP has provided and continues to provide training to foreign 
counterparts in areas such as anomaly detection to increase capability 
of the foreign counterparts.
    Question 15c. Have there been instances of corruption in foreign 
work forces at CSI ports?
    Answer. CBP is unaware of any instance of corruption in foreign 
work forces at CSI ports. The port authorities, local law enforcement, 
and the terminal operators with whom CSI engages have steps in place to 
mitigate or thwart potential corruption in the seaport environment. 
Such steps include access controls, vetting of personnel with port 
access, CCTV camera systems CSI personnel can access, roving patrols, 
and the use of GPS devices on vehicles entering port facilities.
    Question 16a. Commissioner McAleenan, we are currently giving 
suppliers expedited screening privileges when they can prove they take 
steps to secure their supply chain under CBP's C-TPAT program.
    What percentage of U.S.-bound cargo originates from a C-TPAT 
member?
    Answer. Twelve different entity types are eligible for C-TPAT 
certification. These entity types include, among others; importers, 
exporters, highway carriers, sea carriers, and U.S. Customs brokers. Of 
these 12 entities, U.S. importers are the largest entity, accounting 
for 4,139 of the 11,562 certified members. The importers represent 54.1 
percent of all cargo imported into the United States.
    Question 16b. Has CBP had incidents where C-TPAT suppliers falsify 
information or abuse the system? What are the consequences for doing 
so?
    Answer. The C-TPAT program was codified into law by the Security 
and Accountability for Every (SAFE) Port Act of 2006. This law imposed 
strict oversight requirements, including requiring C-TPAT to suspend or 
remove program benefits/membership from any Partner that fails to meet 
program requirements. Reasons for suspending/removing a partner 
include, but are not limited to, the following: Failure to meet the 
minimum security criteria; failure to meet eligibility requirements; 
failure to comply with other rules, laws, and regulations; and security 
breaches resulting in an enforcement action.
    Typically, each suspension, removal, or determination of 
ineligibility is preceded by extensive outreach efforts in order to 
provide Partners with the opportunity to demonstrate compliance with 
program requirements. In 2017, CTPAT suspended 32 partners and removed 
118, for a total of 135 suspension and removal actions. In addition, 
subsequent to suspending/removing a partner, additional outreach 
efforts are conducted to help the Partner address the gaps, 
vulnerabilities, or weaknesses that led to the suspension, removal, or 
ineligibility determination. These efforts aim to help the Partner move 
toward reinstatement. However, in accordance with the SAFE Port Act of 
2006, cases involving a potential threat to National security, or 
situations involving false/misleading information, may require 
immediate action to suspend or remove a Partner.
    Question 16c. A common concern from industry, is that they often do 
not perceive tangible benefits from participation in the C-TPAT 
program. Are you considering any additional benefits that can be 
applied to members of the program?
    Answer. CBP affords tangible trade facilitation benefits to C-TPAT 
members to recognize their demonstrated commitment to adopt stronger 
security practices throughout their international supply chains. C-TPAT 
membership has value that exceeds dollars and cents. The benefits of 
program membership includes risk avoidance, a communal approach to a 
safer supply chain, and the advantage of the credibility that C-TPAT 
membership brings. The C-TPAT benefits package has increased over the 
years, and the program continues to explore additional benefits with 
the trade community.
    The program is also focusing on executing the Trusted Trader 
strategy, which was developed in cooperation with the Commercial 
Customs Operations Advisory Committee (COAC). Under the strategy, C-
TPAT is working to transition the current Importer Self-Assessment 
(ISA) Program into CTPAT Trade Compliance by the end of fiscal year 
2018. This transition will create the United States' equivalent of an 
Authorized Economic Operator (AEO) that addresses both security and 
Customs trade compliance. As part of this effort, C-TPAT is working 
with Trusted Trader stakeholders to test over 30 benefits and measure 
their impact. The ultimate goal is for members to be able to document 
their return on investment and quantify the value for their 
participation in the program.
    Additionally, in an effort to combat Importer Identification (ID) 
theft and provide a new benefit to C-TPAT importers, the National 
Targeting Center's (NTC) Tactical Trade Targeting Unit (T3U), Cargo and 
Conveyance Security (CCS), and the CTPAT program have developed a 
multilevel approach to protect C-TPAT participants from exploitation of 
ID theft. They have created a notification and verification system 
within CBP's automated system. The identification of anomalies can 
represent a legitimate business change or vulnerability within the 
importer's supply chain and serve as an ``ID monitoring'' tool.
    CBP is also in the process of fully implementing the Advanced 
Qualified Unlading Approval Lane pilot, or AQUA lane, at most major 
U.S. seaports. AQUA Lane is an effort to cut down on costs for the 
trade and better manage the CBP workforce by focusing resources on 
high-risk sea carriers. Currently, AQUA Lane is in a pilot phase at 20 
U.S. seaports.
    C-TPAT has signed 11 mutual recognition arrangements (MRA) with the 
following countries/AEO programs: New Zealand, Canada, Singapore, 
Mexico, Dominican Republic, European Union (EU), Japan, Korea, Israel, 
Jordan, and Taiwan. C-TPAT is also expanding its MRAs to include 
incentives for C-TPAT members exporting to those nations. Currently, 
benefits are afforded to CTPAT members exporting to Canada, Mexico, 
Singapore, Israel, the European Union, and Japan.
    C-TPAT is currently working with South Korea and New Zealand to 
incorporate export incentives through the MRA and will be looking to do 
the same, in the future, with the remaining MRA partners, Taiwan, 
Dominican Republic, and Jordan.
    Question 17. Commissioner McAleenan, the House passed H.R. 3551, 
the C-TPAT Reauthorization Act of 2017 back in October. The bill 
reauthorizes the cargo pre-vetting program for the first time in 11 
years to ensure that the program is ready to meet the dynamic threats 
currently facing the global supply chain and that C-TPAT participants 
receive tangible benefits for their partnership with CBP. Knowing you 
cannot officially endorse, would you say CBP generally supports the 
measures within and intent of this bill?
    Answer. C-TPAT has been an integral part of the CBP mission for 
over 15 years. The program is currently undertaking major efforts to 
modernize its approach so as to best respond to the threats facing the 
current trade landscape. The measures within the bill and the intent of 
the bill will allow C-TPAT to evolve into the program it needs to be 
today and CBP generally supports both the measures within and intent of 
this bill.
    Question 18a. Commissioner McAleenan, 10 + 2 data and cargo 
manifests are currently transmitted to the National Targeting Center 
for vetting by CBP officers before cargo is bound for the United 
States. Through that information, CBP determines if a shipment is 
considered high-risk.
    Can you discuss what triggers a container being designated as 
``high-risk''?
    Answer. The National Targeting Center (NTC) is an integral part of 
CBP's layered security strategy and works closely with Container 
Security Initiative (CSI) targeters stationed overseas as well as 
domestic-based targeters located at our many ports of entry (POE) to 
identify and mitigate high-risk cargo and conveyances prior to its 
arrival in the United States. The strategy is highly reliant on advance 
electronic data (AED) and CBP's Automated Targeting System.
    In the maritime environment, CBP receives manifests and importer 
security filings 24 hours prior to loading of U.S.-bound vessels. CBP 
also receives container status messages within 24 hours of creation, or 
receipt, within a carrier's tracking system, and vessel stow plans 
either 48 hours after departure of the last foreign port, or any time 
prior to arrival for short hauls. The data is fed into ATS where it is 
automatically risk-assessed and made available for additional targeting 
by thousands of users throughout CBP as well as the broader DHS 
community.
    As part of the automatic risk-assessment process, the NTC has 
developed a set of targeting models that judge conditional risk factors 
based on current intelligence on smuggling pathways. The data is 
periodically updated and methodology refreshed to ensure a robust, up-
to-date, well-sourced approach to identify high-risk shipments. An 
analyst can modify and deploy risk factors into the targeting modules 
as intelligence is received to rapidly address and target changing 
threats.
    ATS also compares containers declared on vessel stow plans to 
containers that have been declared on manifests in order to identify 
arriving containers that are not manifested. Each year, CBP identifies 
thousands of these potentially unmanifested containers prior to 
arrival, which gives CBP time to contact the carrier and mitigate the 
issue.
    Question 18b. Have there been instances of shippers falsifying 10+2 
data or using vague information to mask a shipment's true contents? And 
if so, how many?
    Answer. There is no doubt that this occurs, since falsifying 
customs and other supply chain documentation is a time-honored 
tradition amongst smugglers. However, the NTC is not aware of any 
entity or system within CBP that regularly records these type of 
metrics in a way that can be easily retrieved and analyzed. Please see 
the additional background information provided below.
    The targeting, examination, and seizure process is very 
transactional and the focus is on the merchandise and violation itself 
(e.g., ``smuggling'' or ``counterfeit goods''), rather than recording 
the precise underlying reason a shipment was targeted (e.g., the 
consignee on the importer security filing did not match the consignee 
on the manifest). While the official seizure narrative may provide more 
details regarding why a shipment was targeted, these underlying reasons 
are often listed in the text field in the Seized Asset and Case 
Tracking System (SEACATS), which makes retrieving the exact metrics 
extremely burdensome and time-consuming.
    Question 18c. Are there any other data points you think CBP should 
include in 10+2 data collection?
    Answer. As technology continues to progress, CBP may want to 
incentivize the supply chain community to provide scanned copies of 
their purchase orders, invoices, packing lists, and even digital 
pictures of their merchandise and the smallest external packing 
materials as early as practicable. This would allow CBP officials to 
conduct a ``virtual examination'' before goods are placed on a U.S.-
bound vessel.
    CBP has requested that the carrier community provide the following 
data on a voluntary basis in order to perform targeting and compliance 
operations more efficiently and effectively:
  <bullet> Each carrier's global container status message (CSM) feed. 
        (Will help with coast-wide and outbound targeting and tracking)
  <bullet> Each carrier's global vessel stow plans (BAPLIE)\2\ feed. 
        (Will help with coast-wide and outbound targeting and tracking)
---------------------------------------------------------------------------
    \2\ BAPLIE is a widely used UN/EDIFACT message in the shipping 
industry. It is used by and between various parties to advise the exact 
stowage positions of cargo on an ocean vessel.
---------------------------------------------------------------------------
  <bullet> Electronic copies of all vessel documentation to include:
    <bullet> Registry/Certificate of Nationality
    <bullet> Tonnage Certificate
    <bullet> Certificate of Financial Responsibility
    <bullet> Certificate of Financial Responsibility (Alternate)
    <bullet> Continuous Synopsis Record
    <bullet> Safety Construction Certificate
    <bullet> Safety Equipment Certificate
    <bullet> Radio Certificate
    <bullet> Dangerous Goods Compliance
    <bullet> Ship Security
    <bullet> Safety Management Certificate
    <bullet> Load Line Certificate
    Question 18d. How does CBP measure the effectiveness of its 
algorithm that determines whether a shipment is ``high-risk'' or not?
    Answer. The NTC reviews results from enforcement operations and 
current intelligence to judge efficacy. With rapidly-changing threat 
streams, CBP leverages both domestic and international partners to 
rapidly deploy targeting rules and models that address current threats. 
Feedback from the field, the trade community, law enforcement agencies, 
and data analytics are also considered. The research is shared 
throughout the CBP Intelligence Enterprise and reviewed for validation 
against Classified materials.
    Question 19a. Commissioner McAleenan, a viable biometric exit 
system to track visa overstays has been a statutory mandate for over a 
decade. What is the current time line for the implementation of a full 
biometric exit system at all U.S. international airports?
    Answer. Since receiving the mission in 2013, U.S. Customs and 
Border Protection (CBP) advanced an entry/exit strategy by conducting a 
series of pilot programs and technical demonstrations, which resulted 
in CBP developing a realistic and achievable biometric exit plan. CBP 
has:
  <bullet> Deployed demonstrations to 8 airports across the Nation;
  <bullet> Facilitated pilot programs with 3 airlines and 1 airport to 
        integrate biometrics with the airline boarding process;
  <bullet> Transformed the entry process for certain flights at 7 
        airports, including PreClearance locations;
  <bullet> Facilitated a pilot program with one cruise line for 
        biometric disembarkation;
  <bullet> Launched a facial matching pilot with the Transportation 
        Security Administration (TSA) at a security checkpoint as a 
        proof of concept for enhancing the travel experience;
  <bullet> Enabled mobile devices to collect biometrics; and
  <bullet> Solidified plans to deploy facial recognition technology in 
        the land border vehicle and pedestrian environments.
    These tests have assisted in defining the technical architecture 
for the end-state solution. CBP's Traveler Verification System (TVS) 
uses biographic data from the passenger manifest and previously-
collected photos contained in Government databases to perform facial 
matching on-site to verify a traveler's identity. In early 2018, CBP 
completed the TVS and remains committed to partnerships with all 
airlines and airports across the United States. CBP is working toward 
full implementation of biometric exit in the air environment within the 
next 4 years to account for over 97 percent of departing commercial air 
travelers from the United States.
    CBP is leveraging advances in technology from the biometric exit 
solution to transform the entry process by using facial photographs to 
identify travelers. This innovative approach uses the traveler's face 
to unlock their electronic travel record, in turn providing an 
immediate facilitative benefit, while at the same time leveraging 
previously-collected fingerprints to run applicable law enforcement 
checks in the background. CBP is piloting this concept at 7 airports, 
to demonstrate that facial recognition technology facilitates 
frictionless travel by reducing inspection time and creating an 
improved customer experience for the traveling public.
    Question 19b. Is biometric exit finally something that is going to 
be accomplished?
    Answer. CBP's partnership with stakeholders is critical to 
accomplish implementation of a biometric entry/exit system. CBP is 
committed to a process that meets the needs of all stakeholders to 
fulfil the biometric entry-exit mandate. CBP's primary responsibility 
is to facilitate legitimate trade and travel. CBP employees are working 
diligently to ensure stakeholders--travelers, airline authorities, air 
carriers, and other industry partners--are able to navigate these 
changes seamlessly and with the least amount of disruption to our 
economy.
    If CBP were to deploy a Government-only solution, without 
stakeholder input and support, cumbersome layers would be added to 
existing travel processes which, in turn, would have adverse effects on 
travel as a whole. Travelers would spend additional time going through 
security and/or boarding processes. Additionally, significant 
enhancements and modifications would be necessary to manage the 
expected increase in air travel.
    CBP is cognizant of limitations posed by existing infrastructure. 
As a whole, operationally, there are significant differences between 
the air, land, and sea environments. Each environment will require a 
different strategy and method of implementation. CBP is currently 
conducting field tests in the land and sea environments to validate 
technology and operational processes to inform strategy and planning 
activities going forward.
    Enactment of the fiscal year Consolidated Appropriations Act 
authorizes funding for a biometric exit program of up to $1 billion to 
be collected in fees on H-1B and L-1 applications over a period of up 
to 10 years. Based on actual collections in fiscal year 2016, fiscal 
year 2017, and fiscal year 2018, the current 10-year projection for fee 
fund collections is $585 million. CBP continues to closely monitor fee 
collections to ensure that there are adequate resources to meet this 
mandate.
    Question 20. Commissioner McAleenan, CBP recently enacted a process 
to allocate and prioritize AMO flight hours across various operational 
needs within CBP and DHS. There is a significant gap between funded 
hours of about 95,000 compared to the Border Patrol requirement of 
about 220,000. Do you support the use of contractual air support to 
fill this gap?
    Answer. CBP is exploring a number of potential opportunities to 
increase its situational awareness, close the gap in air support, and 
increase law enforcement presence. We believe the 52 initiatives 
contained within the Border Security Improvement Plan address these 
gaps through additional investments in U.S. Customs and Border 
Protection infrastructure and personnel.
   Questions From Ranking Member Filemon Vela for Kevin K. McAleenan
    Question 1. During the hearing you stated that CBP has a 
prioritized list of port of entry infrastructure improvements developed 
in partnership with GSA, the Department of Transportation, the 
Department of Commerce, and international partners. Please provide the 
committee with this prioritized list.
    Answer. Response was not received at the time of publication.
    Question 2. Attrition is a significant problem for CBP as a whole 
and given that the component has not been able to meet the minimum 
staffing level for CBPOs over several years, I am concerned that CBP 
may not be doing enough to keep the workforce it currently has. Please 
explain what is driving OFO's attrition rate.
    Answer. The CBP officer (CBPO) attrition rate is based on 
retirements, separations, and series losses. It counts CBPOs who leave 
CBP or leave the 1895 series and therefore represents true attrition to 
the CBPO population. The CBPO attrition rates have historically been in 
the range of 3 percent to 3.5 percent. This attrition rate is 
considered low.
    For fiscal year Year-to-date (pay period ending April 28, 2018), we 
have seen the attrition rate for CBPOs increase to 4.2 percent from the 
3.3 percent seen through the same pay period in fiscal year 2017. This 
is largely attributed to a spike in retirements. OFO has experienced 35 
percent more retirements this year compared to the same time frame last 
year. CBP monitors attrition rates throughout the fiscal year and 
strives to close the staffing gap between our onboard and our 
authorized staffing levels regardless of whether the gap is new, 
positions yet to be filled, or backfills due to attrition.
    Question 3. In recent years, Border Patrol has lost hundreds more 
agents each year than it has been able to hire. What steps is CBP 
taking to increase its retention of qualified Border Patrol agents?
    Answer. CBP's Office of Human Resources Management (HRM) is engaged 
with U.S. Border Patrol and other CBP operational components to advise 
and inform decision makers of appropriate attrition mitigation 
strategies. CBP is assessing funding requirements and prioritizing 
incentives that will have the greatest impact in retaining the 
workforce.
    Engaging in open conversation with employees and their families 
will enable CBP to identify factors leading to job satisfaction, 
quality of life, and other issues influencing attrition. We are also 
developing a CBP-wide Exit Survey. The exit survey results will allow 
the agency to better understand the causes of attrition with the goal 
of improving retention.
    Last, CBP established the Workforce Resilience and Engagement 
Division within HRM, which is dedicated to identifying and promoting 
programs and initiatives to enhance work-life balance for employees and 
their families, and to address issues like affordable and available 
child care in remote locations, employee and family health and 
wellness, and the impact of working in high-stress environments.
      Questions From Honorable Mike Rogers for Kevin K. McAleenan
    Question 1. Since April 2017 apprehensions on the Southwest Border 
have been on a steady rise. What new operations or policies, if any, 
have you put in place to try to deter or address the rise in 
apprehensions and illegal crossings?
    Answer. The U.S. Border Patrol has initiated several operations in 
an effort to decrease the flow of illegal entries into the United 
States via the Southern Border with Mexico. These initiatives and 
operations include planning aimed at returning agents to border 
security missions, enhancing situational awareness reporting, and 
decreasing ``pull factors'' for those entering the United States from 
countries other than Mexico. These initiatives and operations are the 
Zero Tolerance Prosecution, Operation Guardian Support, and Operation 
Department of Interior Support.
    Zero Tolerance is an initiative aimed at criminally prosecuting 100 
percent of those entering the United States illegally between the ports 
of entry. USBP is working with the Assistant U.S. Attorneys across the 
Southwest Border to successfully implement this initiative.
    The Zero Tolerance Prosecution Initiative continues to be 
implemented in accordance with the President's June 20, 2018 Executive 
Order titled Affording Congress an Opportunity to Address Family 
Separation. The Executive Order clearly directs USBP to enforce this 
and other criminal provisions of the Immigration and Nationality Act 
until and unless Congress directs otherwise. It also directs USBP to 
maintain family unity, including by detaining alien families together 
where appropriate and consistent with law and available resources.
    Operation Guardian Support is an initiative to use National Guard 
personnel for support in non-enforcement operations to increase the 
numbers of agents working border security operations. This effort 
places qualified National Guard troops in duties as camera operators, 
mechanics, construction efforts, and in helicopters to increase 
enforcement efficiency. National Guard troops will not be used in any 
enforcement activities.
    Operation Department of Interior Support is a collaborative effort 
where additional Law Enforcement Officers from the Fish and Wildlife 
Service, National Park Service, and Bureau of Land Management are 
working routine enforcement activities in Federal Lands that fall 
within the border areas aimed to improve overall border security. Yuma, 
Tucson, El Paso, Del Rio, and Rio Grande Valley Sectors are closely 
coordinating with DOI for this operation. This increase in DOI 
enforcement support also enhances USBP situational awareness reporting 
capabilities.
    Question 2a. On April 5, 2018, The Washington Times published an 
article regarding how the Border Patrol is deploying its manpower 
resources on the Southwest Border, specifically at the McAllen, Texas 
Station. (https://m.washingtontimes.com/news/2018/apr/5/border-patrol-
agents-stuck-desk-duty-amid-trump-ca/)
    What is the percentage of agents, out of those that are on duty, 
that are actually assigned to patrol the border on a daily basis in a 
``zone'' that is along the border (broken down by station and sector)?
    Answer. The percentage of agents assigned to patrol the border on a 
daily basis are broken down by stations with border zones in the Rio 
Grande Valley Sector are stated below. As stated in the response to 
question No. 10, the lower percentages in certain zones is due to 
certain terrain challenges and accessibility issues. Our border 
enforcement posture will not always be at the immediate border, but 
within a reasonable distance where the Border Patrol can perform its 
law enforcement/ interdiction duties.
  <bullet> Brownsville-63 percent
  <bullet> Fort Brown-68 percent
  <bullet> Harlingen-32 percent
  <bullet> McAllen-69 percent
  <bullet> Rio Grande City-79 percent
  <bullet> Weslaco-64 percent
    Question 2b. Additionally, what was the percentage of agents, out 
of those that were on duty, that were actually assigned to patrol the 
border on a daily basis in a ``zone'' that is along the border for the 
month of March 2018, including on the date in question in The 
Washington Times story (also broken down by station and sector)?
    Answer. The percentage of agents assigned to patrol border duties 
on a daily basis for the month of March broken down by stations with 
border zones in the Rio Grande Valley Sector are stated below.
  <bullet> Brownsville-63 percent
  <bullet> Fort Brown-68 percent
  <bullet> Harlingen-32 percent
  <bullet> McAllen-69 percent
  <bullet> Rio Grande City-79 percent
  <bullet> Weslaco-64 percent
    On March 18, 2018 agents assigned to patrol border duties broken 
down by stations with border zones in the Rio Grande Valley Sector are 
stated below.
  <bullet> Brownsville-82 percent
  <bullet> Fort Brown-82 percent
  <bullet> Harlingen-44 percent
  <bullet> McAllen-62 percent
  <bullet> Rio Grande City-77 percent
  <bullet> Weslaco-71 percent
    Question 3. As the deputy commissioner, acting commissioner, and 
now commissioner, you've overseen a workforce attrition rate among 
agents in the Border Patrol greater than any other since the early 
2000's. What steps have you taken or do you intend to take, besides the 
operational mobility program, to address this significant problem?
    Answer. CBP will continue to use its operational mobility program 
to address attrition, and will continues to look for new approaches to 
improve attrition rates for mission essential competencies. CBP is also 
working to make improvements to its hiring process so that attrition of 
seasoned agents is less of an issue than it is currently.
      Questions From Honorable Lou Barletta for Kevin K. McAleenan
    Question 1. Commissioner MacAleenan, the CBP is requesting $33.25 
billion in funding, approximately $18 billion of which would be 
allocated for 722 miles of border wall, 316 of which is new.
    Can you detail the problems with our current border infrastructure, 
and explain why replacing, expanding, and enhancing it is vital to the 
National security of the United States?
    Answer. In certain areas of the border, the border barrier has been 
in place for many years and the effects of aging, along with numerous 
incidents of breaching and patching, have diminished their 
effectiveness over time. Barriers are integral to achieving the 
requisite level of impedance and denial needed to establish operational 
control of the border and operational control is an essential element 
of a safe and secure border. Replacing, expanding, and enhancing border 
barrier will increase the Border Patrol's ability to impede and deny 
illegal activity at the border, effect a proper law enforcement 
response, and bring border incursions to an appropriate resolution. 
These activities are essential to both the border and National security 
of the United States.
    Question 2a. While I support the President's plan of building a 
wall along our Southern Border, I also recognize this alone will not 
stop illegal immigration. Approximately 40 percent of illegal aliens in 
the United States are here because they overstayed their visa.
    How close are we to fully putting in place a biometric entry/exit 
system as outlined in the 9/11 commission report?
    Answer. Since receiving the mission in 2013, U.S. Customs and 
Border Protection (CBP) advanced an entry/exit strategy by conducting a 
series of pilot programs and technical demonstrations, which resulted 
in CBP developing a realistic and achievable biometric exit plan. CBP 
has:
  <bullet> Deployed demonstrations to 8 airports across the Nation;
  <bullet> Facilitated pilot programs with 3 airlines and 1 airport to 
        integrate biometrics with the airline boarding process;
  <bullet> Transformed the entry process for certain flights at 11 
        airports, including PreClearance locations;
  <bullet> Facilitated a pilot program with one cruise line for 
        biometric disembarkation;
  <bullet> Launched a facial matching pilot with the Transportation 
        Security Administration at a security checkpoint as a proof of 
        concept for enhancing the travel experience:
  <bullet> Enabled mobile devices to collect biometrics; and
  <bullet> Solidified plans and began deploying handheld mobile devices 
        to collect biometrics and verify identity in the land border 
        vehicle and pedestrian environments.
    These tests have assisted in defining the technical architecture 
for the end-state solution. CBP's Traveler Verification System (TVS) 
uses biographic data from the passenger manifest and previously 
collected photos contained in Government databases to perform facial 
matching on-site to verify a traveler's identity. In early 2018, CBP 
completed the TVS and remains committed to partnerships with all 
airlines and airports across the United States. CBP is working toward 
full implementation of biometric exit in the air environment within the 
next 4 years to account for over 97 percent of departing commercial air 
travelers from the United States.
    CBP is leveraging advances in technology from the biometric exit 
solution to transform the entry process by using facial photographs to 
identify travelers. This new innovative approach uses the traveler's 
face to unlock their electronic travel record, in turn providing an 
immediate facilitative benefit, while at the same time leveraging 
previously collected fingerprints to run applicable law enforcement 
checks in the background. CBP is piloting this concept at 7 airports to 
demonstrate that facial recognition technology facilitates frictionless 
travel by reducing inspection time and creating an improved customer 
experience for the traveling public.
    Question 2b. Can you explain what obstacles we are facing that have 
delayed its implementation?
    Answer. CBP's partnership with stakeholders is critical to 
accomplish implementation of a biometric entry/exit system. CBP is 
committed to a process that meets the needs of all stakeholders to 
fulfill the biometric entry-exit mandate. CBP's primary responsibility 
is to facilitate legitimate trade and travel. CBP employees are working 
diligently to ensure stakeholders--travelers, airline authorities, air 
carriers, and other industry partners--are able to navigate these 
changes seamlessly and with the least amount of disruption to our 
economy.
    If CBP were to deploy a Government-only solution, without 
stakeholder input and support, cumbersome layers would be added to 
existing travel processes which, in turn, would have an adverse effect 
on travel as a whole. Travelers would spend additional time going 
through security and/or boarding processes. Additionallly, significant 
enhancements and modifications would be necessary to manage the 
expected increase in air travel. CBP is cognizant of limitations posed 
by existing infrastructure. As a whole, operationally, there are 
significant differences among the air, land, and sea environments. Each 
will require a different strategy and method of implementation. CBP is 
currently conducting field tests in the land and sea environments to 
validate the technology and operational processes to inform strategy 
and planning activities going forward.
    The Fiscal Year 2016 Consolidated Appropriations Act authorizes 
funding for a biometric exit program of up to $1 billion to be 
collected through fee surcharges over a period of up to 10 years. Based 
on actual collections in fiscal year 2016, fiscal year 2017, and fiscal 
year 2018, the current 10-year projection for fee fund collections is 
$585 million. CBP continues to closely monitor fee collections to 
ensure that there are adequate resources to meet this mandate.
    Question 3a. Commissioner, can you explain how the current hiring 
process for Border Patrol agents prevents CBP from being properly 
staffed?
    Answer. All BPAs undergo a rigorous, multi-step pre-employment 
process that evaluates them for a range of distinct qualities and 
skills. Finding the right people, the most trustworthy and capable of 
American citizens, to join us on the front line is one of the most 
crucial functions of the agency and one of our greatest challenges. 
CBP's rigorous process ensures only the best qualified applicants are 
hired, and includes an entrance exam, interview, medical test, 
polygraph examination, background investigation and physical fitness 
test. Because CBP's recruiting and hiring processes are complex, they 
require significant investment to meet the agency's hiring goals.
    Question 3b. What are the biggest challenges you face in the hiring 
process and what do you think must be changed?
    Answer. CBP is committed to improving its pre-employment hiring 
process through continuous evaluation, analysis, and refinement of its 
practices. While many modifications to CBP's hiring process are 
considered, we carefully weigh all risks and risk mitigation measures 
to ensure the agency's high standards of integrity remain 
uncompromised.
    In the last 2 years, numerous refinements have streamlined CBP's 
front-line hiring process and led to reductions in the average time-to-
hire. This has directly contributed to reducing the number of otherwise 
qualified candidates who drop from the hiring process due to process 
fatigue or accept more timely job offers elsewhere. In January 2016, 
CBP required approximately 195 applicants for one BPA to enter on duty. 
Today, CBP only requires on average 52 applicants for every one BPA 
hire.
    CBP continues to develop and implement initiatives designed to 
attract applicants suited to the unique CBP mission demands, expedite 
the pre-employment time line, and refine the hiring process. Of the 11 
steps in CBP's hiring process, the polygraph phase continues to see the 
highest combined failure and discontinuation rates. CBP is actively 
focusing on increasing capacity in this area.
    CBP supports the Anti-Border Corruption Reauthorization Act of 2017 
(H.R. 2213 in the House of Representatives and S. 595 in the Senate). 
The House passed H.R. 2213 on June 7, 2017, thanks to the strong 
support of this subcommittee and the co-sponsorship of Chairwoman 
McSally. This legislation would grant CBP authority to waive the 
polygraph requirement for three groups of applicants who demonstrated 
long-standing histories of public trust and meet specific criteria: 
Current, full-time State and local law enforcement officers; current, 
full-time Federal law enforcement officers; and veterans, active-duty 
service members, and reservists. CBP thanks Members of Congress for 
your continued support as we seek to hire women and men to fulfill 
CBP's complex and crucial missions in the months and years to come.
    Question 4a. A great deal of media coverage has been centered on 
the ``caravan'' of men, women, and children approaching the Southern 
Border in hopes of entering the United States from Honduras. Most of 
these individuals would likely try to enter the country by seeking 
asylum, the backlog of which is extensive and susceptible to fraud.
    Do you believe that our asylum process, specifically, the credible 
fear standard has to be improved?
    Answer. Under section 235(b)(1)(B)(v) of the Immigration and 
Nationality Act, the term ``credible fear of persecution'' means that 
there is a ``significant possibility'' that the alien could establish 
eligibility for asylum. In assessing whether this standard has been 
met, an officer must take into account the credibility of the 
statements made by the alien in support of the alien's claim and such 
other facts as are known to the officer. The standard is lower than the 
standard required for asylum itself; the latter requires proof of 
either ``past persecution'' or ``well-founded fear of persecution.'' 
Currently, between 80 and 90 percent of applicants are found to have a 
credible fear of persecution or torture.
    In its list of Immigration Principles and Policies released last 
year, the White House stated that, as part of its push for asylum 
reform, it sought to ``[e]levate the threshold standard of proof in 
credible fear interviews.'' The Department acknowledges the importance 
such a proposal would have in deterring fraud in the asylum process and 
is supportive of the measure.
    Question 4b. What additional resources, such as immigration judges, 
are necessary to be able to quickly and efficiently process these 
individuals when they arrive at the border?
    Answer. A greater presence on the part of asylum officer staff is 
also necessary, given the challenges we currently face in the asylum 
process. In fact, in response to the President's Executive Order 13767 
entitled ``Border Security and Immigration Enforcement Improvements,'' 
the Department has already increased USCIS asylum-officer deployments 
to a larger number of Southwest Border detention facilities. Up to 60 
asylum officers are currently deployed at 10 detention centers along 
the border. Regarding additional immigration judges, DHS defers to the 
Department of Justice.
    Additional prosecutorial resources are also needed. The Department 
recently announced it would begin referring more cases where 
individuals have entered illegally between Ports of Entry for 
prosecution by the Justice Department. The cooperative effort is one 
the Department completely supports as an important deterrent against 
frivolous asylum cases.
    Further, the Department has returned to a ``last in, first out'' 
interview schedule, which will allow USCIS to focus quickly on those 
applications that should be approved while also identifying frivolous, 
fraudulent, or otherwise non-meritorious asylum claims earlier and 
quickly place those individuals into removal proceedings. Last in/first 
out asylum-application processing was first established by the asylum 
reforms of 1995 and was used for 20 years until 2014. The aim then, as 
now, was to deter those who might try to use a backlog as a means to 
obtain employment authorization and build equities in the United 
States.
    Question 5a. When was the assessment completed that identified 
deployment of the National Guard as necessary?
    Answer. On April 4, 2018, the President of the United States sent a 
mission directive to DoD specifying that DoD would assist DHS with 
operational support personnel and air support. At this time, DHS began 
to coordinate with DoD on mission directives that could assist the 
overall mission of CBP in securing our borders.
    Question 5b. What factors or criteria were used to determine this 
approach would be the most effective and cost-efficient alternative?
    Answer. As soon as the Presidential Directive was given to 
Department of Defense, the Border Patrol began its planning process by 
referencing its fiscal year capabilities gap assessment document and 
its list of air requirements that Air and Marine Operations was unable 
to meet in fiscal year 2018. These areas were identified as support 
missions that the Department of Defense and National Guard could 
immediately fill given the limited scope of the Operation Guardian 
Support.
    Question 5c. Did you recommend such a deployment and were you aware 
of the President's plan regarding the National Guard prior to his 
announcement earlier this month?
    Answer. While the United States Border Patrol has a long working 
relationship with the National Guard and Department of Defense, this 
specific Operation was not pre-coordinated prior to April 4, 2018. The 
Border Patrol was not aware of the President's plan until he made his 
proclamation on April 4, 2018.
    Question 7. How does this deployment impact the U.S. Border 
Patrol's overall border security strategy?
    Answer. CBP has identified operational support positions where 
National Guard Personnel can assist that will allow Border Patrol 
agents to return to border enforcement activities between the ports of 
entries. This will allow CBP personnel to return to their primary roles 
as law enforcement officers.
    As more agents return to the border along with the additional 
12,000 hours of air support, CBP will gain a greater amount of 
situational awareness along the Southwest Border. This will enhance the 
Border Patrol's ability to impede and deny illegal border crossing and 
apply the appropriate law enforcement response between the ports of 
entries.
    The increased situational awareness, impedance, denial, and 
appropriate law enforcement resolution are all elements of the 
Operational Control model for the U.S. Border Patrol. The readiness of 
personnel and equipment allows Border Patrol to execute the elements of 
Operational Control.
    Question 6a. Acting Deputy Commissioner Vitiello has mentioned the 
possibility of using National Guard personnel at ports of entry, 
specifically to assist with cargo inspections.
    Can you please tell us under what authority this would be allowed?
    Answer. National Guard personnel are authorized under title 32 of 
the U.S. Code, by request of the President of the United States, to 
conduct operations in support of Department of Homeland Security 
Southern Border security missions.
    Question 6b. Have National Guard personnel been assigned to ports 
of entry in the past?
    Answer. National Guard personnel have been assigned to ports of 
entry in the past, assisting with cargo operations and dismantling 
activities. Operation Jump Start, 2006-2010, and Operation Phalanx, 
2012-2013, provided National Guard to assist at the ports of entry. For 
example, National Guard personnel assisted in pre-primary inspections 
of vehicles on the land border, using portable contraband detectors 
(busters) and fiber optic scopes. They assisted in secondary 
inspections in the passenger and cargo environment in the land border, 
including cab checks. They searched vehicles, trucks, aircraft, and 
vessels. They unloaded, landed, and searched cargo shipments under the 
supervision of CBP officers in the air, land, and sea environment. They 
performed traffic control in seaport and land borders. They performed 
landed quantity verifications in the sea environment. They dismantled 
vehicles or cargo suspected or found to contain narcotics, and 
retrieved the packages of illegal substances under CBP officer 
supervision. They participated in narcotic transport activities. They 
performed counter-drug surveillance operations. The National Guard 
assistance was a valuable force-multiplier, allowing CBP personnel to 
inspect more and intercept more illegal shipments.
    Question 6c. How they interact with general public and what 
guidance will be required to govern that interaction?
    Answer. Their duties will not bring National Guard members in 
contact with illegal immigrants/detainees, or persons presenting 
themselves for entry. National Guard members will have limited contact 
with the public related to their duties, e.g., GSA vehicle vendors/
dealers, maintenance garages, and parts vendors. National Guard 
personnel will have limited contact with vehicle drivers for the 
purpose of ground guidance and directional movement of vehicles in 
designated controlled areas.
    Question 8a. Given that CBP does not have metrics in place to 
accurately measure the contributions of existing fencing and 
surveillance technology, how did CBP determine that it needs to heavily 
rely on its ``impedance and denial'' capabilities, seemingly at the 
expense of other capabilities?
    Answer. Since the construction of barriers, USBP has made 
significant operational gains in border security. Illicit drug and 
human smuggling activity have decreased in those areas where barrier is 
deployed, but illicit cross-border traffic has also shifted to areas 
with limited or no border barrier. This reduction and shift in traffic 
demonstrates the effectiveness of deploying physical barriers along the 
border as well as the need for more I&D infrastructure.
    Today's border wall is a part of an integrated system that will 
deter and prevent illegal entries. The physical barriers are the 
backbone of an integrated Border Wall System that will include all-
weather roads and lighting, as well as enforcement cameras and sensors 
and detection technology as well as adequately staffed agents to 
support that infrastructure. Future investments in Border Wall Systems, 
while rooted in I&D, will also include the integration of additional 
capabilities such as domain awareness and access & mobility to increase 
certainty of arrest, agent safety, and overall public safety.
    Question 8b. How, if at all, have the plans for the construction of 
the wall system affected plans for deployments of surveillance 
technologies along the Southwest Border?
    Answer. Both the Linear Ground Detection System (LGDS) and Remote 
Video Surveillance System (RVSS) Programs are part of the Border Wall 
System Program (BWSP) Integrated Product Team (IPT) to ensure efficient 
and effective deployment of surveillance technology as each wall 
segment is constructed. In addition, relocatable RVSS surveillance 
technology will be installed in certain areas where wall will be 
constructed instead of the planned fixed RVSS surveillance technology 
to provide current domain awareness capability in these locations and 
avoid costly relocation of fixed infrastructure if the exact location 
of fixed RVSS surveillance technology does not match the BWSP needs as 
each wall segment is designed. When each wall segment is constructed 
and fixed RVSS surveillance technology installed, the relocatable RVSS 
surveillance technology will be redeployed to another location.
    Question 9a. The border wall prototypes in San Diego have undergone 
a long period of testing and evaluation. What is the status of the 
results of this evaluation period?
    Answer. CBP constructed 8 border wall prototypes in San Diego 
County: 4 segments constructed of reinforced concrete and 4 segments 
constructed of alternate materials. The purpose of the prototypes was 
to explore additional border wall design attributes. CBP began testing 
the border wall prototypes in late November 2017 and completed testing 
and evaluation in March 2018. Two of the most important testing 
criteria were how easily the wall can be scaled and how easily the wall 
can be breached. During the evaluation and assessment phase, CBP 
identified attributes from the prototypes that support Border Patrol's 
operational criteria for possible addition to the existing border wall 
design toolkit.
    Question 9b. What are CBP's anticipated next steps for this 
project?
    Answer. CBP has identified attributes from the prototypes and is 
currently working with a design firm to incorporate those attributes 
into the existing border wall design toolkit.
    Question 9c. How do you anticipate using these prototypes?
    Answer. The current plan is for the prototypes to remain in place 
along the current eastern terminus of the San Diego Secondary Wall. As 
the prototype location is part of the site of the fiscal year 2018 San 
Diego Secondary Wall, the long-term plan for the prototypes is still 
being determined. Once the design for the San Diego Secondary Wall is 
complete, CBP will be better-positioned to provide more information on 
the future of the prototypes.
    Question 10a. How has DHS estimated the costs associated with 
planned barrier segments?
    Answer. When CBP constructs border infrastructure and associated 
cost estimates, CBP evaluates each segment of the physical border 
against CBP border barrier requirements. CBP carefully considers the 
unique operational requirements and terrain associated with each border 
segment to identify the border barrier solutions and supporting 
technology necessary to maximize effectiveness and provide situational 
awareness for the Border Patrol. CBP continues to refine cost estimates 
for the border wall program based on site-specific characteristics, 
including the environment, land acquisition, and terrain factors, as 
well as lessons learned from previous border wall construction.
    Question 10b. To what extent has DHS factored in the costs of land 
acquisition and terrain into those estimates?
    Answer. CBP continues to refine cost estimates for the border wall 
program based upon the terrain and land acquisition for each specific 
site. Each segment of the wall construction has varying requirements 
and associated real estate costs. CBP cannot yet determine the 
anticipated total costs to survey, appraise, and acquire any necessary 
real estate until rights of entry have been obtained, which will allow 
the Government and its contractors to go enter privately-owned property 
to conduct necessary pre-acquisition activities.
    Question 11. Border Patrol staffing nearly doubled between fiscal 
year 2004 and fiscal year 2014 but staffing at ports of entry increased 
less than 25 percent during this same time period and has continued to 
lag. How are you prioritizing personnel and resources for the ports of 
entry?
    Answer. By effectively using targeted, monthly, port-specific, 
entry-level vacancy announcements, CBP has closed, or nearly closed, 
staffing gaps along the Southern and Northern Borders. Major Southern 
Border ports such as El Paso, San Ysidro, Brownsville, Hidalgo, and 
Eagle Pass either are at their authorized staffing level, or are 
projected to be within the next month. The Port of Laredo is over 93 
percent staffed and has 18 trainees scheduled to enter on duty in the 
month of June. Additionally, the Port of Otay Mesa, CA, was recently 
included on the May CBP officer vacancy announcement to help close 
their staffing gaps.
    The Arizona border ports and the Port of Calexico, CA, have proven 
to be exceptionally difficult locations for hiring. Therefore, CBP 
requested, and received approval, to increase the recruitment incentive 
for these ports from 25 percent to 33 percent of an employee's basic 
pay plus locality for a 3-year service period. Although it is too early 
to see the long-term impact of this increase in recruitment incentive, 
it is expected that the focused recruiting initiative and increased 
recruitment incentive will result in increased staffing in these 
difficult-to-hire ports.
    Since the Office of Personnel Management approved an increase to 
the recruitment incentive for the Arizona border ports and the Port of 
Calexico, CA from 25 percent to 33 percent of an employee's basic pay 
plus locality, 77 applicants have accepted CBP officer job offers with 
the 33 percent incentive. In comparison, in the 2 prior years combined, 
150 applicants accepted the 25 percent incentive for the AZ border 
ports and the Port of Calexico. Therefore, in 3 short months, CBP has 
experienced a marked increase in applicants accepting CBP officer job 
offers to these ports. The average increase in incentive pay is 
approximately $3,500 per applicant, per year of a 3-year service 
agreement. Over a 3-year service period, the increased incentive for 
these applicants is expected to cost approximately $810,000. Attrition 
has yet to fully stabilize in these ports, however, the Port of Nogales 
has experienced a net increase in staffing of 6.5 percent since the 
recruitment incentive was first offered in February 2016.
    Key ports along the Northern Border in Maine, Vermont, Washington, 
and Montana have reached their authorized staffing levels. The Port of 
Portal, ND, which has proven to be very difficult to staff, is over 91 
percent staffed as of the beginning of July 2018.
    The Port of San Francisco has had 16 applicants accept CBP officer 
job offers since the recruitment incentive was approved in May 2018. 
The average incentive is $12,611 each year for a 3-year service period. 
The port's attrition has yet to stabilize, but increased numbers of 
applicants are clearing pre-employment and accepting job offers. It is 
expected that in the coming months that the port will experience a net 
gain in staffing. The airports in Seattle and Boston recently received 
additional CBP officer positions. Both airports have applicants 
scheduled to enter on duty in the coming months, and applicants in pre-
employment, which is expected to satisfy the hiring requirements. For 
John F. Kennedy Airport, there are nearly 600 applicants in the pre-
employment process with 49 applicants scheduled to enter on duty over 
the coming months.
    For the monthly CBP officer vacancy announcement for May 2018, 
posted vacancies included the following airports: Dulles International 
Airport (IAD), Los Angeles International Airport (LAX), and San 
Francisco International Airport (SFO). Collectively, these locations 
received nearly 1,500 applications in just 15 days.
    Dulles International Airport received over 1,200 applications in 
May 2018. Of those, nearly 500 applicants are in the pre-employment 
process with 21 applicants scheduled to enter on duty in the coming 
months. Los Angeles International Airport received nearly 2,000 
applications in May 2018. Of those, nearly 700 applicants are in the 
pre-employment process with 11 applicants scheduled to enter on duty in 
the coming months.
    Question 12a. CBP has the authority to provide additional 
inspection services to private stakeholders through the Reimbursable 
Services Program.
    How many of these agreements does CBP have in place now?
    Answer. As of May 14, 2018, CBP has signed Reimbursable Services 
Agreements with 100 stakeholders.
    Question 12b. How does CBP help its partners estimate the costs for 
entering these kinds of agreements?
    Answer. CBP emphasizes that partners are subject to the actual 
costs linked to the salaries and benefits of the specific CBP employees 
that process requests for services made by program partners. As a 
general estimate, CBP will provide interested parties with tables that 
include a variety of possible annual and hourly base salary and 
overtime rates to represent the range of grade levels that might 
perform the work under reimbursable services agreements. Estimates 
include benefit rates to reflect Government contributions which are 
required for employees earning overtime under the Customs Officer Pay 
Reform Act (COPRA):

------------------------------------------------------------------------
         Rate (Percent)                 Type          Calculation Basis
------------------------------------------------------------------------
1.45...........................  Medicare..........  Applied to all
                                                      COPRA overtime
                                                      earnings.
6.20...........................  FICA..............  Applied to all
                                                      COPRA overtime
                                                      earnings.
1.00...........................  FERS One Percent..  Applied to the
                                                      first $22,500 of
                                                      COPRA overtime
                                                      earnings.
4.00...........................  FERS Matching*....  Applied to the
                                                      first $22,500 of
                                                      COPRA overtime
                                                      earnings.
28.8...........................  FERS Annuity......  Applied to the
                                                      first $22,500 of
                                                      COPRA overtime
                                                      earnings.
------------------------------------------------------------------------
* [Sic.]

    Also included are summaries of laws related to overhead, overtime, 
and premium pay regulations that could be applicable contingent upon 
the nature of the partner's request for reimbursable services. As 
partners begin to request services, CBP provides points of contact to 
address any questions tied to billing.
    Question 12c. How do you determine which officers are assigned to 
fulfill these agreements?
    Answer. CBP uses the assignment procedures set forth in Article 35 
of the National Collective Bargaining Agreement (NCBA) between CBP and 
the National Treasury Employees Union (NTEU) for the assignment of all 
overtime including assignments filled under the auspices of the 
Reimbursable Services Program. Overtime assignments are made on least-
cost, low-earner principles; and in accordance with a call-out order 
found in the NCBA.
    Question 13a. Has CBP been successful in getting Congress to 
increase Customs user fees to fund CBP officer new hires since the 
initial request in the fiscal year 2014 budget proposal?
    Answer. On December 4, 2015, the Fixing America's Surface 
Transportation Act (FAST Act, Pub. L. 114-94) was signed into law. 
Section 32201 of the FAST Act amended section 13031 of the Consolidated 
Omnibus Budget Reconciliation Act (COBRA) of 1985 (19 U.S.C. 58c) by 
requiring certain COBRA user fees and corresponding limitations be 
adjusted to reflect certain increases in inflation. While this ability 
to adjust COBRA fees for inflation was formally requested by CBP, the 
FAST Act does not allow CBP to retain the fees collected as a result of 
the inflationary adjustments. Congress has not granted approval on 
recent legislative proposals to increase user fees to support increased 
CBP officer hiring.
    Question 13b. If not, can you please explain why CBP has chosen to 
not request dedicated appropriations to hire the more than 3,500 
officers needed to address OFO's staffing shortage?
    Answer. CBP is committed to continued cooperation with the Congress 
in order to assess the optimal resource solutions to support additional 
CBP officer hiring efforts. Consistent with CBP's fiscal year 2017 
Resource Optimization Strategy and prior budget requests, CBP has 
submitted user fee increase legislative proposals to support additional 
CBP officers. The proposed increases to the Immigration User Fee (IUF) 
and COBRA User Fee would help CBP keep pace with travel volumes and 
meet the requirements identified by CBP's Workload Staffing Model. 
These fees are an important source of revenue for CBP field operations, 
but have not kept pace with the rising cost of providing inspection 
services or with rising inflation. Adjusting these fees will allow CBP 
to recover more of its costs through user fees, rather than annual 
appropriations, providing a funding source more closely aligned with 
trends in travel demand. Fee increases for these programs allow DHS to 
dedicate discretionary funding to programs for which user fees are not 
authorized.
    Question 14a. CBP has previously committed to fully implementing 
biometric exit by the end of 2018. In your written testimony, you 
describe this effort as the Traveler Verification Service, but you do 
not mention a time line for full deployment. Is CBP on track to meet 
the original 2018 deadline?
    Answer. Since receiving the mission in 2013, U.S. Customs and 
Border Protection (CBP) advanced an entry/exit strategy by conducting a 
series of pilot programs and technical demonstrations, which resulted 
in CBP developing a realistic and achievable biometric exit plan. CBP 
has:
  <bullet> Deployed demonstrations to 8 airports across the Nation;
  <bullet> Facilitated pilot programs with 3 airlines and 1 airport to 
        integrate biometrics with the airline boarding process;
  <bullet> Transformed the entry process for certain flights at 7 
        airports, including PreClearance locations;
  <bullet> Facilitated a pilot program with one cruise line for 
        biometric disembarkation;
  <bullet> Launched a facial matching pilot with the Transportation 
        Security Administration at a security checkpoint as a proof of 
        concept for enhancing the travel experience:
  <bullet> Enabled mobile devices to collect biometrics; and
  <bullet> Solidified plans and began deploying handheld mobile devices 
        to collect biometrics and verify in the land border vehicle and 
        pedestrian environments.
    These tests have assisted in defining the technical architecture 
for the end-state solution. CBP's Traveler Verification Service (TVS) 
uses biographic data from the passenger manifest and previously 
collected photos contained in Government databases to perform facial 
matching on-site to verify a traveler's identity. In early 2018, CBP 
completed the TVS and remains committed to partnerships with all 
airlines and airports across the United States. CBP is working toward 
full implementation of biometric exit in the air environment within the 
next 4 years to account for over 97 percent of departing commercial air 
travelers from the United States.
    CBP is leveraging advances in technology from the biometric exit 
solution to transform the entry process by using facial photographs to 
identify travelers. This innovative approach uses the traveler's face 
to unlock their electronic traveler record, in turn providing an 
immediate facilitative benefit, while at the same time leveraging 
previously collected fingerprints to run applicable law enforcement 
checks in the background. CBP is piloting this concept at 7 airports, 
further demonstrating that facial recognition technology facilitates 
frictionless travel by reducing inspection time and creating an 
improved customer experience for the traveling public.
    Question 14b. What remains to be addressed?
    Answer. In order to fully implement biometric exit, CBP must 
continue making progress in three key areas: Funding, stakeholder 
engagement, and expansion to additional modes of travel.
    First, while CBP received initial funding for the biometric exit 
program through the fiscal year 2016 Consolidated Appropriations Act, 
CBP must continue to closely monitor fee collections to ensure that 
there are adequate resources to meet this mandate. The Act authorizes 
funding for a biometric exit program of up to $1 billion to be 
collected through fee surcharges over a period of up to 10 years. Based 
on actual collections in fiscal year 2016, fiscal year 2017, and fiscal 
year 2018, the current 10-year projection for fee fund collections is 
$585 million. It is imperative that CBP monitor the funding forecast in 
order to inform the time line of the biometric implementation strategy 
(in all modes of travel) and future planned activities, to include 
field tests, demonstrations, and partnerships with travel industry 
stakeholders.
    Second, CBP's partnership with stakeholders is critical to 
accomplish implementation of a biometric entry/exit system. CBP is 
committed to a process that meets and the needs of all stakeholders to 
fulfill the biometric entry-exit mandate. CBP's primary responsibility 
is to facilitate legitimate trade and travel. CBP employees are working 
diligently to ensure stakeholders--travelers, airline authorities, air 
carriers, and other industry partners--are able to navigate these 
changes seamlessly and with the least amount of disruption to our 
economy. While CBP has already begun collaborating with certain 
airlines and airports to implement biometric entry and exit operations, 
CBP must continue to support these on-going partnerships, while also 
expanding our collaborative relationship to other industry partners.
    If CBP were to deploy a Government-only solution, without 
stakeholder input and support, cumbersome layers would be added to 
existing travel processes which, in turn, would have adverse effects on 
the travel as a whole. Travelers would spend additional time going 
through security and/or boarding processes. Additionally, significant 
enhancements and modifications would be necessary to manage the 
expected increase in air travel.
    Third, while CBP has made substantial progress in implementing 
biometric exit in the air environment, due to limitations posed by 
existing infrastructure, a different strategy and method of 
implementation will be required for other modes of travel. 
Operationally, there are significant differences among the air, land, 
and sea environments. CBP is working to finalize a comprehensive 
biometric land and sea strategies. In order to do so, CBP will be 
conducting field tests in the land and sea environments to validate 
technology and operational processes to inform strategy and planning 
activities going forward.
    Question 15a. In your testimony you mention that CBP is working 
with airlines about incorporating the Traveler Verification Service in 
their operations. What are some of the concerns airlines have about 
this program?
    Answer. The airlines are primarily concerned about integration 
costs (e.g. equipment) associated with the Traveler Verification 
Service (TVS). However, CBP's long-term vision for seamless travel is 
the use of facial recognition technology for identity verification. The 
passive application of this technology has the potential to replace 
manual identity checks and boarding pass scans from curb to gate. This 
will reduce friction points and save time for travelers, airlines, and 
airports, without requiring new governmental processes that add 
complexity to travel. CBP will utilize TVS to implement CBP's next 
generation processing system for arriving travelers. This will allow 
CBP to use facial recognition to match arriving passengers to the 
flight manifest, reducing the need for passports to be opened, 
fingerprints to be taken, and will streamline the entry process. The 
vision and path forward provides airlines with the assurance that the 
system is both financially viable and identifies the return on 
investment.
    Question 15b. How are roles and responsibilities being determined?
    Question 15c. Do they vary by airline or is there a standard set of 
responsibilities that all airline partners will need to assume?
    Answer. CBP is working with industry partners to standardize our 
policies, requirements, and arrangements that outline all respective 
responsibilities. Generally, the set of responsibilities is as follows:
    Using APIS data, CBP creates a temporary gallery of photographs and 
Unique Identifiers (UIDs) for passengers on all departing and arriving 
U.S. flights. These photos and UIDs are securely pushed to a cloud-
based matching service. CBP provides TVS web services and a secure 
gateway for partner airlines and airports to submit traveler photos 
through an internet Application Program Interface (API). Partners can 
verify traveler identity using TVS throughout the travel process by 
simply capturing a live traveler photo. The captured photo is compared 
against the TVS photo gallery in real-time. TVS responds with identity 
verification match results, eliminating manual and time-consuming 
processing such as document checks or the use of boarding passes. CBP 
currently does not require, but recommends that its partners also 
delete: (1) Matching results within 14 days and (2) newly-captured 
photos as soon as they are no longer needed for business purposes. 
Airlines and airport authorities that do not require short-term 
retention for business purposes will not use or retain the photos.
    Question 15d. How are costs for operating this program going to be 
shared?
    Answer. CBP invested heavily in robust infrastructure and built a 
matching service, the Traveler Verification Service (TVS), to support 
the end-to-end vision for seamless air travel that meets the biometric 
exit mandate. CBP will offer this service to all stakeholders. However, 
because airlines and airports are responsible for many of the passenger 
interactions, it is imperative they collaborate with CBP to co-create a 
process to meet business, traveler, and security needs. As the TVS is a 
device-agnostic biometric service, airline and airport partners have 
flexibility when selecting and purchasing front-end cameras to capture 
traveler photos to ensure the matching service aligns with their 
business model and customer service experience.
    Question 16a. We understand that certain groups have expressed 
concerns about passenger privacy in this program. What are CBP and its 
airline partners doing to inform the public about their privacy rights?
    Answer. CBP takes its privacy obligations very seriously. CBP 
provides general notification of the biometric exit program and its 
various pilots through airport signage as well as through Privacy 
Impact Assessments (PIAs), published on www.dhs.gov/privacy, and 
through program information, such as Frequently Asked Questions, 
readily available on www.cbp.gov. The PIAs account for the purpose of 
the information collection in relation to the DHS mission and address 
individual participation, security, data quality and integrity, and the 
sharing of data, including its minimization and use limitation, as well 
as auditing and accountability transparency.
    CBP works with airline and airport partners to incorporate 
notifications and processes into their current business models (i.e. 
signage, gate announcements).
    Question 16b. How are you engaging with groups concerned about 
privacy and civil liberties?
    Answer. CBP complies with all Privacy Act requirements and 
Departmental policies that govern the collection, use, and maintenance 
of personally identifiable information. DHS has published 5 PIAs, 
available at www.dhs.gov/privacy, related to the biometric matching 
system that supports biometric exit. As each pilot phase has commenced, 
CBP has updated the required privacy documentation. CBP has also 
published PIAs for the various biometric exit pilots. CBP has also 
published information concerning biometric exit on its website, which 
contains Frequently Asked Questions, links to privacy documentation and 
exemplars of the signage that is posted at each boarding gate where 
photographs are being collected.
    In addition, CBP has met with privacy advocates twice regarding 
biometric exit and has engaged in privacy discussions through DHS's 
Data Privacy and Integrity Advisory Committee (DPIAC). The meetings 
with privacy advocates occurred in August 2017 in Washington, DC and 
January 2018 in San Francisco, California. Each meeting included a 
lengthy Q&A session. Discussions included review of current pilots, 
retention policies, future biometric vision, and alternative screening 
procedures. CBP briefed the DPIAC in September 2017 and again in May 
2018, where CBP provided programmatic updates.
    Question 17. Under the previous administration, CBP was 
aggressively moving forward with negotiating and selecting new sites 
for PreClearance, and this committee worked on a bipartisan basis to 
help improve these efforts. What is the status of PreClearance today?
    Answer. Today, CBP has law enforcement officers and agriculture 
specialists stationed at 15 aviation PreClearance locations in 6 
countries.\1\ In fiscal year 2017, CBP personnel stationed abroad 
precleared more than 19 million travelers, representing over 15 percent 
of all commercial air travelers to the United States.
---------------------------------------------------------------------------
    \1\ Current PreClearance locations include: Dublin and Shannon in 
Ireland; Aruba; Freeport and Nassau in The Bahamas; Bermuda; Abu Dhabi, 
United Arab Emirates; and Calgary, Toronto, Edmonton, Halifax, 
Montreal, Ottawa, Vancouver, and Winnipeg in Canada.
---------------------------------------------------------------------------
    CBP has hosted two open periods to-date, during which foreign 
airports were invited to submit letters expressing their interest in 
PreClearance operations. These airports underwent an evaluation by DHS 
and the U.S. Department of State in collaboration with stakeholders 
across the Government and with the aviation industry.
    Prior to beginning PreClearance operations, the United States and 
the host government must sign and enter into a PreClearance Agreement 
granting CBP personnel the authority to inspect U.S.-bound travelers, 
goods, and aircrafts.
    In late 2016 the United States signed agreements to implement 
PreClearance operations at Stockholm Arlanda Airport in Sweden and 
Punta Cana International Airport in the Dominican Republic. 
Implementation efforts currently await ratification and/or approval by 
our international partners. CBP also continues to engage with several 
of the host governments of other prioritized locations.
    Question 18a. Now that you are Commissioner, how do you envision 
using PreClearance?
    Answer. CBP firmly believes that establishing PreClearance 
operations in strategic locations will assist our efforts in 
identifying terrorists, criminals, and other National security threats 
prior to their boarding aircraft bound for the United States and this 
is a critical step in CBP's continued efforts to enhance National 
security and facilitate growing international travel and commerce. The 
aviation security benefits of PreClearance are substantial because a 
uniformed U.S. law enforcement officer interviews the precleared 
passenger before he or she boards the plane. This added security layer 
provides an additional opportunity to detect and stop threats as early 
in the process as possible.
    In addition to enhancing security, PreClearance has the potential 
to increase capacity and growth opportunities for airports and air 
carriers in the United States and abroad, while improving the passenger 
experience. PreClearance generates the potential for significant 
economic benefits for the United States and our international partners 
by facilitating travel through all gateways creating an overall 
increase in clearance capacity, and maximizing aircraft and gate 
utilization. PreClearance can lead to faster connections and provides 
passengers with the ability to exit the airport immediately upon 
landing the United States.
    Question 18b. Do you have plans to expand the program further?
    Answer. Building upon the success of existing PreClearance 
operations, CBP continues to work to expand the PreClearance program.
    Question 18c. Or will you focus on developing what the previous 
Commissioner negotiated?
    Answer. CBP firmly believes in establishing PreClearance operations 
in additional strategic locations. CBP is currently negotiating with 
several countries prioritized during the open periods of expansion 
while simultaneously working to support efforts by the governments of 
Sweden and the Dominican Republic to bring the two agreements concluded 
in 2016 into force.
    Question 19. CBP awarded Accenture with a nearly $300 million 
contract to assist in recruiting additional CBP law enforcement 
personnel. That translates to about $40,000 per new hire going to the 
contractor. I understand that funding was reprogrammed from a salaries 
account that was not being used given the lack of hires this fiscal 
year. Did CBP consider using that funding for retention incentives 
instead? If not, why not?
    Answer. CBP's staffing challenges are complex and require a multi-
pronged strategy that cuts across several lines of effort. These range 
from developing our recruitment and hiring capacity, which includes 
leveraging Accenture's expertise in Federal staffing, to reducing the 
attrition rate of the existing workforce. Funding has been utilized for 
our successful Operational Mobility Program for BPAs. Nearly 400 BPAs 
accepted relocations during the program's first cycle, more than 100 of 
whom received relocation incentives. CBP is currently exploring other 
ways to curb attrition, including multiple employee engagement 
initiatives and the expanded use of incentives.
    Question 20. We understand the Accenture contract is ramping up. 
What are CBP's plans for monitoring the contractor and ensuring that 
the law enforcement personnel it recruits and hires meet CBP's 
standards?
    Answer. CBP has stood up a robust Program Management Office 
dedicated to this contract to monitor Accenture's work through regular 
touch points and oversight meetings. The contract imposes numerous 
reporting and metrics development requirements upon Accenture, and 
senior leadership meets regularly with the Program Manager and the 
contractor to review status. CBP has already seen improvements in 
applicant interest based on Contractor marketing, and applicants will 
enter on duty through the same rigorous process currently used by CBP 
HRM. There are also several inherently Governmental steps in the hiring 
process where Government personnel will review contractor work. Final 
suitability determinations will only be made by CBP employees with 
expertise in the hiring process.
    Question 21. Several advocacy groups have noted that CBP personnel 
are behaving in ways that do not seem to align with policy. For 
example, Border Patrol agents have been filmed boarding passenger 
trains and buses without a warrant. They have also been filmed 
improperly transferring custody of a migrant to Mexican officials based 
on the person's appearance only. Please describe how you intend to 
enhance CBP's internal integrity program.
    Answer. U.S. Border Patrol agents are committed, and have 
demonstrated that commitment daily, to treating everyone with 
professionalism, dignity, and respect while enforcing the laws of the 
United States.
    U.S. Border Patrol agents routinely engage in enforcement 
operations at transportation hubs that fall within the border areas (up 
to 100 miles from a U.S. border), and along points of ingress into the 
U.S. Border Patrol agents conduct numerous immigration inspections on 
buses to identify passengers who are in the United States illegally. 
Many times those determined to be in the United States illegally are 
found to have recently crossed, have overstayed their visa, or have 
violated the terms of their legal entry and are thus amenable to 
removal, and/or have active warrants for their arrest. Inspections 
conducted in transportation check operations are part of a layered 
approach to prevent illegal aliens from traveling further into the 
interior of the United States. Inspections are conducted at strategic 
locations that serve as conduits for both human and narcotic smuggling, 
and as a result, disrupt criminal organizations from further exploiting 
certain modes of transportation. Enforcement operations at 
transportation hubs will continue to play a vital role in the U.S. 
Border Patrol's National security efforts.
    U.S. Border Patrol agents perform their duties with great 
professionalism in the face of an often hostile public. They regularly 
ignore taunts from passengers recording their lawful actions, and treat 
all individuals questioned with courtesy and respect. The Border Patrol 
does not condone or permit ``profiling'' based on appearances. The 
Border Patrol regularly apprehends illegal aliens and smugglers of all 
nationalities and ethnicities. There is no prototypical subject to whom 
Border Patrol agents look for to the exclusion of others. While CBP 
always strives to maintain the utmost level of professionalism during 
each encounter with the public, it remains CBP's foremost 
responsibility to ensure that Border Patrol agents conduct a thorough 
examination of every person questioned and to do so free of bias, 
racial profiling, and within the authorities granted to them by law.
    The public is entitled to fair, impartial, and courteous treatment. 
The U.S. Border Patrol does not tolerate unprofessional or demeaning 
behavior by its agents. CBP makes every effort to ensure that our 
operations treat all members of the public in both a professional and 
fair manner and inconvenience them as little as possible.
    The incident captured in the March 27, 2017 video was an isolated 
incident. El Centro Sector Border Patrol leadership resolved the 
situation quickly and satisfactorily with the Mexican Consulate, 
reaffirming the daily cooperation and coordination between the two 
nations. On that date, U.S. Border Patrol agents encountered an 
individual with mental health issues. This individual's mental state 
complicated an often straightforward repatriation process. In the 
video, our actions were not consistent with established operational 
procedures. Corrective action was taken to ensure all Border Patrol 
agents understand their obligations to following established processes, 
practices, and policies. In this incident, like many others taking 
place every day, the U.S. Border Patrol worked with their Mexican 
Consulate counterparts who identified the individual as a Mexican 
national who entered the United States illegally. That individual was 
properly repatriated in coordination with Mexican immigration 
officials.
    While the video of this incident was not available at the time (it 
was seen after the fact by CBP/USBP), the agency immediately followed 
proper protocol and referred this particular incident to the CBP Office 
of Professional Responsibility, as per policy. Additionally, the U.S. 
Border Patrol used this case as an educational scenario with the CBP 
Integrity Advisory Committee. The Integrity Advisory Committee educates 
and trains CBP personnel on integrity issues to improve.
    CBP has a workforce of dedicated men and women who are among the 
finest civil servants in the world, who carry out their duties with the 
utmost professionalism and efficiency. We are proud of the fact that 
our work is defined by the core values of vigilance, service, and 
integrity. The vast majority of CBP's agents and officers embody our 
core values, perform their duties with integrity and are dedicated to 
our mission of securing the American people and our borders while 
facilitating legitimate trade and travel. The men and women of CBP 
perform their duties professionally and treat those with whom they come 
in contact with dignity and respect.
    DHS and CBP take allegations of employee misconduct seriously. 
Under a uniform system, allegations of misconduct are documented and 
referred to the DHS Office of Inspector General (OIG) for independent 
review and assessment. Some cases are retained by the OIG for 
investigation while others are referred back to the component for 
appropriate handling. If misconduct is substantiated, appropriate 
corrective action will be initiated.
    Question 22a. Though apprehensions are at historic levels, migrant 
deaths continue to be high. As enforcement operations drive more 
migrants to remote areas. Border Patrol agents have also been found to 
have destroyed water supplies left in the desert by humanitarian 
groups. Can you please explain why and how CBP changed the methodology 
for counting migrant deaths?
    Answer. USBP reports any deaths that their employees come across in 
the course of their duties.
    Question 22b. Are you investigating these allegations of Border 
Patrol agents purposefully destroying water left for people stranded in 
the desert?
    Answer. U.S. Border Patrol takes all allegations seriously. The 
actions depicted in the 2010-2013 videos re-released by the group No 
More Deaths, were investigated by the CBP Office of Professional 
Responsibility and the U.S. Border Patrol. As a result of the 
investigation, disciplinary action was taken against the identified 
agents involved and USBP reinforced guidance was issued to prevent 
incidents like this from happening again.
    Question 23a. Can you please explain why CBP changed its 
methodology for counting assaults on CBP personnel?
    Answer. Law Enforcement Safety Compliance (LESC) began collecting 
and reporting assault and use of force data on February 5, 2016. In May 
2017, the Office of Public Affairs began publishing the number of use 
of force and assault incidents, in addition to the singular counts. The 
inclusion of incidents provided additional context to the uses of force 
and assaults, as there may be multiple actions--assaults and/or uses of 
force--during a single incident. Presenting these actions within the 
framework of incidents depicts the circumstances more clearly and 
reduces the variability created by the singular counts in the month-to-
month statistics.
    Question 23b. Does the year-to-year comparison that noted a 45 
percent increase from 2016 to 2017 take into account this new 
methodology?
    Answer. The 45 percent increase in singular assaults from fiscal 
year 2016 to fiscal year 2017 was driven in large part by incidents 
which included multiple assailants using multiple weapon types to 
assault USBP agents. Statistics are derived from counting weapon/
assault types, subjects, and officers/agents. Singular uses of force 
and singular assaults are both calculated using the same method: 
[number of officers/agents] x [number of subjects] x [number of weapon 
types involved]. Incidents are counted once for each type of activity 
they include. An assault incident is counted once regardless of the 
number of singular assaults involved; likewise for uses of force. An 
incident involving both assaults and uses of force generates one 
assault incident and one use of force incident.
    Question 23c. Please describe how this methodology is different 
from previous ones.
    Answer. There has been no change to the assault counting 
methodology. The Intercept article titled, ``How the Border Patrol 
Faked Statistics Showing a 73 Percent Rise in Assaults Against 
Agents,'' states that, ``A review of the LEOKA (Law Enforcement 
Officers Killed and Assaulted) data shows that for years, the number of 
assaults on Border Patrol agents reported to the FBI exactly matched 
the figure published by CBP.'' The phrase ``for years'' is somewhat 
selective, as it matched for only 3 years (2012, 2013, and 2014). The 
FBI publishes LEOKA each year to provide information about officers who 
were killed, feloniously or accidentally, and officers who were 
assaulted while performing their duties. The FBI does not independently 
track assaults on law enforcement officers; agencies report their own 
numbers to the FBI. The LEOKA report publishes calendar year numbers of 
officers assaulted and assailants, while CBP publishes fiscal year 
incidents and singular assaults. The Intercept article's chart titled, 
``The Border Patrol's False Assaults Data,'' erroneously displays both 
CBP and LEOKA statistics as being fiscal year on its axis.
    The table below displays the numbers of assaults reported from 2009 
through 2017:

                              YEAR (FISCAL YEAR FOR CBP, CALENDAR YEAR FOR LEOKA)*
----------------------------------------------------------------------------------------------------------------
                                   2009     2010     2011     2012     2013     2014     2015     2016     2017
----------------------------------------------------------------------------------------------------------------
USBP Assaults..................    1,073    1,061      675      555      468      373      378      454      786
LEOKA USBP Agents Assaulted....    1,167      888      699      555      468      373      349      397      432
----------------------------------------------------------------------------------------------------------------
* (2016 and forward reported by LESC; pre-2016 reported by USBP.)

    Question 24. Which recommendations from the Homeland Security 
Advisory Committee's CBP Integrity Advisory Panel's reports issued in 
2015 and 2016 has CBP implemented?
    Answer. The Homeland Security Advisory Committee's CBP Integrity 
Advisory Panel made 53 recommendations (14 in the 2015 Interim report 
and 39 in the 2016 final report) related to Integrity/Transparency, Use 
of Force, and Discipline. To date, CBP has implemented/completed 42 of 
the recommendations. A few notable ones are as follows:
  <bullet> Under the direction of the CBP Commissioner, should develop 
        and implement a comprehensive, proactive strategy for 
        preventing, deterring, identifying, and promptly investigating 
        potential corruption and acceptance of bribes by CBP personnel.
    CBP's Integrity and Personal Accountability Strategy is predicated 
        on the concepts of corruption prevention, detection, 
        investigation, and response, along with cross-cutting 
        initiatives of organizational integration and integrity 
        awareness.
  <bullet> Adequately staff CBP's Office of Internal Affairs (now 
        Office of Professional Responsibility) with sufficient and 
        experienced 1,811 criminal investigators to timely and 
        effectively investigate allegations of corruption and use of 
        excessive force involving CBP personnel. Allocate and budget 
        for 550 Full-Time Equivalent (FTE) 1,811 criminal investigators 
        in OPR, for a net increase of 350 FTE.
    CBP has expanded its cadre of 1,811 criminal investigators in order 
        to improve quality, timeliness, and capacity to investigate 
        allegations of misconduct and corruption. Additionally, CBP is 
        expanding its specialty investigative units such as Cyber, 
        Technical Operations, and the Corruption Research Investigative 
        Unit to increase use of complex investigative techniques and 
        increase proactive efforts.
  <bullet> Establish clear goals and time lines for each step of the 
        discipline process to achieve agency-wide deterrence as well as 
        no action/closing of investigations as promptly as possible, to 
        include competent, appropriately prioritized and timely 
        investigations of all misconduct allegations, speedy and 
        thorough investigations, and prompt and appropriate discipline 
        and/or closure.
    The Human Resources Management (HRM) Enterprise Dashboard was 
        launched in December 2016, and is available for senior 
        leadership review. HRM utilizes this data on a continuing basis 
        to identify potential opportunities for improvements to the 
        discipline process and other efficiencies. HRM will then 
        leverage the data collected from the case tracking system, via 
        the Enterprise Dashboard, and validate whether the metrics and 
        goals are appropriate or need revision.
  <bullet> Acknowledge all complaints received from the public by CBP. 
        If the complaint amounts to allegations of misconduct 
        potentially warranting discipline, CBP should acknowledge with 
        a letter or other documented communication to the complainant, 
        verifying receipt of the complaint and assuring a fair and 
        objective investigation.
    The CBP Information Center (CIC) serves as the primary intake and 
        triage for the processing of all complaints, compliments, and 
        allegations. The CIC manages all public complaints through its 
        Compliments and Complaints Management System (CCMS). For 
        complaints received via the website or over the phone, CCMS 
        sends immediate notifications to the complaints with their 
        incident number for tracking purposes. For complaints received 
        via regular mail, CIC mails a letter of acknowledgment to the 
        complainant. Status updates are provided throughout the 
        complaint process, until the final status of ``closed'' is 
        achieved once it has been resolved. The response reaffirms that 
        CBP takes employee misconduct seriously and such complaints are 
        fully investigated.
    Certain allegations of misconduct however, require review by the 
        OPR, DHS Office for Civil Rights and Civil Liberties, or 
        another CBP/DHS office (i.e. discrimination or malfeasance). 
        For those types of complaints, the CIC transfers the complaint 
        to the appropriate office. These complaints are recorded by the 
        Joint Intake Center (JIC) through the Joint Integrated Case 
        Management System (JICMS). OPR maintains JICMS; however, DHS 
        OIG holds the right of first refusal to investigate such cases.
  <bullet> Require all CBP law enforcement personnel to immediately 
        self-report misconduct whether or not it leads to arrest.
    OPR developed a new directive, for reporting allegations of 
        misconduct, including a requirement to immediately report 
        allegations of misconduct that result in arrest and/or 
        jeopardize the agency's mission that has been signed by the 
        Commissioner and issued to employees.
  <bullet> Develop local/regional Use of Force Incident Team (UFIT); 
        expand the role of the Use of Force Review Board (UFRB); pilot 
        mandated use of body armor in operational assignments.
    CBP has implemented the UFIT and the local UFRB. As detailed in the 
        Use of Force Incident Guide, both the National and Local UFRBs 
        consist of representatives from all operational and training 
        components, as well as legal counsel to ensure consistent and 
        comprehensive incident reviews. The National UFRB will analyze 
        each incident and make observations and recommendations 
        concerning the application of deadly force, training and 
        tactical issues, policy, equipment, and any potential 
        misconduct arising from the incident.
  <bullet> Consider making these use of force policies openly available 
        for public inspection; policies on the use of force should 
        clearly state what types of information will be released, when, 
        and in what situation to maintain transparency.
    The CBP Use of Force Policy, Guidelines, and Procedures Handbook is 
        publicly available on cbp.gov. Moreover, on April 8, 2016, the 
        UFCE (now LESC) and Office of Public Affairs (OPA) collaborated 
        to release 2015 and 2016 YTD use of force and assault against 
        agent/officer statistics on CBP.gov. LESC submits updated 
        statistics to OPA on the 8th day of each month reflecting the 
        previous month's numbers. OPA posts the updated statistics to 
        cbp.gov after vetting with the appropriate DHS and CBP 
        entities.
 Questions From Honorable Nanette Diaz Barragan for Kevin K. McAleenan
    Question 1a. DHS officials have said that families are being 
separated to protect the interests of minor children because CBP is 
unable to verify the parental relationship or otherwise believe that 
the child is in danger.
    How many cases have been confirmed as false presentation as a 
family unit?
    Answer. Based on existing Federal law, including the Homeland 
Security Act of 2002 and the Trafficking Victims Protection 
Reauthorization Act of 2008, DHS policy states that a family unit is an 
alien parent or legal guardian and alien children. Therefore, if a 
child arrives with a non-parent or legal guardian adult relative, such 
as an aunt, uncle, grandparent, or adult sibling, the child is treated 
as an Unaccompanied Alien Child (UAC).
    In addition, there have been instances of human traffickers and 
aliens smugglers using minor children to pose as a family unit to 
receive favorable discretion regarding DHS custody pending processing 
in accordance with either credible fear interviews with USCIS and/or 
placement into INA Section 240 removal proceedings before an 
Immigration Judge. In fiscal year 2018 from October 1 to April 30, 
there were 148 fraudulent family units encountered between the ports of 
entry along the Southwest Border.
    CBP policy (Transportation, Escort, Detention, and Search (TEDS)) 
states in part that, CBP will maintain family unity to the greatest 
extent operationally feasible, absent a legal requirement or an 
articulable safety or security concern that requires separation. In 
accordance with this policy, CBP strives to maintain the family units 
of illegal aliens in our custody. However, there are numerous 
situations that would require the separation of family units, such as: 
(1) The criminal or immigration history of an adult in the family unit; 
(2) evidence of abuse that would indicate that the child's safety is at 
risk; and (3) questionable familial relationships (fraud).
    Question 1b. What, if any, specific procedures have been put in 
place to determine the validity of a bona-fide family relationship?
    Answer. CBP treats all individuals with dignity and respect, and 
complies with all relevant legal and policy requirements, including the 
requirements of the Flores Settlement Agreement (FSA).
    In addition to adhering to the requirements of the FSA, CBP's 
National Standards on TEDS, states in section 1.9 that ``CBP will 
maintain family unity to the greatest extent operationally feasible, 
absent a legal requirement or an articulable safety or security concern 
that requires separation.''
    In accordance with this policy, CBP strives to maintain the family 
unity of aliens in custody to the greatest extent operationally 
feasible, and that any operational decision to separate a family unit 
is not made without taking the well-being of the child into account.
    During the processing of a purported family unit, CBP agents and 
officers review all available forms of identification, such as birth 
certificates and passports, and all available electronic records to 
determine the relationship between various members. CBP will also 
contact the respective consulate to verify the documentation presented 
to ascertain if a family relationship exists. CBP will observe and 
document the interaction between the travelers to learn whether a 
familial relationship exists. Additionally, if agents/officers suspect 
the claimed familial relationship is false, agents/officers may 
separate the adult and juvenile parties and interview them individually 
to verify statements and detect deception.
    Question 2a. CBP has acknowledged that one main indicator CBP uses 
when deciding to separate a family is based on interviews with 
children.
    Is a child welfare professional present when the CBP officer is 
conducting such questioning?
    Answer. As a Federal Government agency, CBP does not operate as 
part of State-managed child welfare systems. Nonetheless, CBP is 
committed to ensuring child welfare when conducting interviews with 
minors. CBP officers are trained to question children in an ``age-
appropriate'' manner to elicit responses. In addition, CBP officers are 
trained in observational techniques and observe the interaction between 
the adult and children to determine whether the relationship is bona-
fide.
    In October 2015, CBP published National Standards on Transport, 
Escort, Detention, and Search (TEDS) that set forth Nation-wide 
standards governing CBP's interactions with detained individual 
including provisions related to sexual abuse and assault prevention and 
response. The TEDS standards have been implemented in all CBP 
facilities. TEDS reinforces/reiterates the need to consider the best 
interest of children and mandates adherence to established protocols to 
protect at-risk populations to include transporting, detaining, and 
caring for children.
    U.S. Border Patrol agents routinely question children while in 
custody. The majority of the time those questions are referenced to 
their immediate needs such as water, food, blankets, showers, etc. USBP 
facilities are short-term holding facilities and as such are not 
staffed with child welfare personnel. A child welfare professional may 
be brought into our facilities once USBP has determined that a child is 
a UAC, after which placement under HHS/ORR oversight begins and CBP 
transfers custody of the child to their staff to facilitate placement.
    All Unaccompanied Alien Children are screened for potential risks 
to being victims of human trafficking. This is captured on CBP form 93 
Unaccompanied Alien Child Screening Addendum.
    Question 2b. Is there a training guide or protocol that CBP 
officers use to interview children coming across the border to 
determine whether the parent/child relationship is bona-fide?
    Answer. CBP officers receive training on interviewing techniques to 
determine relationships amongst travelers. In addition, CBP officers 
observe the interaction between the adult and child to assess whether 
the relationship is bona-fide.
    Question 2c. Are children of all ages questioned about family ties 
to the individual they enter the United States with?
    Answer. The decision to question children is made on an 
individualized basis, based on the observation of CBP officers and 
supervisors.
    Question 3. The Ports of Los Angeles and Long Beach operate more 
hours than any other cargo gateway in the country because they are 
processing cargo every day of the year. These ports handle over 17 
million TEUs a year, which involves processing over 35,000 truck moves 
a day, and over 100 trains a week with cargo destined for major cities 
throughout the country. Container volumes are forecasted to grow 
approximately 5 percent this year. In order for cargo to flow 
efficiently, CBP needs to operate the radiation portal monitors for a 
minimum of two shifts a day. Is CBP forecasting increased staffing at 
the seaports of Los Angeles and Long Beach for the radiation portal 
monitors to they can handle the increased volume?
    Answer. The Los Angeles Field Office operates the Nation's largest, 
and the world's 10th largest, sea port of entry. Recognizing the 
forecasted trends, CBP is taking active measures to ensure scanning 
operations are adequately staffed with the current workforce, and 
implementing projects to enable efficiencies across radiation scanning 
operations.
    In February 2017, CBP expanded the Reimbursable Services Program 
(RSP) to the seaport environment. CBP Leadership and port personnel at 
Los Angeles/Long Beach have since conducted a number of outreach and 
engagements with port and terminal stakeholders.
    CBP, the Pacific Merchant Shipping Association (PMSA), and other 
terminal operators, have collectively agreed to utilize a phased 
approach to implement the RSP at the Port, beginning June 10, 2018.
  <bullet> Phase 1.--June 10-July 7: Any time before 0730 shift start 
        time;
  <bullet> Phase 2.--July 8-September 30, 2018: Saturday evening (1500-
        0300); and,
  <bullet> Phase 3.--Dates TBD: Full implementation for all coverage 
        outside of core hours.
    Another key efficiency we are working to address this forecasted 
demand is implementation of Radiation Portal Monitoring (RPM) Remote 
Operations, including a Command Center, which will also reduce resource 
issues related to RPM monitoring and adjudication.
    CBP is committed and has agreed to remain in close communications 
with PMSA, and all Marine Terminals, to promote and gain efficiencies 
to minimize the impact and costs to stakeholders.

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
